<html>
<title> - IDENTIFYING THE ENEMY: RADICAL ISLAMIST TERROR</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
             IDENTIFYING THE ENEMY: RADICAL ISLAMIST TERROR

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2016

                               __________

                           Serial No. 114-88

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-270 PDF                WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                 
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Cedric L. Richmond, Louisiana
Earl L. ``Buddy'' Carter, Georgia    Norma J. Torres, California
Barry Loudermilk, Georgia            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
                    Kris Carlson, Subcommittee Clerk
         Cedric C. Haynes, Minority Subcommittee Staff Director
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency......................................     1
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Oversight and Management Efficiency:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12

                               WITNESSES
                                Panel I

Mr. George Selim, Director, Office of Community Partnerships, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                Panel II

Hon. Peter Hoekstra, Former Chairman, House Permanent Select 
  Committee on Intelligence:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Dr. M. Zuhdi Jasser, President, American Islamic Forum for 
  Democracy:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47
Ms. Sahar F. Aziz, Professor of Law, Texas A&M University School 
  of Law:
  Oral Statement.................................................    62
  Prepared Statement.............................................    64
Ms. Shireen Qudosi, Senior Contributor, Counterjihad.com:
  Oral Statement.................................................    78
  Prepared Statement.............................................    80

                             FOR THE RECORD

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Article, Washington Post.......................................     3
  Article, Middle East Briefing..................................     4
  Article, Middle East Briefing..................................     6
  Article, Gulf News Report......................................     7

                                APPENDIX

Questions From Honorable Barry Loudermilk for George Selim.......   101


             IDENTIFYING THE ENEMY: RADICAL ISLAMIST TERROR

                              ----------                              


                      Thursday, September 22, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                             Subcommittee on Oversight and 
                                     Management Efficiency,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 311, Cannon House Office Building, Hon. Scott Perry 
(Chairman of the subcommittee) presiding.
    Present: Representatives Perry, Duncan, Clawson, 
Loudermilk, Watson Coleman, Thompson, Torres, and Jackson Lee.
    Also present: Representatives Meadows, Pascrell, and 
Ellison.
    Mr. Perry. Good morning. The Committee on Homeland 
Security's Subcommittee on Oversight and Management Efficiency 
will come to order. The purpose of this hearing is to examine 
the threat of radical Islamist terrorism and ways to defeat it. 
The Chair now recognizes himself for an opening statement.
    From Muhammed Abdulazeez in Chattanooga, Tennessee, Nidal 
Hasan in Fort Hood, Texas to Syed Farook in San Bernardino, 
California, radical Islamist terrorism is becoming more and 
more frequent and devastating. According to the Committee on 
Homeland Security's September 2016 terror threat snapshot, 
since 2014 there have been 105 ISIS-linked plots to attack the 
West, 30 of those in the United States.
    In 2016 alone, 214 people have been murdered in terrorist 
attacks against the West and just a few months ago, the 
deadliest post-9/11 terror attack on American soil occurred 
when Islamist terrorist Omar Mateen massacred 49 innocent 
people in an Orlando nightclub.
    Unfortunately, the Obama administration is more focused on 
being politically correct in its terminology than actually 
confronting this growing cancer, evidenced by, among other 
things, the unnecessary censorship of Omar Mateen's 9/11 call 
transcript.
    In a joint statement with the FBI, the Department of 
Justice said, the purpose of releasing the redacted transcript 
was not wanting to provide the killer or terrorist 
organizations with a publicity platform for hateful propaganda, 
while still providing transparency. Omitting Omar Mateen's 
pledge of allegiance to ISIS is one of many examples of the 
willful ignorance of this administration in confronting the 
threat of radical Islamist terror.
    If anyone sincerely questions the assertion, you have to 
look no further than 4 days ago when in response to the 
Islamist extremist attacks in New York, New Jersey, and 
Minnesota, White House spokesperson Josh Earnest, said when it 
comes to ISIL, and this is in quotes--``We are in a fight, a 
narrative fight with them, a narrative battle,'' That is great. 
We fight with feckless terms and they slaughter our citizens.
    While the administration says it refrains from using 
certain terms so as not to condemn an entire religion, former 
Speaker of the House Newt Gingrich has said, ``It is 
extraordinary that the political correctness of Western elites 
has discouraged the study of what inspires those who dream of 
slaughtering us. We must understand the deep roots of Islamist 
beliefs if we are going to combat them. It is long past time to 
stop hiding behind the facade of political correctness.''
    ``Radical Islamist terrorists are the ones who threaten our 
freedoms and threaten our way of life, not the millions of 
Muslims who value peace with their American brothers and 
sisters. It is well-documented that these terrorists murder 
more peaceful Muslims for their resistance to Sharia adherence 
than any other group of people. If we are unwilling or afraid 
to name our enemy and to dig deep into their ideological 
motivations, how will we ever destroy this scourge?''
    Retired Army Lieutenant General and former director of the 
Defense Intelligence Agency Michael Flynn said it best. ``We 
are in a world war against a Messianic mass movement of evil 
people, most of them inspired by a totalitarian ideology, 
radical Islam. But we are not permitted to speak or write those 
two words, which is potentially fatal to our culture. We can't 
beat them if we don't understand them and are afraid to define 
them, but our political leaders haven't permitted that.''
    ``We are not allowed to use the phrase radical Islam or 
Islamists. That has got to change. By disavowing the use of 
specific phrases and by denying contributing factors to this 
extremist movement, the administration is undercutting 
prominent Muslims who truly understand that reforming Islam 
must come from within. We must target the root causes of 
radicalization instead of waiting until countless more of our 
citizens are murdered by these radicals and then playing 
defense after the fact.''
    The Department of Homeland Security was established in 
response to the tragic terrorist attacks of September 11, 2001. 
DHS currently is the lead Federal agency in an initiative known 
as countering violent extremism or CVE.
    For example, in September 2015, DHS created the Office of 
Community Partnerships to counter violent extremism by 
coordinating efforts among Federal agencies. Congress already 
appropriated $10 million to DHS for CVE grants for fiscal year 
2016, but we have no way of gauging whether CVE efforts have 
been successful or harmful or if the money is being spent 
wisely.
    Additionally, in September 2015, the Department's Homeland 
Security Advisor Council, or HSHC, established a Countering 
Violent Extremism Subcommittee. However, I was appalled and 
frankly disgusted to learn that a person who tweeted that the 
9/11 attacks changed the world for good was even considered, 
let alone asked to be a member of this group, tasked with 
providing advice to senior Government officials responsible for 
the safety of our Nation.
    In addition, DHS Secretary Jeh Johnson became the first 
cabinet secretary to address the Islamic Society of North 
America's annual conference, addressing an organization that 
was an unindicted co-conspirator in the Holy Land Foundation 
investigation, the largest terror financing investigation in 
American history, is astounding.
    Not only are these examples exceptionally troubling at 
best, they call into question the Department's judgment and 
allegiance when it comes to defeating this obvious threat. The 
scale of these questions is made clear when observers consider 
the outcome of the Holy Land Foundation proceedings. Along with 
their plan, uncovered was the Muslim Brotherhood's goal of 
eliminating and destroying civilization--American civilization.
    Juxtapose that fact with the President's issuance of 
Presidential Study Directive 11. While the document remains 
Classified, open-source reporting by the Washington Post, Gulf 
News, and Middle East Briefing found that in 2010, the Obama 
administration abandoned the long-standing policy of dealing 
with current regimes to ensure Middle East/North Africa 
stability and instead implemented by the State Department, 
transitioned recklessly into a policy of promoting and steering 
political change in targeted countries including Egypt, Libya, 
Yemen, and Syria by partnering directly with the Muslim 
brotherhood.
    I am sure I don't need to remind anyone here of the 
breathtaking, costly, and unprecedented failures of these 
irresponsible actions.
    The purpose of this hearing is to gain an outside 
perspective on the real threat that faces our Nation. Does our 
Government truly understand the extent of radical Islamist 
terror and what needs to be done to combat it? I hope this 
hearing will provide much insight and needed insight into the 
next actions we should take to fulfill our Constitutional duty 
in protecting this country and its ideals. It is time for us to 
identify the enemy and destroy it.
    With that, I would like to request unanimous consent to 
enter into the record the open-source documents regarding the 
Presidential Study Directive 11 into the record.
    Without objection so ordered.
    [The information referred to follows:]
              Obama's Low-key Strategy for the Middle East
By David Ignatius, Washington Post, Sunday, March 6, 2011
    President Obama has been so low-key in his pronouncements about 
events in Egypt and Libya that it's easy to miss the extent of the 
shift in U.S. strategy. In supporting the wave of change sweeping the 
Arab world, despite the wariness of traditional allies such as Israel 
and Saudi Arabia, Obama is placing a big bet that democratic 
governments will be more stable and secure, and thereby enhance U.S. 
interests in the region.
    My own instinct, as someone who has been visiting the Arab world 
for more than 30 years, is that Obama is right. But given the stakes, 
it's important to examine how the White House is making its judgments--
and whether intelligence reporting supports these decisions.
    Though the White House's response to these whirlwind events has 
sometimes seemed erratic, the policy, which has been evolving for many 
months, goes to the core of Obama's worldview. This is the president as 
global community organizer--a man who believes that change is 
inevitable and desirable, and that the United States must align itself 
with the new forces shaping the world.
    An Israeli official visiting Washington last week sounded a note of 
caution: ``We are too close to the eye of the storm to judge,'' he 
said. ``We need to be more modest in our assessments and put more 
question marks at the end.''
    But the Obama White House doesn't feel it has the luxury of 
deferring judgment; history is moving too fast. Says one official, 
``It's a roll of the dice, but it's also a response to reality.'' If 
Obama has seemed low-key, he explains, it has been a calculated 
``strategic reticence'' to send the message: This is your revolution; 
it's not about us.
    The roots of the policy shift go back to Obama's first days in 
office and his feeling that America's relationship with the Arab world 
was broken. Though Obama seemed to be accommodating the region's 
authoritarian leaders, in August 2010, he issued Presidential Study 
Directive 11, asking agencies to prepare for change.
    This document cited ``evidence of growing citizen discontent with 
the region's regimes'' and warned that ``the region is entering a 
critical period of transition.'' The president asked his advisers to 
``manage these risks by demonstrating to the people of the Middle East 
and North Africa the gradual but real prospect of greater political 
openness and improved governance.''
    Six months later, street demonstrations were toppling autocratic 
leaders in Tunisia and Egypt, who looked in vain for support from 
Washington. Obama didn't come to the autocrats' rescue because he 
believed the transformations were positive developments. ``We have a 
core interest in stability through political and economic change. The 
status quo is not stable,'' explains Ben Rhodes, a deputy national 
security adviser.
    The democratic youth movement sweeping the Arab world offered an 
``alternative narrative'' to the versions of Islamic revolution put 
forward by Iran and al-Qaeda, says Rhodes. If this change scenario can 
succeed, threats to America will be reduced.
    The White House studied past democratic transitions in Indonesia, 
the Philippines, Serbia, Poland and Chile for ``lessons learned.'' 
Officials noted that last week national security adviser Tom Donilon 
was reading former secretary of state George Shultz's account of the 
peaceful ouster of Ferdinand Marcos in the Philippines.
    This review has led U.S. officials to conclude that countries need 
to: bring the opposition quickly into the transition to achieve ``buy-
in''; make fast changes that people can see, such as freeing political 
prisoners; and sequence events, putting the easiest first, so that 
presidential elections precede parliamentary balloting and detailed 
rewriting of the constitution.
    How well does this idealistic agenda match up with ground truth? In 
interviews last week, intelligence analysts said that Islamic 
extremists don't seem to be hijacking the process of change. There are 
near-term tactical dangers, said one counterterrorism analyst, such as 
the escape of prisoners in Egypt and the potential weakening of the 
intelligence service there. But this official says there's no evidence 
that al-Qaeda has been able to take advantage of the turmoil. It took a 
week for Ayman al-Zawahiri, the group's No. 2 official, to publish his 
windy and out-of-touch analysis of events in Egypt.
    Change will have its downside, but a second U.S. intelligence 
analyst offers this estimate: ``This is a world we can live with. Our 
relationship with Egypt may be different and rockier, but I don't think 
it will be inherently hostile.'' As for the much-feared Muslim 
Brotherhood, it is currently planning to run parliamentary candidates 
in only 150 of Egypt's 454 districts, and no candidate for president.
                                 ______
                                 
 U.S. State Dept. Document Confirms Regime Change Agenda in Middle East
Middle East Briefing, June 9, 2014
    The Obama Administration has been pursuing a policy of covert 
support for the Muslim Brotherhood and other insurgent movements in the 
Middle East since 2010. MEB has obtained a just-released U.S. State 
Department document through a Freedom of Information Act lawsuit that 
confirms the Obama Administration's pro-active campaign for regime 
change throughout the Middle East and North Africa region.
    The October 22, 2010 document, titled ``Middle East Partnership 
Initiative: Overview,'' spells out an elaborate structure of State 
Department programs aimed at directly building ``civil society'' 
organizations, particularly non-governmental organizations (NGOs), to 
alter the internal politics of the targeted countries in favor of U.S. 
foreign policy and national security objectives.
    The five-page document, while using diplomatic language, makes 
clear that the goal is promoting and steering political change in the 
targeted countries: ``The Middle East Partnership Initiative (MEPI) is 
a regional program that empowers citizens in the Middle East and North 
Africa to develop more pluralistic, participatory, and prosperous 
societies. As the figures in this overview illustrate, MEPI has evolved 
from its origins in 2002 into a flexible, region-wide tool for direct 
support to indigenous civil society that mainstreams that support into 
the daily business of USG diplomacy in the region. MEPI engages all the 
countries of the NEA region except Iran. In the seven of NEA's eighteen 
countries and territories with USAID missions, country-level 
discussions and communication between MEPI and USAID in Washington 
ensure that programming efforts are integrated and complementary.''
    In a section of the document titled ``How MEPI Works,'' three core 
elements of the program were spelled out: region-wide and multi-country 
programming, local grants, and country-specific projects. The 
objectives of the region-wide and multi-country programming were 
described as: ``builds networks of reformers to learn from and support 
one another, and to catalyze progressive change in the region.'' The 
local grants ``provide direct support to indigenous civic groups, and 
now represent more than half of MEPI's projects.'' Under the country-
specific aspect of the program, designated officers of the U.S. 
embassies manage the funding and work as direct liaisons to the various 
funded local NGOs and other civil society groups. The ``country-
specific projects'' are tasked ``to respond to local developments and 
local needs, as identified by our embassies, local reformers, and our 
own field analysis. Political developments in a country may produce new 
opportunities or challenges for USG policy goals, and MEPI will shift 
funds to respond to these needs.''
    According to the October 2010 document, the Deputy Chief of Mission 
(DCM) at every U.S. embassy in the MENA (Middle East/North Africa) is 
in charge of the MEPI program, giving it a clear high priority. The 
document makes clear that the Middle East Partnership Initiative is not 
coordinated with host governments: ``MEPI works primarily with civil 
society, through NGO implementers based in the United States and in the 
region. MEPI does not provide funds to foreign governments, and does 
not negotiate bilateral assistance agreements. As a regional program, 
MEPI can shift funds across countries and to new issue-areas as 
needed.''
    The document makes clear that special priority, as early as 2010, 
was given to Yemen, Saudi Arabia, Tunisia, Egypt and Bahrain, and that 
project headquarters in Abu Dhabi and Tunis were overall coordinating 
centers for the entire regional program. Within a year of its 
inception, Libya and Syria were added to the list of countries on the 
priority list for civil society intervention.
    The State Department document was released as part of an FOIA suit 
focused on Presidential Study Directive 11, which remains classified 
``secret'' and has not yet been released to the public. According to 
MEB sources, PSD-11 spelled out the Obama Administration's plans to 
support the Muslim Brotherhood and other allied ``political Islam'' 
movements believed at the time to be compatible with U.S. foreign 
policy objectives in the region.
    The MEPI is currently directed by Paul Sutphin, who was previously 
U.S. consul general in Erbil, Iraq and more recently, Director of the 
Office of Israel and Palestinian Affairs at the State Department's 
Bureau of Near Eastern Affairs. His deputy is Catherin Bourgeois, who 
was first assigned to MEPI in February 2009 as Division Chief of Policy 
and Programming. Her past State Department assignments have involved 
the development of Information Technology uses in advancing U.S. 
foreign policy goals.
    Two other senior State Department officials have overseen the 
development and expansion of the program since the drafting of the 
October 2010 MEPI document, spelling out its transformation into a 
regime-change force. Tomicah S. Tillemann is the Senior Advisor for 
Civil Society and Emerging Democracies, appointed to that post by then-
Secretary of State Hillary Clinton in October 2010. He remains in that 
post under Secretary John Kerry. He was the founder of the Lantos 
Foundation for Human Rights and Justice, itself an NGO named after 
Tilleman's grandfather, the former U.S. Congressman, Tom Lantos.
    In September 2011, Ambassador William B. Taylor was appointed to 
head the then-newly established Office of the Special Coordinator for 
Middle East Transitions, after having served as the U.S. Ambassador to 
Ukraine during the ``Orange Revolution'' of 2006-2009. According to a 
State Department paper, ``The Office of the Special Coordinator for 
Middle East Transitions (D/MET), established in September 2011, 
coordinates United States Government assistance to incipient 
democracies arising from popular revolts across the Middle East and 
North Africa (MENA) region. The Special Coordinator for Middle East 
Transitions implements a coordinated interagency strategy to support 
designated MENA countries undergoing transitions to democracy-
currently, Egypt, Tunisia, and Libya.''
    The complete State Department documents released under the FOIA 
will soon be available as part of a comprehensive MEB Special Report 
now in production on the regime-change program and its consequences for 
the region. For upcoming details on this report, check the MEB website.
    The Case of Egypt (2): Six Months of Insider Emails from Obama 
   Administration Show Groundwork for Muslim Brotherhood Power Grabs
Middle East Briefing
    In an ongoing Freedom of Information Act lawsuit, the Obama 
Administration has released scores of internal emails, all heavily 
redacted, which nevertheless detail a six month White House-led review 
of prospects of Muslim Brotherhood Islamic rule in the Middle East and 
North Africa (MENA) region. The Obama Administration policy planning 
review took place between September 2010 and February 2011.
    The review process, headed by National Security Council staffers 
Dennis Ross, Samantha Power, Gayle Smith, Ben Rhodes and Michael 
McFaul, began with President Obama's signing of Presidential Study 
Directive 11 (PSD-11) in August 2010, demanding a government-wide 
reassessment of the prospects of political reform and the potential 
role of the Muslim Brotherhood throughout the MENA region. All told, 
dozens of officials from the NSC and the State Department's Bureau of 
Near Eastern Affairs, Office of Middle East Transitions, Office of 
Senior Advisor for Civil Society and Emerging Democracies, the 
Secretary's Policy Planning staff, and the Bureau of Democracy, Human 
Rights, and Labor took part in the six month review.
    A careful review of 98 emails between White House, National 
Security Council and State Department officials reveals that the review 
concluded that the Muslim Brotherhood was a viable movement for the 
U.S. to support throughout North Africa and the Middle East. As the 
result, under Presidential direction, American diplomats intensified 
contacts with top Muslim Brotherhood leaders and gave active support to 
the organization's drive for power in key nations like Egypt, Libya, 
Tunisia and Syria, beginning in early 2011 at the outset of the ``Arab 
Spring.''
    Talking Points prepared for Secretary of State Hillary Clinton for 
a June 30, 2011 visit to Budapest, Hungary headlined ``Muslim 
Brotherhood Q&A,'' written by the Bureau of Near Eastern Affairs' 
Office of Press & Public Diplomacy, ``welcomed dialogue with the Muslim 
Brotherhood,'' particularly in Egypt. The Talking Points emphasized 
that the U.S. was willing to talk to ``all parties committed to 
nonviolence,'' and specifically praised the Egyptian Muslim Brotherhood 
for their ``inclusion of women.'' The prepared answers also noted that 
U.S. contact with the Muslim Brotherhood ``has occurred off and on 
since the 1980s,'' but that these contacts would no longer be 
restricted to elected parliamentarians only.
    A State Department memo from Michael A. Hammer to Jeffrey D. 
Feltman, Anne W. Patterson, Jacob Walles and Roopa Rangaswamy, also 
dated June 30, 2011, noted that ``S got the question at her presser in 
Budapest a short while ago,'' and her answer closely followed the 
Talking Points prepared for her. Secretary Clinton told the press 
conference questioner

``There is no U.S. legal prohibition against dealing with the Muslim 
Brotherhood itself, which long ago renounced violence as a means to 
achieve political change in Egypt and which is not regarded by 
Washington as a foreign terrorist organization. But other sympathetic 
groups, such as Hamas, which identifies the Brotherhood as its 
spiritual guide, have not disavowed violence against the state of 
Israel.''

    The Obama Administration's support for the Brotherhood only first 
began to be questioned in November-December 2012, after Egyptian 
President Mohammed Morsi ordered a violent crackdown on peaceful 
protesters outside the presidential residency, who were demanding more 
inclusive rule and economic progress. At that time, American officials 
confirmed that the Muslim Brotherhood had deployed its own paramilitary 
squads to kidnap some protesters and hold them in secret locations with 
no judicial review or court authority. Some of those victims were badly 
beaten before being eventually released.
    Up until now, the Justice Department has invoked secrecy to block 
the release of PSD-11 and the February 16, 2011 PDD-13 study on the 
prospects of Muslim Brotherhood rule in Egypt and other countries of 
the region. It is anticipated that this decision by the State 
Department and the Justice Department will be challenged in Federal 
court in Washington, D.C. sometime later this year.
    The original PSD-11, an 18-page classified paper, demanded a 
detailed blueprint for how the U.S. could ``push for political change'' 
in countries with ``autocratic rulers'' who are historic allies of the 
United States.
    As part of the study, the Obama National Security Council and key 
State Department officials reviewed the consequences of the U.S. 
rejection of the 2006 Palestinian parliamentary elections, which were 
won by Hamas. The February 16, 2011 secret paper concluded that the 
Muslim Brotherhood's brand of political Islam, combined with its 
fervent nationalism, could lead to reform and stability.
    The study, conducted over the previous 6-month period by an 
Interagency Policy Committee chaired by the NSC, drew a sharp contrast 
between al-Qaeda and the Muslim Brotherhood, despite evidence of 
frequent overlaps of personnel and ideology. One unnamed administration 
official who helped draft the Feb. 16, 2011 PPD-13, stated in March 
2011, ``If our policy can't distinguish between al-Qaeda and the Muslim 
Brotherhood, we won't be able to adapt to this change. We're also not 
going to allow ourselves to be driven by fear.''
                                 ______
                                 
   US document reveals cooperation between Washington and Brotherhood
studies commissioned by the president concluded that the us should back 
                  ``moderate islamists'' in the region
Gulf News Report, Published: 19:32 June 18, 2014
    Dubai: For the past decade, two successive US administrations have 
maintained close ties to the Muslim Brotherhood in Egypt, Tunisia, 
Syria and Libya, to name just the most prominent cases.
    The Obama administration conducted an assessment of the Muslim 
Brotherhood in 2010 and 2011, beginning even before the events known as 
the ``Arab Spring'' erupted in Tunisia and in Egypt. The President 
personally issued Presidential Study Directive 11 (PSD-11) in 2010, 
ordering an assessment of the Muslim Brotherhood and other ``political 
Islamist'' movements, including the ruling AKP in Turkey, ultimately 
concluding that the United States should shift from its longstanding 
policy of supporting ``stability'' in the Middle East and North Africa 
(that is, support for ``stable regimes'' even if they were 
authoritarian), to a policy of backing ``moderate'' Islamic political 
movements.
    To this day, PSD-11 remains classified, in part because it reveals 
an embarrassingly naive and uninformed view of trends in the Middle 
East and North Africa (Mena) region.
    The revelations were made by Al Hewar centre in Washington, DC, 
which obtained the documents in question.
    Through an ongoing Freedom of Information Act (FOIA) lawsuit, 
thousands of pages of documentation of the US State Department's 
dealings with the Muslim Brotherhood are in the process of being 
declassified and released to the public.
    US State Department documents obtained under the FOIA confirm that 
the Obama administration maintained frequent contact and ties with the 
Libyan Muslim Brotherhood. At one point, in April 2012, US officials 
arranged for the public relations director of the Libyan Muslim 
Brotherhood, Mohammad Gaair, to come to Washington to speak at a 
conference on ``Islamists in Power'' hosted by the Carnegie Endowment 
for International Peace.
    A State Department Cable classified ``Confidential'' report says 
the following: ``Benghazi Meeting With Libyan Muslim Brotherhood: On 
April 2 [2012] Mission Benghazi met with a senior member of the Muslim 
Brotherhood steering committee, who will speak at the April 5 Carnegie 
Endowment `Islamist in Power' conference in Washington, D.C. He 
described the Muslim Brotherhood's decision to form a political party 
as both an opportunity and an obligation in post-revolution Libya after 
years of operating underground. The Brotherhood's Justice and 
Construction Party would likely have a strong showing in the upcoming 
elections, he said, based on the strength of the Brotherhood's network 
in Libya, its broad support, the fact that it is a truly national 
party, and that 25 percent of its members were women. He described the 
current relationship between the Brotherhood and the TNC (Transitional 
National Council) as `lukewarm.' ''
    Another State Department paper marked ``Sensitive But Unclassified 
(SBU)'' contained talking points for Deputy Secretary of State William 
Burns' scheduled July 14, 2012 meeting with Mohammad Sawan, the Muslim 
Brotherhood leader who was also head of the Brotherhood's Justice and 
Construction Party. The document is heavily redacted, but nevertheless 
provides clear indication of Washington's sympathies for the emergence 
of the Muslim Brotherhood as a major political force in the post-
Gaddafi Libya. The talking points recommended that Secretary Burns tell 
Sawan that the US government entities ``share your party's concerns in 
ensuring that a comprehensive transitional justice process is 
undertaken to address past violations so that they do not spark new 
discontent.''
    The Burns paper described the Libyan Muslim Brotherhood: ``Prior to 
last year's revolution, the Muslim Brotherhood was banned for over 
three decades and its members were fiercely pursued by the Gaddafi 
regime. The Libyan Muslim Brotherhood (LMB) returned to Libya last year 
after years in exile in Europe and the United States, selected new 
leadership and immediately began to plan for an active role in Libya's 
political future.'' After a redacted section, the document continued, 
``The LMB-affiliated Justice and Construction party, led by Misratan 
and former political prisoner under Gaddafi Mohammad Sawan, was created 
in March 2012. Sawan himself was not a candidate in the elections but 
wields significant influence as the head of the largest political party 
and most influential Islamist party in Libya.''
    The July 14 meeting was attended by both Secretary Burns and 
Ambassador Christopher Stevens. On September 11, 2012, Ambassador 
Stevens and three other American diplomats were killed in a 
premeditated terrorist attack on US mission and CIA facilities in 
Benghazi.
    An undated State Department cable revealed further courting of the 
LMB and its Justice and Construction Party. ``Mohammad Sawan, Chairman 
of Justice and Construction Party, received yesterday at his office in 
Tripoli, Ambassadors of US, UK, FR and IT. The Ambassadors requested 
the meeting to get acquainted with the party's position on the current 
events in Libya, the Government, the Party's demand to sack the Prime 
Minister, the Constitution, GNC lifetime arguments, dialogue 
initiatives and Party's assessment of political and security situation 
in Libya and the region. During the meeting, which took an hour and a 
half and attended by Mohammad Talb, party's International Relations 
officer, and Hussam Naeli, acting liaison officer, Sawan explained that 
the Government has not been able to achieve any success in the core 
files such as security and local government, which both are under the 
direct supervision of the Prime Minister. Such a failure resulted in 
the lack of security, continuous assassinations, kidnappings, crimes, 
smuggling and attacks on public and private property, halt oil exports 
and disruption of water and electricity supply. Sawan stressed that a 
solution is possible and the party presented a clear solution, but the 
Government is not in harmony. He added we are responsible only for 
ministries that we take part in.''
    The State Department cable noted that ``On their part, the 
Ambassadors praised the active role of the Party in the political scene 
and confirmed their standing with the Libyan people and Government 
despite its weaknesses and they are keen to stabilize the region . . . 
At the end of the meeting, Sawan thanked his guests and all stressed 
the need to communicate. The guests affirmed that they will assist 
through Libyan legitimate entities as they did during the revolution.''

    Mr. Perry. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentlelady from New Jersey, Mrs. Watson 
Coleman, for her statement.
    Ms. Watson Coleman. Hi. Thank you, Mr. Chairman. Before I 
enter into my statement, I want to ask unanimous consent that 
Congressman Ellison participate in today's hearing and question 
the witnesses.
    Mr. Perry. Without objection.
    Ms. Watson Coleman. As I am doing this, I also seek 
unanimous consent that Congressman Pascrell participate in 
today's hearing and question the witnesses.
    Mr. Perry. Without objection so ordered.
    Ms. Watson Coleman. Thank you, Mr. Chairman. I want to 
thank you for holding today's hearing. I thank the witnesses 
for your testimony that we will hear today. I also would like 
to thank Linden, New Jersey authorities that apprehended the 
suspected New York and New Jersey bomber on Monday. My thoughts 
and my prayers are with the Officers Padilla and Hammer, and I 
wish them a speedy and complete recovery.
    Last week we honored those who lost their lives on 
September 11, 2001; 15 years after these horrific attacks, we 
recognize that the terrorist threat to the United States has 
evolved. No longer do terrorists have to travel overseas, for a 
training or be directed by a leader of a terrorist organization 
in order to cause harm to the United States.
    As we have seen from the terrorist attacks in Orlando and 
in Charleston, and quite possibly the attacks in Minnesota and 
New York, terrorist attacks in the United States can be lone 
actors inspired by a particular ideology. This ideology can be 
espoused on the internet or in public forums.
    Additionally, propaganda including political discussions, 
such as the name of this hearing, that provide a misnomer to 
the threat, also add to the rhetoric that can inspire a lone 
actor. Inflammatory rhetoric such as a suggestion that the 
United States should ban or surveil certain populations also 
fuel terrorist groups. I caution those with public platforms to 
be more mindful when addressing that threat.
    This is not a matter of being politically correct. This is 
recognizing that our words resonate beyond these four walls. 
The words we say reach terrorists, both foreign and domestic-
inspired. Even though we have complicated the situation by 
debating about labels, the Federal Government, including the 
Department of Homeland Security, has renewed its focus on 
countering violent extremism.
    While the administration states that countering violent 
extremism is a whole-of-Government approach, DHS is seemingly a 
Federal Government leader for countering violent extremism. Our 
witness today is the chair of the Countering Violent Extremism 
Task Force.
    Also, last year DHS created the Office for Community 
Partnerships and recently established the fiscal year 2016 CVE 
grant program. These programs were designed to develop and 
expand efforts to counter violent extremist activity. However, 
while Congress has appropriated the funds for these efforts, 
there has been no CVE strategy issued by the Department, and 
there has been no implementation plan of this strategy 
submitted to Congress.
    I look forward to hearing from you, Mr. Selim, on specific 
CVE strategy that will be implemented, and I look forward to 
you resolving the lack of transparency behind the Department's 
CVE programs.
    Protecting the American people from terrorist threats is 
the reason of the Department of Homeland Security, its 
creation. Therefore, it is imperative that the Department and 
Congress look at the threat picture as a whole.
    So I look forward to hearing from today's witnesses, their 
four perspectives on the threat to this country, what we are 
facing and the ways in which not only DHS but also the Federal 
Government as a whole can counter violent extremism.
    With that, Mr. Chairman, as we consider today's subject 
matter and we consider the activities that we need to engage 
in, the efforts that we need to support, and the work that 
needs to be done and not get hung up on the rhetoric of what we 
call it, I yield back the balance of my time.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                           September 22, 2016
    Last week, we honored those who lost their lives on September 11, 
2001. Fifteen years after these horrific attacks, we recognize that the 
terrorist threat to the United States has evolved.
    No longer do terrorists have to travel overseas for training or be 
directed by a leader of a terrorist organization in order to cause harm 
to the United States.
    As we have seen from the terrorist attacks in Orlando and in 
Charleston, and quite possibly the attacks in Minnesota and New York, 
terrorist attacks in the United States can be lone actors, inspired by 
a particular ideology. This ideology can be espoused on the internet or 
in public forums.
    Additionally, propaganda including political discussions--such as 
the name of this hearing--that provide a misnomer to the threat also 
add to the rhetoric that can inspire a lone actor. Inflammatory 
rhetoric such as the suggestion that the United States should ban or 
surveil certain populations also fuel terrorist groups.
    I caution those with public platforms to be more mindful when 
addressing the threat. This is not a matter of being politically 
correct. This is recognizing that our words resonate beyond these four 
walls.
    The words we say reach terrorists--both foreign and domestic 
inspired. Even though we have complicated the situation by debating 
about labels, the Federal Government, including the Department of 
Homeland Security, has renewed its focus on countering violent 
extremism.
    While the administration states that countering violent extremism 
is a whole-of-Government approach, DHS is seemingly a Federal 
Government leader for countering violent extremism.
    Our witness today is the chair of the countering violent extremism 
task force. Also, last year, DHS created the Office for Community 
Partnerships and recently established the fiscal year 2016 CVE grant 
program. These programs were designed to develop and expand efforts to 
counter violent extremist activity.
    However, while Congress has appropriated funds for these efforts, 
there has been no CVE strategy issued by the Department and there has 
been no implementation plan of this strategy submitted to Congress.
    I look forward to hearing from you, Mr. Selim, a specific CVE 
strategy that will be implemented and I look forward to you resolving 
the lack of transparency behind the Department's CVE programs.
    Protecting the American people from terrorist threats is the reason 
the Department of Homeland Security was created. Therefore, it is 
imperative that the Department and Congress look at the threat picture 
as a whole.
    I look forward to hearing from today's witnesses informed 
perspectives on the threat this country is facing and the ways in which 
not only DHS, but also the Federal Government as a whole, can counter 
violent extremism.

    Mr. Perry. The Chair thanks the gentlewoman.
    The Chair recognizes the gentleman, Mr. Thompson, the 
Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman, and I thank you for 
holding today's hearing. I would also like to thank this 
witness and the other witnesses for their testimony they will 
offer. I join the Ranking Member in thanking the New Jersey 
authorities that apprehended the suspected New York and New 
Jersey bomber on Monday.
    Today we are hearing from the Department of Homeland 
Security and a private-sector panel on the Federal Government's 
effort to counter violent extremism. The threat from violent 
extremism has changed since September 11. Terrorists do not 
have to travel overseas to receive training. As we saw in the 
deadliest attack on U.S. soil since 9/11 in Orlando this past 
June, the terrorists are acting alone, outside of large cells.
    Terrorists do not have to be directed by any one leader and 
do not have to be affiliated with any particular group. 
Terrorists are now being inspired by social media or other 
public platforms including political discourse. While top 
counterterrorism officials have stated that un-American 
policies, such as profiling and exclusion play into the hands 
of terrorists, people with public platforms still continue to 
use this rhetoric.
    For example, there is a Presidential nominee who has chosen 
to call 11 million people rapists and murderers and proposed 
cold war ideological tests on Muslim visitors to this country. 
We have Members of Congress who suggested that we should 
profile entire communities.
    In fact, just yesterday in this very room, we had a Member 
make a comparison of a gifted student's engineering project to 
the bombs that were built by the perpetrator in New York and 
New Jersey. While we put a continued focus on one community and 
debate titles and names, we still willingly neglect the current 
threat picture.
    Yesterday, we also heard from the well-respected heads of 
police departments from across the Nation. They told us that 
foreign terrorist organizations pose a threat to their 
communities. But their officers also live with the threat from 
sovereign citizens and other right and left wing groups.
    Our witnesses agreed that the wide-spread proliferation of 
guns into the hands of terrorists, inspired by foreign and 
domestic extremists, haunt law enforcement every day.
    This was not the committee's first time hearing that guns 
were adding complexities to the current threat picture. 
Secretary Johnson testified that in order for Homeland Security 
to improve there must be sensible gun laws. Even though we just 
have had testimony from the Secretary of Homeland Security and 
police on the front lines about the need for gun reform, the 
Republican majority continues to block legislation to keep guns 
out of the hands of terrorists.
    Knowing that the threat landscape has changed, the 
Department of Homeland Security renewed its focus countering 
violent extremism. In September 2015, DHS established the 
Office of Community Partnerships to further the Department's 
CVE efforts. DHS also chairs the administration's CVE task 
force, which places the agency at the front of the 
administration's CVE efforts.
    While the Department has renewed its focus on countering 
violent extremism and is a part of this task force, DHS, which 
stated that there was a Department-wide CVE strategy in 
formation, still has not sent this strategy or implementation 
plan to Congress.
    Hopefully today, Mr. Selim can give this subcommittee a 
date that the DHS CVE strategy and implementation plan will be 
submitted to Congress. Furthermore, even though the Department 
has this new office that is supposed to counter violent 
extremism of all types, its testimony contains short-sighted 
examples.
    Foreign terrorist organizations are mentioned approximately 
20 times throughout the Department's testimony. The Department 
does not articulate any activity in which it engages to counter 
violent extremism from domestic movements.
    I can say that I am not shocked. However, as an agency 
whose mission is to secure the Nation from the threats we face, 
I will say that having such a myopic approach to countering 
violent extremism is a disservice to the American people.
    Today I anticipate a robust discussion and hope that both 
our Members and witnesses will respectively engage in a 
constructive dialog that will inform our counter violent 
extremism policies and efforts going forward. With that, I 
yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 22, 2016
    Today, we are hearing from the Department of Homeland Security and 
a private-sector panel on the Federal Government's efforts to Counter 
Violent Extremism. The threat from violent extremism has changed since 
September 11.
    Terrorists do not have to travel overseas to receive training. As 
we saw in the deadliest terror attack on U.S. soil since 9/11, in 
Orlando this past June, the terrorists are acting alone, outside of 
large cells. Terrorists do not have to be directed by any one leader 
and do not have to be affiliated with any particular group. Terrorists 
are now being inspired by social media and other public platforms, 
including political discourse.
    While top counterterrorism officials have stated that un-American 
policies such as profiling and exclusion play into the hands of 
terrorists, people with public platforms still continue to use this 
rhetoric. For example, there is a Presidential nominee who has chosen 
to call 11 million people rapists and murders and proposes Cold War 
ideological tests on Muslim visitors to this country. We have Members 
of Congress who suggest that we should profile entire communities. In 
fact, just yesterday in this very room, we had a Member make a 
comparison of a gifted student's engineering project to the bombs that 
were built by the perpetrator in New York and New Jersey.
    And while we put a continued focus on one community and debate 
titles and names, we still willingly neglect the current threat 
picture. Yesterday, we also heard from well-respected heads of police 
departments from across this Nation. They told us that foreign 
terrorist organizations pose a threat to their communities, but their 
officers also live with the threat from sovereign citizens and other 
right- and left-wing groups.
    Our witnesses agreed that the wide-spread proliferation of guns 
into the hands of terrorists inspired by foreign and domestic 
extremists haunts law enforcement every day. This was not the 
Committee's first time hearing that guns were adding complexities to 
the current threat picture. Secretary Johnson testified that in order 
for homeland security to improve there must be sensible gun laws.
    Even though we have testimony from the Secretary of Homeland 
Security and police on the front lines about the need for gun reform, 
the Republican majority continues to block legislation to keep guns out 
of the hands of terrorists.
    Knowing that the threat landscape has changed, the Department of 
Homeland Security renewed its focus countering violent extremism. In 
September 2015, DHS established the Office of Community Partnerships to 
further the Department's CVE efforts. DHS also chairs the 
administration's CVE task force, which places the agency at the 
forefront of the administration's CVE efforts. While the Department has 
renewed its focus on countering violent extremism and is a part of this 
task force, DHS--which stated that there was a Department-wide CVE 
strategy in formation--still has not sent this strategy or 
implementation plan to Congress.
    Hopefully, today, Mr. Selim can give this subcommittee a date that 
the DHS CVE strategy and implementation plan will be submitted to 
Congress.
    Furthermore, even though the Department has this new office that is 
supposed to counter violent extremism of all types, its testimony today 
contains short-sighted examples.
    Foreign terrorist organizations are mentioned approximately 20 
times throughout the Department's testimony. The Department does not 
articulate any activity in which it engages to counter violent 
extremism from domestic movements.
    I can say that I am not shocked; however, as the agency whose 
mission is to secure the Nation from the threats we face, I will say 
that having such a myopic approach to countering violent extremism is a 
disservice to the American public.
    Today, I anticipate a robust discussion and hope that both our 
Members and witnesses will respectfully engage in a constructive 
dialogue that will inform our countering violent extremism policies and 
efforts going forward.

    Mr. Perry. The Chair thanks the Ranking Member. Other 
Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    We are pleased to have two panels of distinguished 
witnesses before us today. The witnesses' entire written 
statements will appear in the record.
    The Chair will introduce the first panel and then recognize 
you for your testimony. Our first panel, Mr. George Selim is 
the director of the Office of Community Partnerships at the 
Department of Homeland Security. Mr. Selim also leads the 
interagency Countering Violent Extremism or CVE Taskforce 
intended to integrate and synchronize Federal efforts on this 
issue. Previously, he served for 4 years as the White House's 
director of community partnerships on the National Security 
Council.
    Prior to his work at the White House, Mr. Selim was a 
senior policy advisor in the Office of Civil Rights and Civil 
Liberties at the Department of Homeland Security. He is also a 
commissioned officer in the U.S. Navy Reserve, and I thank you 
for your service, sir. Thank you for being here today.
    The Chair now recognizes Mr. Selim for your opening 
statement.

   STATEMENT OF GEORGE SELIM, DIRECTOR, OFFICE OF COMMUNITY 
       PARTNERSHIPS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Selim. Thank you, Chairman Perry. Good morning, Ranking 
Member Watson Coleman, Ranking Member Thompson, and 
distinguished Members of the subcommittee for the opportunity 
to testify today. Let me also start out by acknowledging the 
outstanding work of the first responders, law enforcement, and 
intelligence professionals both in the New York-New Jersey area 
and in the State of Minnesota for their heroic work over the 
course of the past several days.
    I welcome the opportunity to appear before you to discuss 
priorities and key actions of the Department of Homeland 
Security to counter violent extremism. I have considerable 
personal and professional equities in protecting our homeland, 
as the Chairman kindly laid out.
    By way of background, I have spent over a decade as a civil 
servant at the Department of Homeland Security. I have also 
served at the Department of Justice and at the National 
Security Council staff at the White House. In addition, I am a 
commissioned officer in the United States Navy Reserve and view 
the call to public service as one of the greatest honors our 
country offers all people regardless of race, religion, or 
National origin.
    In recent years, the threat of violent extremism has 
evolved. The types of attacks we have seen at home and abroad 
are not just terrorist-directed attacks, but they are also 
terrorist-inspired attacks, as ISIL and other extremist groups 
are turning to the internet to inspire lone offenders.
    By their nature, attacks involving self-radicalized 
individuals or lone offenders are harder for intelligence and 
law enforcement professionals to detect, and they can occur 
with little or no notice. The attacks in San Bernardino, 
Orlando and, most recently in New York, New Jersey, and 
Minnesota highlight both the urgency and severity of the threat 
that we face today.
    So what are we doing about it? The evolving threat posed by 
home-grown violent extremism requires going beyond the 
traditional counterterrorism approach and focusing not just on 
mitigation, but also on preventing and intervening in the 
process of radicalization. This prevention framework that I 
have just mentioned is known to many as countering violent 
extremism or CVE.
    As was noted earlier, in September 2015, Secretary Johnson 
announced the creation of the office that I am honored to lead, 
the Office for Community Partnerships within DHS. This office 
is the focus of our Department's efforts to counter violent 
extremism and works to build effective partnerships with 
communities across the country for this purpose.
    Our CVE efforts depend on working in a unified and cohesive 
manner across the U.S. Government. That is why we have 
established the CVE task force, currently headquartered at DHS, 
to organize all our CVE efforts across the domestic spectrum.
    This new task force could not have been possible without 
the strong partnership from the Department of Justice, who have 
appointed my deputy director and several key staff to this 
interagency body.
    A unified effort is necessary given the threat environment 
we face today. Terrorist groups, such as ISIL, have undertaken 
a deliberate strategy of using social media to reach 
individuals susceptible to their message and recruit and 
radicalize them to violence. The Office for Community 
Partnerships and the CVE taskforce depend on a range of 
stakeholder partners to reach individuals before they can be 
radicalized.
    Our partners in Federal, State, and local governments, 
along with law enforcement, civic and faith leaders, educators, 
social service organizations, mental health providers, and the 
private sector are essential to a unified mission set. Our 
efforts are Federally-driven, but they are locally-focused.
    Our CVE efforts aim to counter the types of ideological 
recruitment we have seen in recent years, focusing on potential 
root causes and drivers and working to provide off-ramps for 
individuals who may have taken steps toward embracing an 
ideology that advocates violence.
    At the same time, we remain consistent in rejecting the 
terrorist narrative that the West is in conflict with Islam, 
while denying ISIL, the religious legitimacy that they 
desperately seek as part of their broader effort to continually 
recruit and radicalize American citizens to violence. Our goal 
is to empower credible voices within communities that are 
targeted by violent extremists.
    Research has proven that young people, millennials, victims 
of terrorism, and community-based organizations are the most 
credible voices to discourage those in danger of being 
radicalized to violence, and our role in the Federal Government 
should be to give those partners the tools and resources they 
need to raise their own voices.
    Some of these tools can be provided by technology 
companies, and we are working with the private sector to 
encourage efforts to counter ISIL and other extremist groups 
on-line. One of these signature efforts that I have testified 
to before is titled the Peer-to-Peer Challenging Extremism 
Competition, which I am happy to expand on. Our efforts to 
develop locally-driven prevention-based CVE frameworks, 
incorporate both on-line and in-person efforts.
    Thanks to the $10 million in CVE grant funding that 
Congress appropriated in the fiscal year 2016 omnibus 
appropriations act, we can continue to take this fight to the 
next level. On July 6 of this year, the Department formally 
issued the notice of funding opportunity for fiscal year 2016 
countering violent extremism grant program with $10 million in 
available funds.
    This is the first Federal assistance program devoted 
exclusively to providing local communities with the resources 
to counter violent extremism in the homelands. This grant 
program was developed by the DHS Office of Community 
Partnerships in partnership with our colleagues and partners at 
FEMA. The grant period just closed, and I am pleased to 
announce the results have been extraordinary.
    We received over 200 grant applications from over 42 States 
and territories. All told, we received over $100 million in 
grant applications. This is a tremendous indication of both the 
need and desire of State, local, and community-based partners 
to proactively engage in these efforts. This grant opportunity 
is an important part of our CVE work in building a 
comprehensive model that incorporates both cyber space and 
community space.
    As I have stated, events of the last week underscore just 
how urgent these issues remain and how critical our CVE efforts 
are in addressing some of our most critical challenges that we 
face today.
    Chairman and Ranking Member, thank you again for the 
opportunity to provide testimony today, and I look forward to 
working with you and your staffs on this issue.
    [The prepared statement of Mr. Selim follows:]
                       Statement of George Selim
                           September 22, 2016
    Chairman Perry, Ranking Member Watson Coleman, and distinguished 
Members of the subcommittee, thank you for the opportunity to submit 
this written statement for the record. I welcome the opportunity to 
discuss priorities and key actions of the Department of Homeland 
Security (DHS) to Counter Violent Extremism (CVE).
                           overview of threat
    In recent years, the threat of violent extremism has evolved. 
Terrorists at home and abroad are attempting to radicalize and recruit 
individuals to commit acts of violence within the United States. As 
Secretary Johnson has said, we are in a new phase in the global 
terrorist threat.
    DHS recognizes that the types of attacks we have seen at home and 
abroad are not just terrorist-directed attacks, but also terrorist-
inspired attacks. These attacks are conducted by those who live among 
us in the homeland and become inspired and radicalized to violence by 
terrorist propaganda on the internet. We are concerned about attempts 
by ISIL and other terrorist groups to inspire lone offenders. For 
example, ISIL consistently releases high-quality English-language 
videos and magazines promoting its alleged caliphate and calling for 
supporters in the West to pursue attacks in their homelands.
    Terrorist-inspired attacks are often difficult to detect by our 
intelligence and law-enforcement communities. They can occur with 
little or no notice, and present a complex homeland security challenge. 
As ISIL continues to lose territory, it has increased its attacks and 
attempted attacks on targets outside of Iraq and Syria. We were 
forcefully reminded of this on the morning of June 12, 2016 when over 
300 individuals were terrorized in an Orlando night club by a man who 
shot and killed 49 individuals and injured 53 more. We believe he may 
have been inspired, in part, by terrorist organizations overseas, 
resulting in the worst mass shooting in U.S. history. Further, the 
events just last weekend in New York, New Jersey, and Minnesota 
underscore the urgency of this issue.
    The current threat environment requires us to build on conventional 
approaches to counterterrorism. Countering violent extremism (CVE) has 
become a key focus of DHS's work to secure the homeland. Al-Qaeda and 
ISIL continue to target Muslim-American communities in our country to 
recruit and inspire individuals to commit acts of violence. Well-
informed families and communities are our best defense against 
terrorist ideologies, which represent the current threat from ISIL's 
propaganda. Within this context, working with communities to prevent 
radicalization to violence has become imperative. Muslims are 
undoubtedly the group most directly targeted by ISIL overseas. In the 
United States, they may also be best placed to identify potential 
indicators of ISIL-inspired attacks.
    We also know that plots inspired by ISIL and al-Qaeda are not the 
only violent extremist threats we face. These threats come from a range 
of groups and individuals, including domestic terrorists. Individuals 
inspired by ISIL and al-Qaeda continue to pose the most immediate 
threat, as the attacks in San Bernardino and Orlando have demonstrated, 
but events in Charleston, Dallas, and Oak Creek illustrate that there 
are a range of behaviors and motivations that can lead to violent 
extremism domestically. As we tragically experienced 15 years ago with 
the terrorist attacks on 9/11, a failure to adapt to an evolving threat 
can have devastating consequences, and we want to ensure that we are 
focused on the full landscape of the violent extremist spectrum.
    The DHS Office for Community Partnerships (OCP) was set up to 
further our domestic CVE efforts and provide support to communities, 
State and local partners, and civic organizations who are actively 
seeking tools and resources to protect their communities. Since 9/11, 
we have seen time and time again that Federal efforts to counter 
violent extremism will only be successful with the trust of local 
communities and stakeholders.
                taking our cve efforts to the next level
    When Secretary Johnson announced an Office for Community 
Partnerships in 2015, he instructed me to focus the Department's 
efforts on countering violent extremism and work to build relationships 
and promote trust with local communities across the United States.
    OCP's mission includes efforts to support and enhance efforts by 
key stakeholders to prevent and counter radicalization and recruitment 
to violence. The Office leverages the resources and relationships of 
the Department and applies the personal leadership of the Secretary and 
senior officials to empower leaders in both the public and private 
sectors by raising awareness of the threat of violent extremism.
    We are focused on partnering with and empowering communities by 
providing them a wide range of resources to counter violent extremism. 
In addition, we are partnering with the private sector to find 
innovative, community-based approaches to countering violent extremism 
on social media. Key stakeholders and partners working with OCP include 
the private sector, civil society, and local law enforcement. 
Influential community leaders such as religious leaders, city councils 
and local non-governmental organizations (NGOs) work directly with OCP 
field staff in identifying community priority issues, conducting CVE 
community exercises, and addressing concerns at community engagement 
roundtables in partnership with the DHS Office for Civil Rights and 
Civil Liberties. OCP also works with local, State, and Federal law 
enforcement by providing training, exercises, and technical assistance.
    Advancing that effort also means working in a unified and 
coordinated way across the U.S. Government, which is the purpose of the 
interagency CVE Task Force announced in January 2016. The Task Force is 
hosted and currently led by DHS, and the leadership will rotate every 2 
years between a DHS and a Department of Justice (DOJ) executive. The 
Task Force includes participation from over 10 departments and agencies 
across the Federal Government.
    The mission of the Task Force is to organize CVE efforts across the 
Federal Government and coordinate a whole-of-Government approach to 
empower local partners to prevent violent extremism in the United 
States. Specifically, its major objectives include coordinating and 
prioritizing Federal CVE research and establishing feedback mechanisms 
to increase the relevance of CVE findings; synchronizing Federal CVE 
outreach and engagement; managing CVE communications and leveraging 
digital technologies to engage, empower, and connect CVE stakeholders; 
and supporting the development of intervention programs. Ensuring that 
the Nation's CVE efforts are sufficiently resourced as described in the 
President's fiscal year 2017 budget has been an integral part of our 
overall efforts.
                         international efforts
    Internationally, DHS regularly exchanges best practices and works 
to enhance our understanding of regional threat variation through 
multilateral and bilateral engagements. Robust international 
engagements enhance our understanding of the challenges posed by 
radicalization to violence and provide useful mechanisms for developing 
new approaches for addressing these challenges. Moving forward, we will 
pursue efforts to share promising practices and research among many 
countries to enhance our understanding and build a stronger evidence 
base.
    In addition to our international partnerships, OCP also works 
closely with the State Department's Global Engagement Center (GEC). The 
Task Force leadership and GEC leadership regularly meet to discuss a 
range of CVE issues. In addition, the GEC director and I have open 
lines of communication, as do a number of their key personnel with OCP 
and Task Force staff. DHS also has a full-time detailee to the GEC who 
regularly reports to and meets with Task Force personnel. Finally, the 
Task Force receives GEC guidance on messaging opportunities as well as 
on-going strategic guidance on themes used by the Global Coalition to 
Counter ISIL, which are then disseminated to a range of key 
stakeholders as appropriate.
    We also work closely with other Department of State offices on CVE-
related issues. The Task Force works closely with the CT/CVE Bureau and 
the Department of State's CVE director.
                     working to de-legitimize isil
    As the President recently noted after a counter-ISIL meeting with 
members of the National Security Council, ``Groups like ISIL and al-
Qaeda want to make this war a war between Islam and America, or between 
Islam and the West. They want to claim that they are the true leaders 
of over a billion Muslims around the world who reject their crazy 
notions. They want us to validate them by implying that they speak for 
those billion-plus people; that they speak for Islam. That's their 
propaganda. That's how they recruit. And if we fall into the trap of 
painting all Muslims with a broad brush and imply that we are at war 
with an entire religion--then we're doing the terrorists' work for 
them.''\1\
---------------------------------------------------------------------------
    \1\ https://www.whitehouse.gov/the-press-office/2016/06/14/remarks-
president-after-counter-isil-meeting.
---------------------------------------------------------------------------
    Within this context, the Department and the administration continue 
to reject the terrorist narrative that the West and Islam are in 
conflict, as well as the notion that terrorists like ISIL genuinely 
represent Islam. To be successful in our homeland security efforts, we 
have to underscore and reinforce the fact that ISIL does not represent 
Islam and cannot justify its barbaric terrorism with twisted 
interpretations of one of the world's most prominent religions.
    The President has also noted that Muslim-American communities have 
a role to play in helping counter these narratives and addressing the 
perversion of Islam, but it is not the role of those who practice one 
faith alone. Every community has a role to play in active citizenry. 
While we do so, our civil rights and civil liberties must also be 
upheld. Ultimately, our CVE efforts will only be successful with the 
participation of all community leaders.
     countering on-line recruitment and radicalization to violence
    As terrorist groups such as ISIL continue to undertake a deliberate 
strategy of using social media to reach into our country and recruit, 
radicalize, and mobilize individuals to violence, the private sector's 
efforts on this issue have become critical.
    As part of supporting efforts to counter terrorist messaging and 
recruitment on-line, the Department supports the Peer-To-Peer (P2P): 
Challenging Extremism contests. Launched in 2005, P2P is a Government-
sponsored competition to empower students at universities to develop 
innovative and powerful social media campaigns that include positive, 
alternative, or counter narratives to challenge violent extremism. 
Student teams work with a faculty advisor while earning academic credit 
to research, design, and launch social media campaigns that have a 
measurable impact on their campus, community, and country.
    Since its inception in spring 2015, more than 3,000 students 
representing 125 university teams from more than 30 countries have 
participated in this unique program. In fall 2016, DHS is supporting 50 
teams at U.S. colleges and universities, and DHS remains committed to 
working with partners across the Government to scale up these domestic 
student-designed campaigns and projects.
    Facebook became the first technology partner to join the P2P 
project in the summer of 2015. As part of the partnership, Facebook 
sponsors a competition of the top 3 teams who demonstrate the best 
integration of Facebook into their broader digital and social media 
campaigns at the Facebook Global Digital Challenge event. Facebook also 
provides advertisement credits on their platform to each of the teams 
(domestic and international) during the competition. Facebook's 
participation has also allowed the initiative to expand to more than 
one hundred international teams in fall 2016.
    Through the P2P program, we have seen that young people are 
essential to our work in creating credible and positive messages that 
counter violent extremism. That is why, for example, DHS is currently 
working with partners across the Government to scale up domestic 
student-designed campaigns and projects. This will require support from 
Government, non-Government organizations, and private-sector partners 
to transition viable student projects to market.
    At the Department, we are aware that there is a limit to the 
effectiveness of Government efforts with regard to countering terrorist 
recruitment and radicalization to violence, particularly on-line. Local 
communities are best positioned to intervene, and they must address 
these issues with both on-line and off-line solutions. We at DHS can 
act as a facilitator, connector, and convener, but ultimately, 
communities and individuals are best positioned to take action to 
counter violent extremism.
    In addition to supporting the P2P program, the Task Force includes 
a team dedicated to communications and digital strategy. The Task Force 
builds partnerships with the private sector to identify and amplify 
credible voices to counter narratives promoted by ISIL, domestic 
terrorists, and other violent extremists. This includes a multi-
platform communications strategy that leverages the use of digital 
technologies to engage, empower, and connect CVE stakeholders.
    Ultimately, the Department believes that the innovative private 
sector that created so many technologies our society enjoys today can 
also help create tools to limit terrorists from using these 
technologies for terrorist recruitment and radicalization to violence. 
We applaud and are encouraged by the private sector's increasing 
efforts to address the fraction of their users exploiting their 
technologies for nefarious ends. In addition, we recognize the critical 
role that the private sector and NGOs can play in continuing their 
efforts to develop creative and effective solutions to counter how 
terrorists use media platforms for these purposes. Going forward, we 
will continue to convene a wide range of disciplines, including civil 
society, technology companies, and content producers. We are encouraged 
by a number of initiatives underway and applaud those who see the 
common challenge terrorism poses and are continuing to take proactive 
steps to make it harder for terrorists to operate.
                         dhs cve grants program
    In December 2015, Congress appropriated CVE funds in the fiscal 
year 2016 Omnibus Appropriations Act, which allocated $10 million in 
CVE grant funding to be administered jointly by OCP and FEMA. This is 
the first time Federal funding at this level will be provided, on a 
competitive basis, specifically to support local CVE programming. And 
it is the first Federal assistance program devoted exclusively to 
providing local communities with the resources to counter violent 
extremism in the homeland. The funding will be competitively awarded to 
State, Tribal, territorial, and local governments, nonprofit 
organizations, and institutions of higher education to support new and 
existing community-based efforts to counter violent extremist 
recruitment and radicalization to violence.
    The Department formally issued a notice of funding opportunity on 
July 6, 2016, announcing the new Countering Violent Extremism Grant 
Program. Applications were due September 6, and the response has been 
extraordinary. We received over 200 applications from 42 States, 
territories, and Washington, DC. Applications are from a broad array of 
applicants: Local and State governments; regional coalitions of 
governments, both law enforcement and non-law enforcement; universities 
and non-profits with a broad spectrum of missions, including peace and 
diplomacy, civic engagement, refugee services, and mental health 
services; and institutions with religious affiliations, including 
multiple faiths and interfaith organizations. As of today, the 
anticipated award date will be no later than December 1, 2016.
                             moving forward
    Our efforts to develop a locally-driven, comprehensive, prevention-
based CVE framework remain on-going. We have taken great strides over 
recent months to professionalize and institutionalize the CVE 
infrastructure of the Department and the U.S. Government as a whole. 
However, more work remains.
    Preventing future recruits to terrorism has become more important 
than ever. A generation ago, individuals may have been radicalized to 
violence by someone they knew in person over the course of several 
years; now, while that still takes place, it is far more common for 
individuals to be radicalized to violence on-line. One example of the 
older model in transition is Zachary Chesser, a Virginia native who 
pled guilty to supporting terrorists overseas and crimes of violence. 
He was a typical suburban Virginia youth: Growing up, he was a good 
student and a soccer fan. He radicalized to violence between 2008 and 
2010, integrating on-line violent extremist material with in-person 
relationships, and the exchange of formal letters.\2\
---------------------------------------------------------------------------
    \2\ https://www.hsgac.senate.gov/imo/media/doc/
CHESSER%20FINAL%20REPORT.pdf.
---------------------------------------------------------------------------
    By contrast, we now see individuals recruited to fight for ISIL 
based on information obtained exclusively on-line. ISIL's deft use of 
the internet, together with the wide availability of its messaging, has 
broadened the population of potentially vulnerable individuals and 
shortened the time span of their recruitment.
                               conclusion
    The recent events in San Bernardino, Orlando, and most recently in 
New York, New Jersey, and Minnesota highlight the urgency and severity 
of this threat. As such, the CVE efforts undertaken by both the 
Department and the CVE Task Force are paramount to address one of the 
most significant homeland security challenges facing the Nation.
    This is the vision we are working to implement today, through the 
important work of building a comprehensive CVE model that ensures safe 
and resilient communities in the homeland. Thank you again for the 
opportunity to address this critical issue.

    Mr. Perry. Thank you, Mr. Selim.
    The Chair now recognizes himself for questioning. As we 
discussed before the hearing, you and I, we do have a common 
enemy. We in Congress, many Americans, certainly the peaceful 
Muslim community, many of us remain frustrated with this 
disconnect of verbiage.
    With that, earlier this month, the Secretary himself spoke 
at ISNA, their annual convention, a group that has been named 
in the Holy Land Foundation investigation trial, the largest 
terror financing trial in American history, as their keynote 
speaker. I don't know how else to put it, but let me ask you 
this question.
    How can we as Members of Congress and as citizens be sure 
that the Department is not using some of this grant money, some 
of this $10 million and sending that hard-earned tax money to 
questionable organizations such as ISNA or anybody else? How 
can we be assured of that?
    Mr. Selim. Thank you, Chairman, for that question. Let me 
start out by saying I was with the Secretary at that event and 
I have personally attended the Islamic Society of North America 
convention for many years. It is one of the largest platforms 
to conduct outreach and interact with the American Muslim 
community. There are over 20,000 attendees.
    I am happy to share a version of the remarks that the 
Secretary delivered there, and by way of background, he was the 
first-ever Cabinet official to address that audience. His 
message was widely well-received by those who participated.
    In specific regard to your question on ensuring that the 
grant funding is appropriately awarded, you know, we have taken 
painstaking measures, as is outlined in our notice of funding 
opportunity, to ensure a rigorous review and evaluation and 
awarding process for ensuring that any award that the 
Department is considering making goes through a thorough and 
adequate review.
    Mr. Perry. So but by way of answering the question it kind-
of leads to more questions about that, and specifically does 
that mean--you have attended. It was a great event. It is a 
great organization. It is big, et cetera.
    Does that mean that ISNA, once again an unindicted co-
conspirator in the largest terror financing trial and finding 
in American history, could they receive some of this grant 
money?
    Mr. Selim. The Islamic Society of North America is as a, if 
they are a 501(c)3, I think they are, I have never actually 
reviewed their paperwork status. If they are 501(c)3, under the 
rules of the notice of funding application, they are eligible 
to apply for a grant in this program.
    Mr. Perry. I understand they are eligible to apply. Would 
they be able--would you grant them the funds? Is there any 
prohibition to someone that is involved in terror financing 
from receiving hard-earned taxpayer funds?
    Mr. Selim. I am not aware of any list in the U.S. 
Government of any 501(c)3s that are prohibited from applying 
for a Federal grant.
    Mr. Perry. So there are no barred individuals or 
organizations as you currently know, for any reason?
    Mr. Selim. Not just the DHS program, from any Federal grant 
program.
    Mr. Perry. But we are talking about National security, and 
we are talking about known affiliates of terrorist 
organizations and terror financing. So that is what--I am 
trying to be particular. I understand maybe somebody else does 
it, but we are not necessarily concerned about who builds a 
sidewalk or beautification, or what have you.
    Mr. Selim. Sure.
    Mr. Perry. That has nothing to do with National security. 
But this does have National security implications. So there is 
no known prohibition at this time to any organizations that 
might be involved in terror or terror financing from receiving 
these taxpayer dollars?
    Mr. Selim. What I can assure you, Mr. Chairman, is that 
there is a high degree of scrutiny and review for every grant 
applicant whether that be a Muslim-affiliated organization or 
non-Muslim-affiliated organization. Each and every grant 
application that we receive has four degrees of review that it 
goes through.
    Mr. Perry. I appreciate that. But the fact remains there is 
no prohibition, right? Is that what we have established?
    Mr. Selim. I am not aware of any----
    Mr. Perry. You are not aware of any at least. OK, great. So 
what are your metrics to gauge effectiveness? I went through 
your testimony, the long form, the long, so to speak, portion 
of it, and I have a hard time putting together how we start and 
how we finish.
    You know, it seems like--I hate to say it, but a lot of 
mumbo-jumbo to me. So what are the metrics? How do you 
determine whether you are successful? What are we getting as 
taxpayers for our $10 million, and how do you determine whether 
it is working or not?
    Mr. Selim. Thank you for that question. So part of the 
metrics are evaluated on an application-by-application, on a 
program-by-program basis. Each and every application has a 
different set of metrics.
    On page 26 of the notice of funding opportunity we lay out, 
we lay out 10 clear criteria that each and program must apply 
and must meet to even be considered for a potential award. That 
includes a range of different factors, which I am happy to go 
over in much more detail later, that has measures of 
effectiveness, performance measures----
    Mr. Perry. Mr. Selim, can you give us a couple examples? My 
time has expired. I just want to get an idea of what are some 
of those examples of the metric?
    Mr. Selim. Sure, so in the categories of potential 
applications that we have for training, countering extremist 
narratives, and a range of other issues, you know, a successful 
application would be implementing a campaign to counter 
extremist narratives on-line, developing and implementing a 
training or education program for State and local law 
enforcement, community----
    Mr. Perry. But you understand that is the input. So yes, 
they do that. let's say they put a great campaign together for 
on-line advertising or whatever.
    Mr. Selim. Sure.
    Mr. Perry. How do you gauge, what is the deliverable? How 
do you gauge whether it was successful? Whether it lowered the 
incidence of radicalization or whatever the goal is. How do you 
gauge that?
    Mr. Selim. So specifically for on-line campaigns, there are 
three kind-of core metrics for any kind of on-line campaign. 
There is the reach, there is the kind of effect, and there is 
the measurement of did we make a particular, you know, set of 
individuals who clicked on a particular program and engaged in 
it in a certain way. We got them to take some type of measure 
to implement a training curriculum at their school, at their 
house of worship, at their community-based organization or 
others, you know. But many----
    Mr. Perry. My time has expired. I appreciate it, but I want 
to be respectful. Thank you, sir.
    Mr. Selim. Thank you.
    Mr. Perry. The Chair now recognizes the Ranking Member, 
Mrs. Watson Coleman for her questioning.
    Ms. Watson Coleman. Thank you, Mr. Chairman. I think I need 
to agree that I am somewhat confused about whether or not you 
are operating, Mr. Selim, with a strategy and with an 
implementation strategy. I don't quite understand the criteria 
that is being used when you put out the request for the grants 
and what you will be looking into. So you have been in 
operation for 1 year, right?
    Mr. Selim. Just under, yes, ma'am.
    Ms. Watson Coleman. During that year, have you done 
anything outside of the agency other than putting the agency 
together, putting together sort-of the flow of work, who is 
responsible for what?
    Mr. Selim. Yes, ma'am.
    Ms. Watson Coleman. Have you--OK. So you have worked with 
outside agencies as Office of Partnerships?
    Mr. Selim. Yes, ma'am.
    Ms. Watson Coleman. OK. So who are you working with and 
what are you doing?
    Mr. Selim. OK, so I will allow two specific examples, if I 
may? In my role as the director of the CVE task force, we have 
over 10 Federal departments and agencies who are part of that 
effort. My role as the director of the Office of Community 
Partnerships, in addition to rolling out one of the fastest 
grant programs in the history of Federal grant programs in less 
than 6 months, we created and implemented this CVE grant 
program. We have conducted a range of other outreach and 
engagement opportunities in probably over a dozen States across 
the country.
    Ms. Watson Coleman. So I want to know, specifically, under 
this Office of Community Partnerships, what are you doing out 
there in the community? With whom are you doing these things?
    Mr. Selim. Two core focus areas. The first area on our 
Office of Community Partnerships in DHS is to build bridges 
with a range of communities that may be targeted for violent 
extremist radicalization.
    Ms. Watson Coleman. OK, let's start with that. Who are you 
dealing with that, under that sort-of core issue, building 
bridges and developing relationships in communities?
    Mr. Selim. Sure. So I have three core sets of stakeholders. 
One set of stakeholders is State and local law enforcement 
across the country. Another set of stakeholders is municipal 
officials, mayors, county council members. A third set of 
stakeholders, they are NGO, advocacy organization leaders, not-
for-profits and so on.
    Ms. Watson Coleman. Talk to me about the community 
organizations that you are engaged with. Name some and where 
they are located and what you do with them.
    Mr. Selim. So two of the members of my office, two of my 
employees are located outside of Washington, DC. One of them is 
located and works every day in Los Angeles and the other one 
works in Denver.
    So my staff, who work in Los Angeles for example, on any 
given day engage with the mayor's office, engage with Los 
Angeles Police Department, the Los Angeles Sheriff's 
Department, and a range of other advocacy organizations.
    Ms. Watson Coleman. Yes. I can find out the government 
stuff.
    Mr. Selim. OK.
    Ms. Watson Coleman. I want to know about the non-government 
stuff, the lifting up of communities, the developing 
relationships with communities, helping communities to 
understand the threats that exist there. What are these 
communities? Are they all Muslim communities?
    Mr. Selim. No.
    Ms. Watson Coleman. Are you doing the same thing for non-
Muslim communities? Where are you doing the work and 
specifically with whom?
    Mr. Selim. Yes, I----
    Ms. Watson Coleman. Other than the governments, not the 
municipal government, not the county government, not the State 
government. But the NGO's and the community programs that 
supposedly exist that you are trying to access to be part of 
this countering violent extremism effort.
    Mr. Selim. So many of the NGO's that we work with across 
the country are, in fact, Muslim or Muslim-affiliated NGO's, 
however not exclusively.
    Ms. Watson Coleman. All right. OK. Tell me some that you 
work with that are not.
    Mr. Selim. OK, for example, my staff that work in Denver 
and service the entire State of Colorado, work with a range of 
different NGO's who are engaged in countering domestic 
terrorism of all different forms.
    Ms. Watson Coleman. Name them.
    Mr. Selim. I don't have that list on me my right now, but I 
am happy to provide that for you.
    Ms. Watson Coleman. OK, tell me this.
    Mr. Selim. There is no secret to the organization.
    Ms. Watson Coleman. How many NGO's do you work with and 
what percentage of those NGO's are Muslim-focused or Muslim 
organizations and how many are not?
    Mr. Selim. I think the----
    Ms. Watson Coleman. Do you have that information?
    Mr. Selim. I don't have it off-hand, but I would offer, 
Congresswoman, that at the end of this grant application 
period, as I mentioned, we conducted a fair amount of outreach 
for this grant solicitation. At the end of this grant 
application period, I am happy to work with you and your staff 
to make all the NGO's and staffs that applied for this grant 
known to you so that we can look at the percentages by 
breakdown.
    Ms. Watson Coleman. So you received over 200 applications?
    Mr. Selim. Correct.
    Ms. Watson Coleman. What percentages of those applications 
did you receive that were addressed to domestic violence, 
counter violence? Do you have any idea?
    Mr. Selim. Ma'am, the grant application closed on September 
6, I don't have that level of detail breakdown with me today. 
But I am happy to supply it to you.
    Ms. Watson Coleman. Do you have any idea? Give me, you 
know, 70 percent of them are from----
    Mr. Selim. I don't off-hand.
    Ms. Watson Coleman. OK.
    Mr. Selim. We received over 200 applications. I have not 
personally reviewed each one yet.
    Ms. Watson Coleman. Do you all have any kind of strategy--
and my time is just about up--do you have any kind of strategy 
or plan or implementation or whatever to look at the issue of 
countering violent extremism from the foreign-inspired, 
foreign-directed threat to the United States of America and the 
domestic threat?
    Mr. Selim. Yes.
    Ms. Watson Coleman. OK. When are you going to deliver that 
to us so that we understand?
    Mr. Selim. Thank you, and I wanted to address that point 
that you raised as well as Ranking Member Thompson, and I think 
that is a very important point. So as noted, you know, my 
office has been in creation for just under 12 months, and I 
don't want to give the impression that it is without strategy 
or without implementation.
    Ms. Watson Coleman. So then we should be getting it rather 
soon as opposed to later. So give me some kind of a date, 
because you got $10 million that you are considering.
    Mr. Selim. Correct.
    Ms. Watson Coleman. That it ought to be associated with 
some kind of a strategy, that you ought to be looking at the 
whole issue from a holistic perspective----
    Mr. Selim. Correct.
    Mrs. Watson Coleman. Not just focusing on one religious 
community, but a whole community in the United States of 
America that provides that kind of violent threat. Just tell me 
when will I get it? When will you send it to Congress?
    Mr. Selim. I can assure you, Congresswoman, that I am 
committed to working on this issue with you and this committee.
    Ms. Watson Coleman. I appreciate that, and I am simply 
asking, you have been in business for a whole year.
    Mr. Selim. Yes, ma'am.
    Ms. Watson Coleman. You are telling me that you are 
operating under some kind of strategy.
    Mr. Selim. Yes, ma'am.
    Ms. Watson Coleman. When can we see it?
    Mr. Selim. I don't have a specific date that I can give you 
today, but I can tell you that I am a direct report to 
Secretary Johnson. I have clear direction from he and the 
Department leadership on how our office should be functioning 
and evaluating itself on a day-to-day basis. To the extent that 
I am able to quantify that in a strategic document to the 
extent that you are asking for one, I am working to deliver 
that to you as soon as possible.
    Ms. Watson Coleman. We are really concerned that there 
needs to be a rationale supported in evidence when you consider 
making grants with taxpayers' money. That there are some 
metrics in place, that you will be able to evaluate what you 
are doing, why you are doing it, and the outcome.
    I yield back because I am a little bit over my time. Thank 
you, Mr. Chairman.
    Mr. Perry. The Chair thanks the gentlelady from New Jersey.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman, and thank you for 
being here today. This is actually on CSPAN this morning and 
this was a topic of conversation by many of the callers, 
because we have to take a strong look at terrorism from an 
objective standpoint and understand one thing. It is the 
individual that carries out an act of terrorism.
    Trucks don't just arbitrarily run over people, knives don't 
arbitrarily go through malls and stab people, hatchets just 
don't jump up and attack law enforcement officers, planes don't 
accidentally fly into buildings by themselves. Pressure cookers 
don't automatically blow up, killing people. Pipe bombs just 
don't place themselves in places. Gun stores just don't erupt 
in gunfire.
    It is the individual. We have to focus on the individual. 
The one thing I do applaud is our effort to identify the reason 
that we are having an increase in terrorist activity as well as 
potential terrorist activities is the pure volume of 
individuals who are seeking to do harm to Americans.
    That is through people who are already radicalized coming 
in through various means into this Nation, whether it be 
through a refugee program or an open border or whatever. There 
is a pure volume of people coming into this Nation seeking to 
do harm.
    The other aspect of that which, I think, is more difficult 
to grab hold of are American citizens being radicalized who do 
have some Constitutional protections, which make it harder on 
our law enforcement. I applaud you in trying to do that.
    My questions really evolve around how do we counter the 
radicalization process? What is the purpose of the--how do you 
actually do your job? Is the purpose intervention, to stop the 
radicalization process? Is it to identify those who are being 
radicalized, to put them on a watch list? How is it--what is 
the function of the office? How are you gonna carry this out?
    Mr. Selim. Thank you for that question, Congressman. Three 
core areas I want to focus on to answer your question. When I 
reference in my oral statement attempting to prevent and 
intervene in the process of radicalization, that falls into one 
of three buckets of action.
    First is that we are gonna raise awareness on the nature 
and scope of radicalization and recruitment in the homeland so 
that State and local government, community faith leaders, 
municipal leaders and so on can recognize what those signs look 
like. It is not always inherent.
    The second bucket for DHS is to supply tools and resources 
to State, local, and community-based partners, whether it is a 
grant program, a community awareness briefing, a training 
exercise, a tabletop so that we can actually walk through what 
to look like and when to raise something to authorities and so 
on.
    Then the third category, which is the title of my office, 
the Office for Community Partnerships, is to build and sustain 
the long-term partnerships between municipal officials, Federal 
law enforcement, community-based leaders and so on, so that 
that type of dialog and interaction between a range of 
different sectors can be comprehensively applied.
    Mr. Loudermilk. So when you identify someone who is 
potentially being radicalized--and I really believe this is a 
local issue. It is no longer a Federal issue. The Federal 
Government is not very good at working in the local area. We 
gotta remove barriers to let the local law enforcement, local 
officials be engaged in this. I think the people trust their 
local governments, obviously, more than the Federal Government.
    Mr. Selim. I completely agree, sir.
    Mr. Loudermilk. So what do you do when--all right. We see a 
young person that is in process of being radicalized. What do 
you do? That is what I am looking for.
    Mr. Selim. So----
    Mr. Loudermilk. What action are we taking at that point?
    Mr. Selim. So this is the complexity around radicalization. 
It is not a black or white issue. It is not this person is 
definitely being radicalized. That is what makes some of those 
cases that we have seen in recent years so difficult for law 
enforcement and our intelligence agencies to detect.
    That is why we are supplying the specific information, 
training tools, and resources at the local level. I am in 
complete agreement with you that this must be a locally-led 
initiative.
    Mr. Loudermilk. It has to go further because I think it 
would be a great gift to us if, let's say, a parent----
    Mr. Selim. Yes.
    Mr. Loudermilk [continuing]. Would approach the FBI and 
say, ``My son is showing signs of radicalization'' or ``My son 
is a terrorist.'' Would you agree?
    Mr. Selim. I would absolutely agree.
    Mr. Loudermilk. Didn't that just happen in New York City?
    Mr. Selim. I am not sure of all the specifics of the case. 
I believe that the----
    Mr. Loudermilk. I believe the parent came to the FBI and 
said, ``My son is a terrorist.''
    Mr. Selim. Yes.
    Mr. Loudermilk. So what I am saying is, our intervention 
has to be better than it is today. We have to take that to the 
next level. I am in support of the efforts that we are trying 
to do. But do we have any evidence that intervention--have we 
had any successes in actually countering the radicalization 
process?
    Mr. Selim. Congressman, I am in complete agreement with the 
facts as you have stated them. I would just offer that, in 
attempting to develop this path of countering violent extremism 
that I have laid out, the director of the FBI, the director of 
Homeland Security, and others have said numerous times we are 
not going to arrest our way out of this threat.
    We have to have a number of alternatives. That is what the 
CVE focus is, is getting community leaders, local officials, 
and so on to have early indications of the potential of 
radicalization and have options other than just call the FBI.
    Mr. Loudermilk. But do we have any success? Can you point 
to where countering the violent extremism has actually reversed 
a radicalization process or resulted in a stopping?
    Mr. Selim. Yes, part of the difficult part of answering 
that question is you are really asking to measure a negative.
    But I know anecdotally in cities across the United States, 
young people who have witnessed some type of, who have exposure 
to violence or trauma and have a potential propensity to 
violence in some way, that has been raised up to school or 
religious or local law enforcement officials. They have been 
taken off that path.
    That has been happening anecdotally in a range of cities 
across the country. I can't sit here before you today and 
definitively say that person was gonna commit an act of 
terrorism with a pressure cooker bomb. But we are developing 
that prevention framework in a range of cities across the 
country, and that is the focus of our plan.
    Mr. Loudermilk. I am looking for effectiveness, because 
quite often we build programs and it is a black hole of money 
to dump into. In the line of the questioning that the Chairman 
had, I do have concerns about NGO's that we are going to 
partner in. Where is this money going to go?
    To follow up with some of the things he was getting to, who 
determines these guidelines for what organizations you would 
actually contract with or work with? Who makes that final 
decision?
    Mr. Selim. Ultimately, sir, as laid out in the notice of 
funding opportunity, the Secretary of Homeland Security has 
final say.
    Mr. Loudermilk. Do you have a list of folks you would not 
do work with?
    Mr. Selim. As I noted earlier, sir, there is not in the 
Federal Government a list of NGO's that are prohibited from 
applying for a Federal grant.
    Mr. Loudermilk. Do we know of NGO's who are engaged in 
anti-American activities?
    Mr. Selim. Do we have a list of NGO's----
    Mr. Loudermilk. Do we know of organizations out there that 
are engaged?
    Mr. Selim. I would defer that question to the law 
enforcement agencies and intelligence partners. But I think 
there is a pretty keen understanding of--if there is an 
organization in the United States that is conducting any type 
of criminal or counterterrorism activity, I am fairly certain 
that is probably on the FBI's radar.
    Mr. Loudermilk. So I would think that we do know of 
organizations who are engaged in anti-American activities, that 
we would want to have a list of those we definitely would not 
engage in. I apologize, Mr. Chairman. I have exceeded my time.
    Mr. Selim. Thank you, Congressman.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes the Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Kinda pursuing the 
line of questioning. Mr. Selim, you said that your effort is to 
develop a locally-driven, comprehensive, prevention-based CVE 
framework. Can you kinda explain how you can do that when you 
don't have a strategy or implementation plan?
    Mr. Selim. Yes, Ranking Member Thompson, thank you for that 
question. So a prevention framework in a particular 
metropolitan or geographic area in the United States, they all 
look very different. A prevention framework in a city like 
Boston looks very different than a prevention framework looks 
like in Los Angeles. What we are doing is we are applying----
    Mr. Thompson. I understand. But you gotta have an overall 
framework to operate from. You can apply it to whatever 
community. But I am talking about a plan and a strategy. Do you 
have one?
    Mr. Selim. We do.
    Mr. Thompson. Can you provide this committee, in writing, 
both the plan and strategy?
    Mr. Selim. I am working diligently to get this committee, 
with the greatest amount of expediency I possibly can do to get 
you that plan.
    Mr. Thompson. So either you do or you don't, now. Come on 
now.
    Mr. Selim. I am sorry?
    Mr. Thompson. Do you have it?
    Mr. Selim. We have a plan of direction.
    Mr. Thompson. And strategy?
    Mr. Selim. Strategy. Yes.
    Mr. Thompson. Both?
    Mr. Selim. We have a strategic plan----
    Mr. Thompson. Don't----
    Mr. Selim [continuing]. For countering violent extremism at 
the Department of Homeland Security.
    Mr. Thompson. Look, look, I understand. But I am talking 
about your shop.
    Mr. Selim. My office.
    Mr. Thompson. Yes, sir.
    Mr. Selim. Yes, sir.
    Mr. Thompson. You had a plan and a strategy?
    Mr. Selim. We do. We do.
    Mr. Thompson. When can we get it?
    Mr. Selim. I will be happy to work with you and staff to 
get that as soon as possible.
    Mr. Thompson. Ah, no, now, I mean, if you have got it, send 
somebody, out for it right now.
    Mr. Selim. I am not at liberty to do it at this very 
moment, but----
    Mr. Thompson. Why?
    Mr. Selim. Why?
    Mr. Thompson. Yes.
    Mr. Selim. Because I am testifying in front of this 
committee.
    Mr. Thompson. Don't be facetious, brother. Either the plan 
exists or it doesn't. If it exists, then one of your aides you 
have out here--tell them go get the plan for the committee. Or 
can we get it this afternoon, in the morning or whenever?
    Mr. Selim. Sir, by no means am I trying to get around 
providing this to the committee. What I am working to do and 
what I have been working to do for the past several weeks is 
ensure that the strategic plan that we provide this committee, 
including your staff, is up to the highest level of standards. 
Developing a plan that will----
    Mr. Thompson. Wait now. I understand inside-the-Beltway 
talk. So just make it as plain and simple. When can we get the 
plan? Whether it is 50 percent complete--you told us it is 
ready. All I am trying to do is----
    Mr. Selim. Nearly ready.
    Mr. Thompson. Oh. It is nearly ready now.
    Mr. Selim. Yes, sir. Ranking Member----
    Mr. Thompson. I understand. Well, I am disappointed 
because--but we will go on. You talked about the balance that 
your shop is trying to do. Can you name me five NGO's that you 
working with right now?
    Mr. Selim. Five NGO's that are conducting efforts to 
counter violent extremism in the United States?
    Mr. Thompson. That your office is working with.
    Mr. Selim. Sure. One organization, Life After Hate.
    Mr. Thompson. All right.
    Mr. Selim. Two organizations, Project CeaseFire in Chicago.
    Mr. Thompson. All right.
    Mr. Selim. No. 3, Muflihun, which is a Muslim-based 
organization here in northern Virginia. No. 3--is that No. 4? 
WORDE Organization, World Resource and Development Organization 
based in Montgomery County, Maryland. And No. 5, there is an 
NGO which name eludes me at the moment in Los Angeles.
    Mr. Thompson. All right. Now, you have named four. I want 
you to provide this committee----
    Mr. Selim. Mm-hmm.
    Mr. Thompson [continuing]. With whatever that engagement 
has been up to this point in writing.
    Mr. Selim. Absolutely.
    Mr. Thompson. OK. Third, are you aware that domestic 
terrorists' threat in this country, as documented by a number 
of sources, comes more from the right-wing elements in this 
country rather than the left or the Muslim threat or anything 
like that?
    Mr. Selim. I have seen some of that data, but I am not a 
gun or violence expert in that regard.
    Mr. Thompson. I didn't say gun or violent. I am saying the 
threat, the threat.
    Mr. Selim. I am wholly aware of the range of ideologies 
that motivate violence in the United States.
    Mr. Thompson. So based on your professional position----
    Mr. Selim. Yes, sir.
    Mr. Thompson [continuing]. Where do you see the most 
violent threat existing in this country today?
    Mr. Selim. As the Secretary of Homeland Security has 
testified at this table, the preeminent threat to our homeland 
security today is ISIL's ability to recruit and radicalize.
    Mr. Thompson. You know, I don't want you to split hairs, 
the facts irrefutable before this committee says just the 
opposite, absolutely the opposite. So I am really disappointed 
that you come before this committee ill-prepared to answer the 
questions.
    I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Florida, Mr. 
Clawson.
    Mr. Clawson. I yield my time back to the Chairman, Mr. 
Perry.
    Mr. Perry. The Chair thanks the gentleman.
    Mr. Selim, under the headline, under the banner of 
countering violent extremism, would you consider white 
supremacist extremism under your umbrella of threats to deal 
with?
    Mr. Selim. Mr. Chairman, we define violent extremism in the 
Executive branch as ideologically-motivated violence to further 
political goals, irrespective of what the ideology is. It could 
be domestic in nature or it could be foreign-inspired in 
nature.
    Mr. Perry. OK. Let me use another term that--would you 
consider the Ku Klux Klan someone that you or your organization 
would wish to deal with in countering violent extremism?
    Mr. Selim. I don't think the DHS Office of Community 
Partnerships wishes to deal with the Ku Klux Klan, Mr. 
Chairman.
    Mr. Perry. I didn't say deal with them as in deal with them 
in working some kind of an agreement with them, but the things 
that they espouse. Is that a problem in our country that you 
would fall under the scope of your purview?
    Mr. Selim. To the extent that any organization, either 
foreign or domestic, espouses violence in the United States, 
that----
    Mr. Perry. Have they not espoused violence in the past?
    Mr. Selim. Has the Ku Klux Klan?
    Mr. Perry. Yes.
    Mr. Selim. Absolutely they have.
    Mr. Perry. OK. So shouldn't they--so I am just trying to 
figure out if they fall under the umbrella of your purview.
    Mr. Selim. Ideologically-motivated violence, whether that 
be----
    Mr. Perry. Are they not ideologically motivated?
    Mr. Selim. I believe they are.
    Mr. Perry. OK. So it seems to me they fit all the 
requirements. I am just trying to get a simple indication 
that--of whether we are trying to figure out what you consider 
CVE. Maybe I know. Maybe Mr. Thompson knows what he considers 
it to be. We are trying to figure out what you consider it to 
be, so we are giving you examples. I used this one.
    Based on that, based on the information that you just 
provided--ideological history of violence, would they fall 
under that--within your purview based on your definition, your 
guidelines, your mission?
    Mr. Selim. To the extent that an applicant for the 
Countering Violent Extremism Grant Program wants to institute 
some type of program to counter the ability for a Ku Klux Klan 
or any other organization to espouse the type of violence that 
they have done historically, that would absolutely fit within 
the remit of our office.
    Mr. Perry. OK. So you are talking about the grant program 
and applicants that say, look, we want to deal with--when I say 
deal with in the context of we want to minimize the effect, 
influence of an organization that is a white supremacist 
organization, such as the Ku Klux Klan, that would be something 
you would be interested in engaging in?
    Mr. Selim. Again, nothing in my office, the Office of 
Community Partnerships, or in this grant program, there is no 
targeting of a specific group. This is why when we talk about 
countering violent extremism, this is a threat-based effort, 
right? There is an immediate threat in the homeland today----
    Mr. Perry. Right.
    Mr. Selim [continuing]. By enemies of the United States, 
sworn enemies of the United States, to recruit and radicalize 
here in the homeland. What this office's mission and what the 
resources we are putting out are for are to prevent and 
intervene in that process of radicalization, sir.
    Mr. Perry. So there is no thought whatsoever to different 
organizations that are known--that are known by most Americans, 
certainly by the records, to have an ideological interest in 
and use violence to promote their political objectives. As long 
as it has a name to it, you don't look at the name. You just 
look at any--anybody.
    Mr. Selim. We are--I apologize. I misunderstood the 
question. Let me draw a clear distinction. We are not an office 
that does analysis on hate or different terrorist 
organizations.
    My office is purely focused on--again, as I laid out 
earlier, developing and building the partnerships with 
communities across the country and the range of stakeholders 
that I laid out, as well as----
    Mr. Perry. Well, goodness, I don't know how you direct your 
resources if you have no idea where you are headed. You don't 
even--if you don't know where you are going, how do you know 
where to direct your resources? You can't name one--I just gave 
you an organization and you essentially said, no, they are not 
one of the--I----
    Mr. Selim. We are not focused on specific organizations.
    Mr. Perry. But what are you focused on?
    Mr. Selim. We are focused on providing tools and resources 
to Federal, State, local, and community partners who are 
themselves, as the Congressman alluded to earlier, on the front 
lines of preventing radicalization and----
    Mr. Perry. By who? Radicalization by who?
    Mr. Selim. You know, different, different--it is not the 
place of my office to tell a police chief or sheriff in 
Cleveland, Ohio or Los Angeles, California how they should be 
driving and implementing their own program. This is why, as 
part of the grant program, there is a very specific needs 
analysis and a quantitative set of metrics that speak to how 
these programs will be applied.
    Mr. Perry. So even being fully aware of the actions of 
certain entities, whether domestic, whether racist, whether 
religiously motivated if that terminology can be used, it makes 
no difference to you. And you wouldn't be able to identify them 
and place your assets in that direction to have the greatest 
effect----
    Mr. Selim. Let me----
    Mr. Perry [continuing]. Based on this paradigm that you 
just laid out for me?
    Mr. Selim. Let me just go back and be very clear on one 
thing. The Department of Homeland Security, including my 
office, assesses that the preeminent threat to our homeland 
security today is ISIL's ability to recruit and radicalize in 
the homeland.
    Mr. Perry. So you do differentiate with ISIS or ISIL. Not 
this other one that I mentioned, but ISIL you do make that 
distinction.
    Mr. Selim. We differentiate in the sense of the threat of 
terrorism in the United States.
    Mr. Perry. All right. I think I am gonna come back to you, 
Mr. Selim. I have got some further questions based on the 
information I just gleaned from you, but my time has expired 
and I want to respect the other Members' time in attendance 
here.
    So I will now yield and the gentleman--correction. The 
gentlelady. Correction. She has left. The gentleman from 
Minnesota, Mr. Ellison, is now recognized.
    Mr. Ellison. Yes, Mr. Chair and Ranking Member, allow me to 
thank you for being here today. I am grateful for the 
opportunity. I want to just confer how much respect I have for 
this very important committee.
    Let me say this. If I were to say the words radical 
Islamist terrorists, it wouldn't stop--it wouldn't make ISIS 
vanish. Use of the words is not the thing. Here is the thing. 
Organizations like Daesh and ISIS are homicidal maniacs trying 
to kill us. We know that. They don't care what religion we are. 
They will harm us all.
    But they are also--they are not stupid. They are trying to 
gain legitimacy in the eyes of people they are trying to 
recruit.
    Now, maybe in a country like our own where I was born and 
raised--and I am 14 generations in the United States, which is 
a majority Christian country--my mother, all my family members 
are Christian. I love them deeply. I love my whole community.
    To say that Islam has got tremendous legitimacy, we might 
not recognize that because of the environment we are in. But in 
the nations where it does predominate, which is 1.5 billion 
people in this world, putting the word Islamic in your title 
does confer legitimacy.
    Just as if I were to call--a group were to call themselves 
the Christian so-and-so-and-so's, people in America and other 
Christian-majority countries would think, well, they are 
probably good guys, 'cause we associate that with that word.
    Now, if the Ku Klux Klan were to burn crosses and claim to 
be associated with Christianity, we would know what they were 
doing is trying to exploit the majority of the population's 
attachment to that term in order to gain support, when what 
they really want to do is murder, kill, and terrorize black 
people.
    This is exactly what Daesh is doing, which is why we don't 
call them Islamic terrorists, Muslim terrorists. They hope we 
call them that. They want us to call them that. Whenever we 
call them that, there is some unsuspecting person out there who 
might be tricked into believing that they actually stand for 
Islam. That doesn't help America.
    We should be trying to expand our friendships and isolate 
our enemies. Instead, by saying no Muslims can come into the 
country, lying about saying that Muslims were happy after 9/11, 
which they absolutely were not, proven in multiple 
environments, all we do is help Daesh recruit.
    Now, I know about Daesh recruitment. They had me in a 
magazine saying they wanted to kill me personally by name. So, 
you know, this idea that just saying radical Islamist terrorist 
is somehow going to do anything, it is not going to do anything 
other than help ISIS recruit.
    I don't want to help ISIS recruit. I want to strip them of 
any legitimacy that they have. I think that we all should join 
in that. Absolutely we should be researching their core 
ideology and motivation. Nothing about calling them extremists, 
violent extremists stops us from doing that. Absolutely we 
should understand how they think and what motivates them.
    If they pervert religious verses in order to do what they 
want to do, we should certainly--and research that. But I am 
not going to say that Timothy McVeigh is a freedom fighter. He 
is not. He is a terrorist. I am not going to say that Daesh is 
Islamic. There is neither a State, nor they are Islamic. They 
are criminal, and they need to be treated like that.
    Let me move on to say that--it was said that--there was a 
question--I think there was some question that said that we 
should perhaps prohibit the Islamic Society of North America 
from being able to apply for a grant or getting a grant.
    I have been to Islamic Society of North America 
organizations. I think that they are an excellent group. I 
don't see any problem with them. I am glad that our Government 
is reaching out to them.
    I can tell you that if ISIS is recruiting and the American 
Government is recruiting, we better be talking to people who we 
can get on our side as opposed to shunning them. It would be a 
bad idea to do that. It would not help us protect our country. 
Let me say, if we were to prohibit ISNA, I think we would be 
engaging in unconstitutional behavior because there is 
something called a bill of attainder.
    A bill of attainder says you cannot pass a law 
criminalizing somebody. People get trials in America, which 
brings me to a point about this unindicted co-conspirator. As a 
person who must have tried 50 cases to a jury--I used to be a 
public defender, I know. I may not know love, but I know 
criminal--I know how to try a case in court.
    Unindicted co-conspirator means unindicted. If they were 
indicted, then now you are talking. But even then, that is just 
a very low threshold of probable cause. But unindicted means 
nothing. It means absolutely nothing.
    If any one of us were unindicted co-conspirators, you know 
what that would mean? That we are innocent. So to use that term 
to try to eliminate people is just bad, it is just a 
misunderstanding of what the law is.
    So finally, I just want to say thank you to you, Mr. Selim, 
for coming to my community, talking to my community about how 
we forge better ties and trust and communication so people know 
and understand that the American government is not against 
them.
    We want to be engaged. We want to talk. They criticized you 
a little bit, and you took it all, and you listened. Then you 
said your job is to work with the community to protect the 
community. So I want to thank you for keeping your ears open 
and your mind open. In Minneapolis, I think you did a good job.
    Mr. Selim. Thank you. Can I make just one point to that 
remark, Mr. Chairman?
    Congressman Ellison, I want to thank you for allowing me 
the opportunity to come to your district and work with you and 
your team on that.
    I want to make one point clear to the entire committee 
that, on the programs and measures that my office implements on 
a day-to-day basis, there is not uniform agreement in 
communities, Muslim communities or non-Muslim communities, on 
the best way to do this.
    I think what Congressman Ellison is referring to or 
inferring, actually, is that there was some pushback on the 
programs that my office has espoused and implemented.
    However, you know, the degree to which myself as the 
director and my team sits and engages with community 
stakeholders in a constructive dialog, and we can shape and 
tailor our programs for maximum effectiveness, that is the 
ultimate message that I want to convey today to the committee, 
is that we are at the table. We look to be at the table in 
communities across the country to shape and tailor these 
initiatives.
    I get calls and e-mails all the time from communities 
saying ISIL, Daesh, or some other terrorist organization does 
not represent our religion, our community, or our faith. What 
can we do? So, the CVE programs that we are implementing are 
voluntary in nature. We are servicing community and local 
stakeholders who want to implement these initiatives.
    That is a very important part. This is not a prescription. 
We are not requiring any group to do that. Some people in the 
Twin Cities, in the Minneapolis area, want to have a seat at 
the table for this. Others do not.
    That is fine. Our job as the Federal Government, as DHS, is 
to work with those who want to be at the table and also address 
concerns of those that don't want to be involved in these 
initiatives and have concerns about the programs. Thank you for 
that.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair recognizes the gentleman Mr. Pascrell from New 
Jersey.
    Mr. Pascrell. Thank you, Mr. Chairman. Thanks for having 
the hearing. I think it is very worthwhile. I want to say hello 
to the Ranking Member, and the Ranking Member on this 
committee, subcommittee.
    Mr. Selim, I know your record. You came from the last 
administration. I thank you for your service to your country. 
But when you are--a little advice. You don't need it from me, 
but let me give it anyway. When you are answering questions 
from this committee, I would advise you, when we are talking 
about the causes of radicalization, when we were talking about 
that, you used the word metrics many, many times.
    When you are using the word metrics, you are not being 
straight with the committee, and I am sure you are not doing it 
intentionally. Metrics is a good word we like to use to throw 
people into a dizzy. Just be straight about your answers, 
whether you have the information or you don't have the 
information.
    So the recent events in Jersey and New York underscore how 
the threat of violent extremism has evolved, Charleston, 
Dallas, Oak Creek. We have seen an uptick, Mr. Chairman, in 
instances of home-grown violent extremism.
    So it is critical we ensure the government is working to 
prevent the spread of violent extremists' ideology by using the 
limited resources wisely. As you briefly noted in your 
testimony, and despite common misperceptions from what you 
often hear in the media, extremists and threats come from a 
wide range of groups and individuals.
    I have known and talked about the threat of domestic 
terrorism, usually in the form of anti-Government extremism in 
this country. My oath of office, the priority, I am pledged to 
stop foreign and domestic intrusions. It is the first part of 
my oath of office, as well as the President of the United 
States.
    What threat has been posed here? Ever since I was the 
original Member of the House Homeland Security Committee when 
it was created. In 2009, a DHS report on right-wing extremism 
was leaked and prompted an outcry. Resulted in the DHS cutting 
a number of personnel studying, for the record, domestic 
terrorism unrelated to Islam, and held up nearly a dozen 
reports on extremist groups.
    I spoke out very strongly against this decision. It was 
carried over into this administration's decision. We cannot 
allow people to silence facts just because the facts do not fit 
their preferred narrative of who we should and shouldn't be 
afraid of and concerned about.
    Eric Hoffer wrote in his book ``The True Believer,'' which 
is my bible about radical thoughts, radical actions against our 
Nation. We want to protect those people that voted for us, 
didn't vote for us but live in our district and live in this 
country.
    We had three police folks that testified yesterday. I was 
not here, but I know what they said. Deputy Chief Miller from 
New York, New York City. Those guys and gals do a terrific job 
day-in and day-out, and you said it one--better than I did in 
your testimony. My job is to protect them. See, anybody who we 
decide is going to protect us, we have to protect them.
    Mr. Chairman, I have to take exception to one thing that 
you said before. I agreed with most of the stuff you were 
talking about. You said, you questioned, and I think you have a 
right to, the heart of the issue, went right to the heart of 
the issue about National security.
    Why should we be perhaps providing dollars to terrorist 
groups? I hope these groups are being vetted. I am sure you do, 
too. Well, then why do we allow guns to go to terrorists? So we 
don't want them to get the dollars, but we allow them at the 
same time to buy weapons.
    That is not a slippery slope to defining or destroying the 
Second Amendment of the United States. It is protecting our law 
enforcement officers who are outgunned in the streets, 
regardless of what we are talking about, the gangs, or we are 
talking about the gangs of terrorism.
    I beg you to think about this in that terms. I agree with 
you. We don't want to give money to those folks who we gotta 
really question, wonder where you are going to spend the money. 
We do that many times in our foreign aid, don't we? I ask you 
just to take an objective look at that thing. If I may--I am 
going over--can I ask the witness one question?
    Mr. Perry. Go ahead.
    Mr. Pascrell. Thank you.
    Mr. Selim, in March of this year we sent a letter--I sent a 
letter to Secretary Johnson and Attorney General Lynch. The CVE 
task force announced--and since you are here today, I would 
like to discuss its goals.
    Here is my question. According to the New America 
Foundation, there have been more incidents of right-wing 
extremist attacks in the United States than violent jihadist 
attacks since 9/11. I am not minimizing jihadist attacks.
    In that light, can you describe how your office plans to 
counter violent extremism with respect to domestic right-wing 
extremism? If you want me to define it over the last 15 years, 
I will go chapter and verse, but you know what I am talking 
about. How do you define it, and what is your office doing 
about it? Thank you.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Selim. So, Congressman, thank you for that question. On 
the oath of office that I took in this job--to the point you 
made on the oath that you took in your job. As the oath I took 
when I was sworn into the United States Navy, I similarly took 
a pledge to defend and protect the Constitution and the United 
States against all threats, foreign and domestic. I want to 
assure you that I take that oath very seriously. That is, I 
hope, reflected in the job that I am doing on a day-to-day 
basis.
    With specific regard to your question in what we are doing, 
the role of the CVE task force is one to coordinate all the 
different CVE efforts across departments and agencies. It is 
not a operational body per se. The task force is not deploying 
into a particular city and doing things like that. It is a 
Washington-based body to coordinate all the disparate resources 
that are currently existing in different departments and 
agencies.
    The tools and resources that we supply to our State, local, 
and community-based partners related to CVE are ones that can 
hopefully prevent and intervene in the process of 
radicalization, whether it is a domestic extremist 
radicalization or an international terrorist organization that 
is attempting to recruit and radicalize.
    The research and the data has shown us--and I am happy to 
follow up with you on this in great detail--is that the 
similarities of paths of radicalization of someone who will 
commit an act of terrorism in the homeland is very similar, 
whether they are a Timothy McVeigh or whether they are a young 
person in this country that is being recruited and radicalized 
by a group like ISIL.
    What we are attempting to do is supply tools and resources 
at the State and local level for local officials, community 
partners, and municipal leaders to prevent and intervene and 
recognize those signs, irrespective of where it is motivated 
on.
    So there is not a special focus on D.T. and a different 
focus on international-related terrorism. The tools and 
opportunities to prevent and intervene in that process can 
equally be applied on both.
    Mr. Pascrell. Are you supplying the information to the 
subcommittee?
    Mr. Selim. I am attempting to.
    Mr. Pascrell. Well, I think that is critical, Mr. Chairman, 
so we know where we are going. I thank you.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair asks unanimous consent that the gentleman from 
North Carolina, Mr. Meadows, be allowed to sit on the dais, 
participate in today's hearing. Without objection, so ordered. 
The Chair recognizes Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank the 
committee for your fine work. Obviously, we have been doing 
some parallel work in the committee that I sit on. So let me 
follow up on this last question, because it is intriguing, with 
my colleague opposite here, in terms of his definition, quoting 
some group.
    We just had a hearing just the other day which had said 
that most of the threats that we are actually facing here--not 
to underscore some of the horrific things that have happened in 
South Carolina and in other areas, but we have been trained 
over the years--our law enforcement has been trained to be able 
to address those kinds of threats that the gentleman would say 
are right-wing extremists.
    Yet the numbers don't seem to back that up. I mean, it 
wasn't right-wing extremists that stabbed someone in Minnesota 
this week. It wasn't right-wing extremists that exploded bombs 
in New Jersey and New York.
    So when we look at that--in fact, the No. 1 stat that I saw 
was actually the Taliban was higher than ISIS, even though ISIS 
kinda dominates this. So what stats do you have, since you have 
been working on this, that would suggest that the No. 1 threat 
are right-wing extremists and not the radicalization of others?
    Mr. Selim. Congressman, I want to clarify a point. I hope 
in no way, shape, or form did I give the impression that the 
threat of domestic extremism by the groups you just mentioned 
are more severe than that of ISIS. I have said----
    Mr. Meadows. Well----
    Mr. Selim. I have said repeatedly----
    Mr. Meadows [continuing]. Kind-of indirectly. You said 
that, you know, you are here to defend the country. I 
appreciate your service as a naval officer. I appreciate your 
willingness to defend the Constitution.
    But here is--what we haven't done is actually many times 
define the enemy. It is critical that we start to do that. So 
with the CVE joint task force. Name four or five 
accomplishments that have happened since January 2016. What are 
the accomplishments?
    Mr. Selim. So just to clarify time line. The task force was 
announced in January, but we didn't actually come together with 
interagency representatives until April of this past year.
    Mr. Meadows. So name three accomplishments since April.
    Mr. Selim. Just to clarify the time line. So there has been 
a number of accomplishments. The first is that there are a 
number of different entities across the Department of Homeland 
Security, the Department of Justice, the FBI, the National 
Counterterrorism Center that were reaching out to State, local, 
community, and municipal officials to provide different 
products, threat briefings, exercises and so on.
    Mr. Meadows. So how many of those have you done?
    Mr. Selim. As an office, I would have to go back and get 
you the specific number. But the point on the accomplishment--
--
    Mr. Meadows. More than 100? Less than 100?
    Mr. Selim. In the past year? Probably. But I can give you 
the specific number.
    Mr. Meadows. But you can report back to the subcommittee?
    Mr. Selim. Yes, absolutely.
    Mr. Meadows. OK. All right.
    Mr. Selim. The point on the accomplishment is we have tied 
that all together in one place. So when there is a request for 
some type of training or assistance in that regard, we have a 
specific group focused on training and engagement that is 
focused just on synchronizing that and ensuring we are getting 
the best products and delivery out to State and local 
officials.
    Mr. Meadows. All right. I guess according to the testimony, 
it says that the CVE grant funding is done through a 
competitive panel-review application process. I think----
    Mr. Selim. Yes, sir----
    Mr. Meadows [continuing]. That is a quote.
    Mr. Selim. Correct.
    Mr. Meadows. So what are the criteria for evaluating?
    Mr. Selim. So I don't want to take up your time here on the 
panel. We have listed out on page 26 of the notice of funding 
here 10 clear objective criteria that every potential applicant 
has to----
    Mr. Meadows. So what is the top one out of the 10?
    Mr. Selim. Demonstrating expertise.
    Mr. Meadows. All right. So how do you determine--who 
determines that they have expertise?
    Mr. Selim. Each and every application is independently 
reviewed by one of four people. An individual who works for me 
in the Office of Community Partnerships reviews and scores 
independently each application.
    An interagency representative from the CVE Taskforce, 
someone from the FBI, DOJ, the National Counterterrorism 
Center. Including non-security agencies, education, HHS, and 
others that are part of this whole-of-Government effort. They 
independently score and review each application.
    Mr. Meadows. All right.
    Mr. Selim. FEMA--sorry.
    Mr. Meadows. Yes, so let me interrupt because I got 36 
seconds left.
    So as we look at that, as you start to evaluate those, how 
do you respond to some of the criticism that has been out there 
that potentially grants go to groups that may not be fully 
aligned with protecting our National security interests? Is 
that a valid criticism?
    Mr. Selim. Congressman, I can assure you that I take the 
awarding of Federal grants, taxpayer dollars, with the utmost 
seriousness. Doing the due diligence----
    Mr. Meadows. Have you made any mistakes?
    Mr. Selim [continuing]. Through this process--sorry.
    Mr. Meadows. Have you--have you made any mistakes?
    Mr. Selim. Ever in my life?
    Mr. Meadows. Well, in this process. No, obviously--I am 
married. I get reminded of that on a regular basis, so----
    [Laughter.]
    Mr. Selim. I would say that this is the first time that 
we--this is the first time ever, as I pointed out in my oral 
statement, that such a great opportunity has existed in the 
U.S. Government.
    So it is a learning process. Some of the things that we are 
doing in this first fiscal year 2016 period I will likely 
change and amend for fiscal year 2017, just based on the 
feedback that we have received from our potential applicants. 
So there is always room to improve the process.
    Mr. Meadows. So with the Chairman's indulgence, I will ask 
my last question and yield back. Is if you were to put two 
different groups that we have to be most concerned about 
radicalizing individuals here in the United States, who would 
those two groups be?
    Mr. Selim. ISIL is the preeminent threat in the United 
States to our homeland security.
    Mr. Meadows. Who is the second?
    Mr. Selim. Any al-Qaeda or similarly-aligned Sunni 
extremist group.
    Mr. Meadows. All right.
    I yield back. Thank you.
    Mr. Perry. The Chair thanks the gentleman. The Chair thanks 
the witness for his valuable testimony and the Members for 
their questions.
    The first panel is now excused. The clerk will prepare the 
witness table for the second panel.
    Mr. Perry. The Chair will now introduce our witnesses for 
the second panel.
    The Honorable Peter Hoekstra served in Congress for 18 
years representing Michigan's 2nd Congressional District from 
1993 to 2011. He was the Chairman of the House Permanent Select 
Committee on Intelligence from 2004 through January 2007.
    He was responsible for leading Congressional oversight of 
the U.S. intelligence community to confront the threats of the 
21st Century, such as global Islamist terror and cyber warfare, 
including restructuring the intelligence community with 
landmark legislation following the 9/11 Commission Report.
    He now serves as the Shillman senior fellow with the 
Investigative Project on Terrorism and is a frequent 
commentator and writer on radical Islam.
    Dr. M. Zuhdi Jasser is the founder and president of the 
American Islamic Forum for Democracy. The forum seeks to 
counter political Islam, the ideology that fuels radical 
Islamists. Dr. Jasser was appointed to the United States 
Commission on International Religious Freedom in 2012. He has 
testified before Congressional committees on numerous 
occasions.
    Dr. Jasser served 11 years as a medical officer in the U.S. 
Navy and is a past president of the Arizona Medical 
Association. We thank you for your service, sir.
    Ms. Sahar Aziz, do I have the first name correct, ma'am? 
Thank you--is a professor of law at Texas A&M University School 
of Law, where she teaches courses on National security, civil 
rights, and Middle East law. Ms. Aziz is also a non-resident 
fellow at the Brookings Doha Center. Prior to joining Texas 
A&M, she served as a senior policy adviser for DHS' Office of 
Civil Rights and Civil Liberties.
    Ms. Shireen Qudosi is an author, including a senior 
contributor at counterjihad.com and the founder of the Qudosi 
Chronicles, a blog about Islam in the 21st Century which 
supports Muslim reformers. For over 10 years, she has been an 
active advocate of progressive Islam, both educating non-
Muslims about Islam and encouraging Muslims to engage in 
dialog. She has been recognized as one of the top 10 North 
American Muslim reformers.
    Thank you all for being here today.
    The Chair now recognizes Mr. Hoekstra for an opening 
statement.

   STATEMENT OF HON. PETER HOEKSTRA, FORMER CHAIRMAN, HOUSE 
           PERMANENT SELECT COMMITTEE ON INTELLIGENCE

    Mr. Hoekstra. It has been a while since I have been here. 
So thank you, Chairman Perry, Ranking Member Coleman, other 
distinguished Members of the panel for enabling me to testify 
here today.
    Since I left Congress, I have had the opportunity to work 
with the Investigative Project on Terrorism. This has been a 
leading organization studying the threat of radical Islam for 
over 20 years. It has always been at the forefront. I would 
like to submit my testimony for the record.
    Mr. Perry. Without objection, so ordered.
    Mr. Hoekstra. Thank you, Mr. Chairman. You know, there are 
just a couple of points that I would like to highlight as we go 
through the testimony. I would like to--that I think are 
important.
    No. 1, the trend lines in the war have not been going in 
the right direction. You know, recently the University of 
Maryland completed a study that showed that back in 2001, 
roughly 2,500 people per year were losing their lives as a 
result of radical jihadist terrorist activities.
    In 2007, 2008, 2009, that number had gone from roughly 
2,500--I think we have a chart to show that--had gone from 
roughly 2,500 to about 3,000, 3,300 in that time frame. So it 
was a significant increase, but not dramatic. But then take a 
look at the line what happens after 2008 to 2015, and what we 
are projecting for 2016.
    That number has increased from roughly, you know, slightly 
over 3,000 people per year to approaching 30,000 people per 
year losing their lives globally as a result of radical 
jihadism.
    The second slide that I will use that will be up there 
shows what the spread of radical jihadism has been, the global 
expansion--2001, you could look at the globe and it would be in 
a number of different places. Two thousand nine, 2010, it was 
kinda concentrated in the Middle East.
    But the threat that we see evolving and where we see the 
threat today, is we see it obviously in the Middle East. We see 
it in Northern Africa. It is now spreading into Asia. We also 
see what is happening in Europe and obviously the United States 
is at risk. So the numbers and the trend line are clearly 
heading in the wrong direction. The geographic spread of the 
threat from radical jihadism is going in the wrong direction.
    This is a war that we are not winning today. We are not 
containing it, we are not confronting it, and we are not 
defeating it. The key question, I think, that Congress needs to 
ask is what has happened, potentially, to create this dramatic 
increase since 2008?
    From 2001 to 2008, 2009, you know, it stayed relatively 
contained. But since that time we have seen it escalate--
escalate significantly. We now have five failed States that are 
havens for radical jihadists, Iraq, Syria, Libya, Yemen, and 
Afghanistan.
    So this is places where these organizations can plan. They 
can train. They can prepare to launch attacks against the West, 
against America, and other places in the Middle East.
    I really encourage the committee to take a very, very hard 
look, an in-depth dive on what is called PSD-11, Presidential 
Study Directive 11. This came out of--it is still Classified, 
but there has been a lot written about this document in the 
media. So it has been leaked to various people. But what PSD-11 
does is it fundamentally changed America's approach toward the 
Muslim world.
    For 40 years, on a bipartisan basis, Republican and 
Democratic administrations had said our goal in the Middle East 
was stability and security--2010, 2011 time frame, the 
President and his administration said that that policy was--
they were going to take a look at it. David Ignatius, in one of 
the columns that he wrote back then, indicated that a White 
House official said, ``We are rolling the dice.''
    Well, it didn't turn out very well, because the strategy 
now said we were going to engage with elements of reform. Well, 
that ended up being organizations like the Muslim Brotherhood 
and other radical jihadist groups. We did not choose wisely.
    In Egypt, we facilitated the overthrow of Mubarak, someone 
who I met with, many American officials had met with. This was 
an individual in a country that for years did everything that 
we asked them to do to maintain stability and fight radical 
jihadists in that part of the world.
    We facilitated and participated in the overthrow of 
Gaddafi. Again, Gaddafi reformed in 2003, 2004. Someone who had 
been our enemy, but because of consistent Republican and 
Democrat administrations putting sanctions on him and holding 
his feet to the fire, in 2004 he changed sides. He got rid of 
his nuclear weapons program. He paid reparations. He started to 
fight radical jihadists with us.
    We took an island of stability in Northern Africa, and it 
became a hotbed of extremism, exporting weapons, exporting 
fighters and ideology throughout Northern Africa, the Middle 
East, and being a launching pad into Europe.
    In closing, let me just say that I think it is time for 
Congress to ask this administration some very serious questions 
about PSD-11. Exactly what is the content of PSD-11? What were 
the criteria for vetting organizations in Libya, Iraq, Egypt, 
Syria, and Afghanistan, and Yemen? What were the criteria for 
vetting organizations that we would work with?
    What groups and individuals actually passed through the 
vetting process and we started to engage with? The names of the 
organizations of the individuals responsible for vetting the 
new groups, and any and all assessments by the U.S. Government 
of the activities undertaken by these groups or from 2012 until 
today.
    I think that you will find that the change in policy is the 
primary reason for the instability and the rapid spread of 
radical jihadism throughout the Middle East and the increased 
threat to the homeland.
    Mr. Chairman, thank you very much.
    [The prepared statement of Hon. Hoekstra follows:]
               Prepared Statement of Hon. Peter Hoekstra
                           September 22, 2016
    Good morning Chairman Perry, Ranking Member Coleman, and 
distinguished Members of the committee. Thank you for the opportunity 
to appear before you today to discuss the need to identify the radical 
Islamist terror threat.
    The Investigative Project on Terrorism works tirelessly to ensure 
that political leaders, National security officials and fellow 
Americans understand that the United States cannot defeat radical Islam 
without defining it.
    Islamists and their sympathizers hate us and they will not stop 
hating us. Islamists, or ``caliphists'' as I like to call them, pursue 
three objectives: Establish a caliphate, install a caliph to rule it 
and govern it under strict sharia law. They yield no middle ground or 
accommodation. Thus far, the United States has been unsuccessful in 
confronting and containing the threat on our path to ultimately 
winning.
                                evidence
    The trends in the war against Islamist terror both in fatalities 
and breadth are not positive.
    On a global scale, jihadists murdered an average of 2,500 innocents 
annually between 2001 and 2006. The number grew to approximately 3,300 
innocents by 2009, which tripled to roughly 9,500 in 2012 and tripled 
again to nearly 30,000 killed last year.\1\
---------------------------------------------------------------------------
    \1\ Steven Emerson and Pete Hoekstra. ``Islamist Terror Growing in 
Lethality and Geography, IPT Analysis Finds,'' The Investigative 
Project on Terrorism, March 28, 2016, http://
www.investigativeproject.org/5241/islamist-terror-growing-in-lethality.
---------------------------------------------------------------------------
    The increase in the number of victims corresponds to a wider 
theater of operations. From 2001-06, the threat was dispersed in area 
and occurred primarily in 10 countries. By 2015, significant Islamist 
terrorist activity could be found in 18 countries, with most 
concentrated in Africa and the Middle East.\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    Today Libya, Syria, Iraq, Yemen, and Afghanistan are failed states. 
The Islamist cancer endangers Turkey, Jordan, Lebanon, and Saudi 
Arabia. In Asia the threat is growing in countries like Thailand, 
Bangladesh, Pakistan, the Philippines, and Indonesia.
    The massive migrant flows into Europe, the lack of effective 
assimilation and the attacks in Paris, Cologne, Brussels, Nice, London, 
and others highlight the growing menace in Europe. The United States 
has experienced its own manifestation of radical Islam with the violent 
attacks in Orlando, San Bernardino, and military installations 
throughout the country, as well as most recently with the attacks in 
New York, New Jersey, and Minnesota.
    There were 2.74 million refugees from the Middle East and North 
Africa in 2015.\3\ Additionally, there were approximately 4.8 million 
internally displaced persons in the Middle East alone. Iraq, Syria, and 
Yemen accounted for more than half of the total.\4\
---------------------------------------------------------------------------
    \3\ ``Global Trends: Forced Displacement in 2015,'' United Nations 
High Commissioner for Refugees, June 20, 2016.
    \4\ Internal Displacement Monitoring Centre, Quarterly Update, 
April-June 2016, http://www.internal-displacement.org/assets/
publications/2016/IDMC-quarterly-update-2016-QU2final.pdf.
---------------------------------------------------------------------------
    What happened from 2009 to 2016 that led to such a massive increase 
in Islamist violence?
                          u.n resolution 16/18
    Ever since President Obama delivered his 2009 Cairo speech in which 
he declared his responsibility ``to fight against negative stereotypes 
of Islam,''\5\ his administration has strengthened a partnership with 
the Saudi Arabia-based Organization of Islamic Cooperation (OIC).\6\ 
The OIC is a 57-member government body that incorporates the contrived 
term ``Islamophobia'' into its rhetoric and diplomacy to counter 
perceived criticism of Islam or linking religion with terrorism.\7\
---------------------------------------------------------------------------
    \5\ ``Remarks by the President at Cairo University, 6-04-09,'' The 
White House, Office of the Press Secretary (Cairo, Egypt), June 4, 
2009, https://www.whitehouse.gov/the-press-office/remarks-president-
cairo-university-6-04-09.
    \6\ ``Background: OIC-US Cooperation--2011-08-08,'' Organization of 
Islamic Cooperation, http://www.oicun.org/oicus/64/
20110808013147562.html.
    \7\ ``Eighth OIC Observatory Report on Islamophobia,'' Presented to 
the 42nd Council of Foreign Ministers, Kuwait City, State of Kuwait, 
May 2014-April 2015, http://www.oic-oci.org/oicv2/upload/islamophobia/
2015/en/reports/8th_Ob_Rep_Islamophobia_Final.pdf.
---------------------------------------------------------------------------
    In March 2011, the partnership resulted in the adoption of U.N. 
Human Rights Council Resolution 16/18 to combat Islamophobia.\8\
---------------------------------------------------------------------------
    \8\ ``U.N. Human Rights Council (HRC) Resolution 16/18,'' Human 
Rights Council, Sixteenth Session, Agenda item 9, March 21, 2011, 
http://geneva.usmission.gov/wp-content/uploads/2012/04/Resolution16-
18.pdf.
---------------------------------------------------------------------------
    The resolution seeks ``to criminalize incitement to imminent 
violence based on religion or belief'' and in so doing supports the 
suppression of any speech that negatively portrays Islam. Experts 
assert that the resolution ``effectively imposes Sharia blasphemy 
standards on American law'' and stands in ``violation of First 
Amendment free-speech principles.''\9\
---------------------------------------------------------------------------
    \9\ Andrew C. McCarthy, ``In Initially Airbrushing Orlando 
Jihadists's Calls, DOJ Followed Obama-Clinton U.N. Resolution against 
Negative Speech about Islam,'' National Review, June 20, 2016, http://
www.nationalreview.com/corner/436854/doj-followed-obama-clinton-un-
resolution-against-negative-speech-about-islam.
---------------------------------------------------------------------------
    As one commentator noted, ``Unfortunately, America's concern for 
the protection of free speech seems to have gotten lost as its focus 
moved closer to the OIC's positions, and an emphasis was placed on 
protecting Muslims in the West from `Islamophobia.' ''\10\
---------------------------------------------------------------------------
    \10\ Deborah Weiss, ``U.S. Praises Sharia Censorship,'' FrontPage 
Magazine, May 23, 2013, http://www.frontpagemag.com/fpm/190622/us-
praises-sharia-censorship-deborah-weiss.
---------------------------------------------------------------------------
    Secretary of State Clinton co-chaired an OIC ministerial meeting in 
Istanbul on ``religious intolerance'' in July 2011 to spearhead efforts 
to implement the resolution \11\ that came to be known as the 
``Istanbul Process.''\12\ At the meeting, Clinton advocated the use of 
interfaith dialogue and ``good old-fashioned techniques of peer 
pressure and shaming''\13\ to restrict freedom of speech without 
passing formal legislation to achieve the same results. Furthermore, 
the fact that the United States provided an international forum for 
airing grievances about Islamophobia only emboldened OIC demands for 
global blasphemy laws.\14\
---------------------------------------------------------------------------
    \11\ ``Remarks at the Organization of the Islamic Conference (OIC) 
High-Level Meeting on Combating Religious Intolerance,'' Istanbul, 
Turkey, July 15, 2011, http://www.state.gov/secretary/20092013clinton/
rm/2011/07/168636.htm.
    \12\ Nina Shea. ``A perverse `Process,' '' New York Post, Dec. 17, 
2011, http://nypost.com/2011/12/17/a-perverse-process/.
    \13\ ``Remarks at the Organization of the Islamic Conference (OIC) 
High-Level Meeting on Combating Religious Intolerance,'' Istanbul, 
Turkey, July 15, 2011, http://www.state.gov/secretary/20092013clinton/
rm/2011/07/168636.htm.
    \14\ Nina Shea, ``The Administration Takes on `Islamophobia,' '' 
Hudson Institute, Sept. 1, 2011, http://www.hudson.org/research/8286-
the-administration-takes-on-islamophobia-.
---------------------------------------------------------------------------
    The Obama-Clinton administration would later consult with the OIC 
to craft the fabricated story that an internet video that nobody had 
ever seen caused the Sept. 11, 2012 massacre in Benghazi.\15\
---------------------------------------------------------------------------
    \15\ ``Newly Released Documents Confirm White House Officials Set 
Hillary Clinton's Benghazi Response,'' Judicial Watch, June 29, 2015, 
http://www.judicialwatch.org/press-room/press-releases/judicial-watch-
newly-released-documents-confirm-white-house-officials-set-hillary-
clintons-benghazi-response/.
---------------------------------------------------------------------------
                                 psd-11
    In August 2010 Obama signed Presidential Study Directive-11 (PSD-
11), which reportedly ordered a Government-wide reassessment of 
prospects for political reform in the Middle East and of the Muslim 
Brotherhood's role in the process.
    Under PSD-11--which the administration needs to declassify--Obama 
and Clinton pivoted from the historical U.S. strategy of maintaining 
order and stability in the Middle East. It instead turned to a strategy 
that emphasized support for regime change, as well as political and 
democratic reforms, regardless of the impact on regional stability. 
PSD-11 directly led to U.S. engagement with the Muslim Brotherhood.
    U.S. officials did not concern themselves with questions over 
whether the new power structures would become allies or foes, or with 
intelligence agency warnings about the jihadist chaos such regime 
change might unleash.
    An official in the Obama White House indicated at the time, ``It's 
a roll of the dice . . . ''.\16\
---------------------------------------------------------------------------
    \16\ David Ignatius. ``Obama's low-key strategy for the Middle 
East,'' The Washington Post, March 6, 2011, http://
www.washingtonpost.com/wp-dyn/content/article/2011/03/04/
AR2011030404614.html.
---------------------------------------------------------------------------
                       international implications
    The United States undermined long-time ally President Hosni Mubarak 
and embraced the Muslim Brotherhood in Egypt after adopting PSD-11. 
Eventually Mubarak fell, and Muslim Brotherhood leader Mohamed Morsi 
won the presidency.
    For the first time since its founding in 1928, the Muslim 
Brotherhood ran a major country in the Middle East, and Obama and 
Clinton were willing accomplices.
    In Libya Muammar Gaddafi--a repressive dictator and state sponsor 
of terror for 40 years--reversed course and by 2003-04 allied with the 
United States. He turned over his weapons programs. He paid reparations 
to the victims of his terrorist activity. He fought side-by-side with 
the West against radical jihadists.
    Under the guidance of PSD-11, the administration turned on Gaddafi 
and sided with the Muslim Brotherhood and al-Qaeda elements to dispose 
of him. Libya now exports weapons, training, and jihadist ideology 
throughout the greater region.
                         domestic implications
    Federal law identifies anyone who ``endorses or espouses terrorist 
activity or persuades others to endorse or espouse terrorist activity 
or support a terrorist organization'' as an inadmissible alien under 8 
USC 1182.
    Following the issuance of PSD-11 and the start of the Arab Spring, 
the Obama administration granted entry visas to individuals belonging 
to the Muslim Brotherhood and other Islamist groups who made statements 
supportive of Islamic terror activities. Many of them should not have 
received visas under Federal law. The United States previously denied 
visas to some of the individuals. Again, it was a major shift in U.S. 
policy. For example:
    Shiekh Rached Ghannouchi received an entry visa in the fall of 2011 
despite his pro-Hamas statements \17\ and his meeting with former Osama 
bin Laden lieutenant Abu Iyadh in August 2011.\18\ Similar statements 
led the administration of President Bill Clinton to ban Ghannouchi from 
entering the United States in 1994.\19\
---------------------------------------------------------------------------
    \17\ ``Rachid Ghannouchi, leader of Tunisia's Ennadha Movement: 
Qatar has played a leading role in the success of the Arab 
revolutions.'' Al-Arab, May 2, 2011, https://archive.is/lQQgY (Accessed 
May 21, 2015).
    \18\ ``Exclusive: The truth about Abu Iyadh told by his 
bodyguard,'' Tunisie Secret, Dec. 10, 2014, https://archive.is/Akngg 
(Accessed Feb. 4, 2016).
    \19\ Martin Kramer's Facebook page, updated Oct. 25, 2011, https://
archive.today/mwBrG (Accessed May 22, 2015).
---------------------------------------------------------------------------
    Former President of the National Coalition of Syrian Revolution and 
Opposition Forces Ahmed Mouaz al-Khatib al-Hassani received a visa to 
enter the United States in March 2015. He met with Secretary of State 
John Kerry,\20\ U.S. Ambassador to the U.N. Samantha Power\21\ and 
National Security Advisor Susan Rice.\22\ A review of his website 
Darbuna.net reveals a litany of statements supporting the Taliban,\23\ 
bin Laden \24\ and 1983 Marine barracks bombing mastermind Imad 
Mugniyeh.\25\
---------------------------------------------------------------------------
    \20\ Jen Psaki. ``Secretary of State John Kerry's Meeting with Moaz 
al-Khatib,'' Department of State, press release, March 25, 2015, http:/
/www.state.gov/r/pa/prs/ps/2015/03/239761.htm (Accessed May 20, 2015).
    \21\ Samantha Power. Twitter post, March 24, 2015, 1:48 p.m., 
https://archive.is/uztqr (Accessed May 20, 2015).
    \22\ Joyce Karam, Twitter post, March 24, 2015, 6:36 a.m., https://
archive.today/HBMbM (Accessed May 20, 2015).
    \23\ Mouaz al-Khatib. ``The Coming Martyrs,'' Darbuna.net, March 3, 
2007, IPT translation from the Arabic, https://archive.today/xwbg4 
(Accessed March 30, 2015).
    \24\ Ibid.
    \25\ ``Moaz al-Khatib interview with Osman Osman,'' Al-Jazeera 
video, 47:33, Aug. 15, 2012, IPT translation from Arabic, http://
www.aljazeera.net/programs/religionandlife/2012/8/15/
%D9%86%D8%AD%D9%88-%D8%AD%D9%84%D9%81-%D9%81%D8%B6%D9%88%D9%84-
%D8%AC%D8%AF%D9%8A%D8%AF (Accessed April 12, 2015).
---------------------------------------------------------------------------
    State Department officials granted a visa sponsored by the Syrian 
American Council to Sheikh Mohammed Rateb Nabulsi in January 2014 \26\ 
even though he issued an April 2001 fatwa sanctioning Palestinian 
suicide bombings.\27\ Nabulsi also sanctioned the death penalty for 
LGBTs.\28\
---------------------------------------------------------------------------
    \26\ Ken Timmerman. ``Obama Administration let anti-gay Muslim 
leader into U.S.,'' New York Post, March 2, 2014, http://nypost.com/
2014/03/02/state-dept-lets-anti-gay-muslim-leader-into-u-s/ (Accessed 
April 16, 2015).
    \27\ Sheikh Mohammed Rateb Nabulsi. ``Islamic topics--Brief 
Topics--Lesson 35: ruling on martyrdom operations in Palestine,'' April 
23, 2001, http://www.investigativeproject.org/documents/misc/
777.pdf#page=4, IPT translation from Arabic, alternate link in the 
Arabic archived from Nabulsi's website: https://archive.is/c09tt 
(Accessed June 2, 2016).
    \28\ ``On Hamas' Al-Aqsa TV: Muhammad Rateb Al-Nabulsi, Syrian 
Islamic Scholar Active in the U.S., Says Homosexuality is Filthy, 
`Leads To the Destruction of the Homosexual; That Is Why, Brothers, 
Homosexuality Carries the Death Penalty.' '' Middle East Media Research 
Institute, May 19, 2011, http://www.memri.org/report/en/0/0/0/0/0/0/
5296.htm (Accessed Feb. 17, 2015).
---------------------------------------------------------------------------
                               conclusion
    U.N. Resolution 16/18, PSD-11 and the decisions based upon them 
fundamentally reshaped American foreign policy. The flawed and naive 
analyses and the policies that sprang from them created conditions that 
fostered the rapid expansion of Islamist terror--specifically ISIS--and 
sent the Middle East and North Africa into barbaric turmoil.
    The reported enshrinement of PSD-11 as a new National security 
strategy initiated dramatic reversals of longstanding bipartisan 
agreement among lawmakers.
    With PSD-11 the administration engaged with radical Islamists who 
predictably took advantage of the opportunity to fundamentally 
transform the region and its threat environment rather than pursuing 
democratic reforms.
    Several questions remain unanswered that would help the country to 
better understand how radical Islam became such a dominating force in 
the world today. The Investigative Project on Terrorism suggests that 
Congress demand the following information:
    1. The contents of PSD-11.
    2. The criteria for vetting organizations in Libya, Iraq, Egypt, 
        Syria, Afghanistan, and Yemen with which the U.S. Government 
        would eventually partner.
    3. The groups and individuals that passed the vetting process.
    4. The names of the organizations and individuals responsible for 
        vetting the new groups.
    5. Any and all assessments by the U.S. Government of the activities 
        undertaken by these groups from 2012 to today.
    Members of Congress are responsible to the American people they 
represent to help them make sense of the dramatic change that the Obama 
administration implemented in the Middle East, how they implemented it 
and how effective or ineffective its results may have been.

    Mr. Perry. The Chair thanks the gentleman Mr. Hoekstra.
    The Chair now recognizes Dr. Jasser for an opening 
statement.

STATEMENT OF M. ZUHDI JASSER, PRESIDENT, AMERICAN ISLAMIC FORUM 
                         FOR DEMOCRACY

    Dr. Jasser. Thank you, Chairman Perry and Members of the 
House Committee on Homeland Security's Subcommittee on 
Oversight and Management for holding this important meeting on 
identifying the enemy in radical Islamist terror. I ask that my 
written testimony be entered into the record.
    Mr. Perry. Without objection, so ordered.
    Dr. Jasser. As the president and founder of the American 
Islamic Forum for Democracy based in Phoenix, I am here because 
I could not feel more strongly that our current direction and 
our current strategy, or lack of strategy, is deeply flawed and 
profoundly dangerous for the security of our Nation.
    As a devout Muslim who loves my faith and loves my Nation, 
the concerted focus to de-emphasize the root causes of radical 
Islam or political Islamic supremacism, Sharia supremacism, is 
the root cause of the global war that we are in.
    Until we name this, and then once we can name it, treat it 
and counter it, we are going to continue this whack-a-mole 
program, which is failing day after day after day. The denial 
of truth is wedded to dishonesty from those who reject the need 
for reform within the house of Islam and the need to engage 
reformers.
    You will hear endless excuses, excuses as to why we should 
not use theopolitical terms which our enemies use to define 
themselves. You will hear the absurd and, I am sorry to say, 
un-American pleas for you to invoke blasphemy speech 
restrictions upon yourselves in the discourse in order to 
dishonestly avoid terms like Islamism, Islamist, Ummah, takfir, 
Islamic State, jihad, Salafism, Wahhabism. All these which are 
the way the enemy defines themselves, but also words that are 
necessary in order to know which pool these militants come 
from.
    The reason our homeland security is failing is because the 
pool that they are swimming in, they can't look at the Omar 
Mateens of the world, the Dahar Dadan from Minneapolis, the 
Ahmad Rahimi. The ideas of political Islam, anti-Westernism, 
anti-Semitism are things that we should be monitoring, not 
taking away the rights of those communities but at least 
monitoring and profiling those ideas so that we know what the 
precursors are, because we know what those precursors are.
    It is a suspension of disbelief and a cognitive dissonance 
for Homeland Security to list for you Muslim partners and then 
say Islam, well, it has no problem. There is a suspension of 
disbelief when we say we engage Muslim groups, but yet Islam, 
Islamism isn't related. Which is it?
    Either you don't engage Muslim groups because Islam has 
nothing to do with it or Islamism has an issue within it, which 
is the problem ideology, so we need to engage Muslim groups. 
You can't have it both ways.
    You will hear terms like securitization, where somehow if 
the American public engages in a debate against theocracy, 
which is what our Founding Fathers did, that that will make us 
into this bigoted, anti-Muslim community.
    Well, we fought this battle before. We can engage with the 
right side of those who share our values within the Muslim 
community in order to make it clear what are those who do not 
share our values inside the Muslim community, that they should 
not be our allies.
    But once you say that anyone who is Muslim and is anti-
terror is on our side, then you end up doing the bidding of 
theocracies like Iran and Saudi Arabia and Qatar and Egypt and 
other military dictatorships that are Sharia states that brew 
these radical ideas, that love to hear us just use contra and 
violent extremism because it allows them to continue to push 
the Sharia state ideology that is the drug that creates the 
ISISes of the world.
    So when you hear that in America this attempt to invoke 
blasphemy laws, it is actually doing the bidding of the 
elephant in the room, which is the Organization of Islamic 
Cooperation, the theocracies that love to see us not identify 
this as Islamism because the grassroots movement, the hope and 
the prayer of the Arab Awakening was about defeating 
dictatorships that were going to marginalize radicals, that 
were going to marginalize theocrats.
    But instead, we end up working with the arsonists as the 
firefighters. That is what happens when you work with the 
Saudis and the Muslim groups that Secretary Johnson went and 
spoke to. ISNA and other groups that we are catering to are 
also both the arsonists and the firefighters because they are 
distributing literature that glorifies political Islam, that 
glorifies Sharia state ideology. That ultimately ends up 
causing the harms that radicalize our community.
    We are ignoring movements like the Muslim Reform Movement. 
I would ask every one of you, left to right, if you truly 
believe in diversity, what is diversity in the Muslim 
community? It is not ethnic diversity or racial diversity. It 
is ideological diversity.
    When you say that well, we speak to the platform of the 
Islamic Society of North America, that is a monolithic, single 
ideology group that is based on an idea that is about clerics, 
men in beards that run the society and speak for Muslims across 
the country.
    That is not Muslim identification. Those are not groups 
that represent the majority of Muslims. Even Pew data has shown 
that they only represent 10 to 12 percent. The rest of us 
secularized Muslims that believe in the personal aspect of our 
faith are not represented in major movements in America. Our 
Muslim Reform Movement has been trying to engage government, 
media, academia to say that we want to reform against political 
Islam, and we need representation. That is who should be the 
partners.
    The reason this whack-a-mole program continues is because 
we have not been engaging in true reform for the separation of 
mosque and State. Instead we have been catering to the 
intoxicant of political Islam, which is the precursor ideology.
    So in closing, I want to leave you with recommendations. I 
think we need to transition immediately in Homeland Security, 
away from countering violent extremism. What you are going to 
hear is already supposedly bigoted when, in fact, I don't even 
know what that is. We need to transition to countering violent 
Islamism because that is what they call themselves, and that is 
what Arabs and Muslims across the Middle East are fighting. So 
it should be CVI.
    Second, the U.S. Government and academia and media need to 
include a broad spectrum of diverse voices. If you believe in 
diversity, have Muslims debate this publicly so that we aren't 
just sort-of marginalized to the lowest hanging fruit which is 
the OIC lobby in Washington which ends up speaking for all of 
our groups.
    It is time to stop engaging Muslim Brotherhood legacy 
groups and recognize their misogynist, anti-Semitic, 
homophobic, anti-American underpinnings. We must recognize they 
are not the only voice for American Muslims. We must make 
women's issues and freedom of conscience and speech a litmus 
test when we work with these organizations.
    It is time to stop giving credence to the concerns of OIC 
dictatorships and instead have a long vision for the narratives 
that we are working with. As uncomfortable as it may be to 
speak the language of the enemy, they do call themselves 
Islamists and effectively separate themselves from other 
Muslims.
    I also ask that you reopen investigation into the Council 
on American Islamic Relations' radical ties and their extensive 
domestic and foreign network because they represent sort-of an 
example of why these other groups were called unindicted co-
conspirators and why that is so important. I ask that you no 
longer fear offending by using these terms.
    Those first oppressed by political Islam are Muslims, 
modern Muslims that are reformers. Without including us, 
homeland security depends upon your honesty in order for the 
American people to hold the rest of us accountable. Thank you.
    [The prepared statement of Dr. Jasser follows:]
                 Prepared Statement of M. Zudhi Jasser
                           September 22, 2016
                              introduction
    Thank you Chairman Perry and Members of the House Committee on 
Homeland Security's Subcommittee on Oversight and Management Efficiency 
for holding this very important hearing on ``Identifying the Enemy: 
Radical Islamist Terror.'' I am Dr. M. Zuhdi Jasser, president and 
founder of the American Islamic Forum for Democracy (AIFD) based in 
Phoenix, Arizona. I am here today, because I could not feel more 
strongly that our current National and agency direction in combating 
Islamist inspired terrorism is deeply flawed and profoundly dangerous. 
As a devout Muslim who loves my faith, and loves my Nation, the de-
emphasis of ``radical Islam'' and the ``Islamist'' root cause of global 
Islamist terrorism is the greatest obstacle to both National harmony 
and National security. Wholesale denial of the truth by many in our 
Government and political establishment has actually emboldened 
extremists on both sides of this debate: Both radical Islamists and 
anti-Muslim fascists.
    Neither Islam nor Muslims are monolithic and should not be treated 
as such by anyone--much less our Government and media. Please 
understand it is as equally foolhardy in counter-terrorism and counter-
radicalization work to refuse to acknowledge the role of political 
Islam in the threat as it is to villainize the whole of Islam and all 
Muslims. The majority of Americans are smart enough to understand that 
to say the House of ``Islam has no problems'' is just as problematic as 
declaring that ``Islam, and all Muslims, are the problem''. I am here 
to tell you that our National security policy of refusing to say that 
``Islam currently has a problem'' is dangerous. This surrender, which 
began just after 9/11, has chartered a course towards failure. It has 
hamstrung our homeland security heroes from addressing any of the most 
central Islamist precursors of militant Islamists. If the agency 
actually emphasized the central role of radical Islamism and its 
attendant theopolitical ideologies, it would shift the entire axis of 
our agency apparatus toward once and for all beginning to actually 
address, expose, and engage the root cause of the theocratic strains of 
Islam (or Islamism) which would begin to make us safer. So-called 
Violent Extremism (VE) is simply an endpoint of a common supremacist 
ideology that at its root is theo-political and is a radicalization 
process that occurs over months to years and is far easier to publicly 
monitor than waiting for guess work on ``Violent Extremism''.
    The only way to right this deep misdirection is actually very 
simple. All we need to do is abandon the mantra of ``Countering Violent 
Extremism'' (CVE) and replace it with ``Countering Violent Islamism'' 
(CVI). I will show you today that change can only happen with an 
acknowledgement of the central role of ``Radical Islam'' or 
``Islamism'' in the root cause of the domestic and global security 
threat to the United States and the West.
     background on aifd, the muslim reform movement, and important 
                              terminology
    Our American Islamic Forum for Democracy (AIFD) was founded in 2003 
in the wake of the horrific attacks of September 11. For us it is a 
very personal mission to leave our American Muslim children a legacy 
that their faith is based in the unalienable right to liberty and to 
teach them that the principles that founded America do not contradict 
their faith but strengthen it. AIFD's founding principle is that we as 
Muslims are able to best practice our faith in a society like the 
United States that guarantees the rights of every individual under God 
but blind to any one faith with no Governmental intermediary stepping 
between the individual and the creator to interpret the will of God. 
Because of this, our mission is explicitly to advocate for the 
principles of the Constitution of the United States of America, liberty 
and freedom through the separation of mosque and state. We believe that 
this mission from within the ``House of Islam'' is the only way to 
inoculate Muslim youth and young adults against radicalization. The 
``Liberty narrative'' is the only effective counter to the ``Islamist 
narrative.''
    AIFD is the most prominent American Muslim organization directly 
confronting and attempting to reform against the ideas of political 
Islam. We believe Muslims can openly counter the common belief that the 
Muslim faith is inextricably rooted to the concept of the Islamic state 
(Islamism). AIFD's mission is derived from a love for America and a 
love of our faith of Islam. The theocratic ``Islamic'' regimes of the 
Middle East and many Muslim majority nations use their interpretations 
of Islam and ``shar'ia'' as a way to control Muslim populations. We 
believe as did America's founding fathers that the purest practice of 
faith is one in which the faithful have complete freedom to accept or 
reject any of the tenants or laws of the faith no different than we 
enjoy as Americans in this Constitutional republic. We constantly ask 
that Americans not just observe what is happening inside the House of 
Islam but that you take the sides of the reformers, dissidents, and 
secularists against the theocratic Islamists.
    AIFD was founded on the premise that the root cause of Islamist 
terrorism is the ideology of political Islam and a belief in the 
preference for and supremacy of an Islamic state. Terrorism is but a 
means to that end. Most Islamist terror is driven by the desire of 
Islamists to drive the influence of the West (the ideas of liberty) out 
of the Muslim consciousness and Muslim majority societies. With almost 
a quarter of the world's population Muslim, American security will 
never come without an understanding and winning out of the ideas of 
liberty by Muslims and an understanding of the harm of political Islam 
by non-Muslims. This will happen neither without identifying the 
enemy--radical Islamism--nor without identifying our allies--Muslims--
who believe in liberty and reject theocracy.
    We work to engage Muslim youth and empower them with the 
independence to question the ideas of imams, clerics, and so many 
``tribal'' leaders of Muslim communities unwilling to work toward 
reform and modernity. We empower Muslim youth to have the confidence to 
take personal intellectual ownership of their own interpretation of 
Islam, the Qur'an, Hadith (sayings of the Prophet Muhammad), and 
shariah (Islamic jurisprudence) and separate mosque and state. We work 
to advocate for the ideas of gender equality, genuine religious 
pluralism, and an unwavering preference of the secular state and a 
secular law over the Islamic state among other central ideas in 
modernity.
    Our mission is on the front lines of what is probably the most 
essential and yet contentious debate of the 21st Century. So it should 
be easy to understand why many Muslims may agree with our mission to 
separate mosque and state and marginalize political Islam, but yet want 
to remain private and out of the public eye as supporters.
    AIFD most recently convened and helped launch the Muslim Reform 
Movement (MRM) in December 2015 in Washington, DC.\1\ The Muslim Reform 
Movement is a coalition of over 15 Western Muslim Leaders (from the 
United States, Canada, and Europe) whose goal is to actively fight 
radical Islam from inside by confronting the idea of Islamism at its 
roots. The MRM has written a Declaration for Muslim Reform, a living 
document which was presented to all Islamic organizations, leaders and 
mosques across the United States in 2016 (Appendix 1A, 1B), with hopes 
of using its principles as a firewall to clearly separate radical 
Islamists from Muslims who believe in universal human rights.
---------------------------------------------------------------------------
    \1\ Press Conference of the Launch of the Muslim Reform Movement, 
National Press Club, December 4, 2015: https://youtu.be/xlAnr8bIIr8.
---------------------------------------------------------------------------
    Not one iota of this work is possible in an environment where 
Government agencies and the American public writ large are unwilling to 
understand and engage Muslim groups domestically and abroad on their 
diverse interpretations of core terms, ideas, and movements. The 
attempts and policies of the Obama administration and its advisors to 
obstruct the use of terms which are central to the precursor 
characteristics of radicalized Muslims is willfully blind, negligent, 
and leaves us bare against the threat of radical Islamism. It renders 
our greatest allies within the Muslim community--genuine reformers--
entirely impotent and marginalized.
    I ask that any official and unofficial U.S. Government moratorium 
on the use and understanding of the following terms and ideologies be 
immediately lifted. Let there at least be an on-going public debate 
about these terms. Let our analysts at least have the freedom to dare 
to understand the role of these theo-political ideas in the conveyor 
belt of radicalization. The suppression and censorship of these words 
and concepts by the U.S. Government in the public discourse on Muslim 
radicalization is simply un-American. It is surrender, and it is in 
fact dangerous. Our founding fathers were able to navigate a war of 
ideas against theocracy. We can do it again in the 21st Century. It is 
absurd to assert that since these terms are theo-political they are 
outside the domain of government all the while a militant domestic and 
global enemy is spreading forms of these ideas virally. I ask that the 
following terms and ideas become part of the fair domain of our 
security agencies. Our agency analysts and government experts are smart 
enough and fair enough to know that each of these terms carries with it 
a diverse set of interpretations from within the ``House of Islam'' and 
that suppressing this essential debate hands the debate to our Islamist 
enemies. I submit the following terms and proposed definitions for the 
record in hopes that other Government agencies follow suit and rather 
than engaging Islamist apologists who obstruct and deny, that they 
instead begin engaging honest Muslims who are ready to confront the 
global radical movements that use them:
    A. Islam.--The faith tradition, its practice, and scriptures 
        identified by over 1.6 billion Muslims in the world.
    B. Islamism and Islamists.--The theo-political movement (Islamism) 
        or party and its adherents (Islamists) who seek to establish 
        Islamic states governed by shar'ia law in Muslim majority 
        nations and institutions.
    C. Shar'ia.--Islamic theological jurisprudence as interpreted by 
        Muslim jurists and clerics and practiced by Muslims.
    D. Jihad.--A holy war or armed struggle against unbelievers or 
        enemies of an Islamic state. It can also mean spiritual 
        struggle within oneself against sin.
    E. Wahhabism.--A Sunni Islamist movement based in a puritanical 
        literalism and intolerance of any other interpretations or 
        faith. A revivalist movement originated in the Najd of Arabia 
        in the mid-19th century by Ibn Abdul Wahhab. It is the dominant 
        strain of thought empowered by the Kingdom of Saudi Arabia. Its 
        ideas are central to the Salafi-jihadism of groups like Islamic 
        State in Iraq and Syria (ISIS).
    F. Salafism.--Sunni Islamic fundamentalism which attempts to return 
        normative Muslim practices to the literal ways of the Prophet 
        Muhammad in the 7th Century. Salaf literally means ``companions 
        of the Prophet''. It is often synonymous with Wahhabism but is 
        far more ubiquitous. Salafism, like Wahhabism deplores 
        invention.
    G. Caliphate and Caliphism.--The theo-political ideology or desire 
        by Islamists to re-establish the caliphate, a globally-unified 
        Islamic governance of Islamic states which are led by a single 
        caliph.
    H. Ummah.--The entire Muslim Faith community, but it can also mean 
        the Islamic state.
    I. Islamic reform, Ijtihad.--Critical interpretation of scripture 
        (exegesis) and Islamic jurisprudence in the light of modernity.
    J. Takfir.--The rejection (``excommunication'') of another Muslim 
        from the faith community. The declaration of another Muslim as 
        an apostate.
    To think that these words, these concepts and others are off-limits 
in the freest nation on earth, censored to our agencies, is just 
incredulous considering the growing threat we face today from violent 
Islamism. It smacks of a bizarre invocation of blasphemy laws in 
America. Violent manifestations of each of these above ideas is a 
natural byproduct of the intolerant non-violent underbelly of their 
beliefs. Any security apparatus unable or unwilling to connect the dots 
between the non-violent and violent manifestations of these ideologies 
is leaving us bare and will continue to miss the signs of 
radicalization.
    The latest recommendations from the Homeland Security Advisory 
Council ignorantly state the exact opposite recommending that only 
``plain American English words'' be used and these terms be avoided.\2\
---------------------------------------------------------------------------
    \2\ Interim Report and Recommendations of the Homeland Security 
Advisory Council Countering Violent Extremism (CVE) Subcommittee of the 
US Department of Homeland Security. June 2016. [https://www.dhs.gov/
sites/default/files/publications/HSAC/HSAC CVE Final Interim Report 
June 9 2016 508 compliant.pdf]
---------------------------------------------------------------------------
    I hope and pray that my testimony today will open your eyes to how 
central the engagement of honest terminology is in demarcating who are 
our genuine allies from those who are or are working with our enemies 
abroad and the insurgents within.
    Personally, I will add that we are rendered entirely unarmed in our 
work at AIFD and in the Muslim Reform Movement in America, Canada, and 
Europe if we cannot engage our own faith community within the House of 
Islam on these ideas and if agencies cannot use these terms to look at 
precursor ideologies to ``violent Islamism''.\3\ All of the Muslim 
leaders in our Muslim Reform Movement would agree that looking just at 
``violent extremism'' (VE) is too nebulous, nonspecific, and will 
result over and over in agency blinders to the attacks we have seen 
including the radical Islamist attacks at Fort Hood, Boston Marathon, 
Chattanooga, San Bernardino, and now Orlando. We cannot hold security 
agencies accountable to precursor ideologies and warning signs when 
those precursors are part of a continuum our agencies and media censor 
from the entire discourse.
---------------------------------------------------------------------------
    \3\ http://www.muslimreformmovement.org.
---------------------------------------------------------------------------
  deemphasizing radical islam kept homeland security and the american 
public from seeing the common precursors to many recent attacks on our 
                                homeland
    In June 2016 a new report from the Homeland Security Advisory 
Council urged the rejection of Islamic terms such as ``jihad'' and 
``shar'ia'' in programs aimed at countering terrorist radicalization 
among American youth while also calling for an additional $100 million 
in funding with private-sector cooperation.\4\ \5\ In the section on 
terminology, the report calls for rejecting use of an ``us versus 
them'' mentality by shunning Islamic language in CVE programs. It 
further recommends that DHS ``reject religiously charged terminology 
and problematic positioning by using plain meaning American English''. 
Yet without the ability to target any of the precursor Islamist 
ideologies being identified it will continue to be a grotesquely 
inefficient whack-a-mole program centered simply on the all too vague 
symptom of ``violent extremism'' (CVE) rather than the disease of 
``violent Islamism'' (CVI).
---------------------------------------------------------------------------
    \4\ Gertz, Bill. DHS Report Calls for Rejecting Terms `Jihad', 
`Sharia' ''. The Washington Free Beacon. June 17, 2016. [http://
freebeacon.com/national-security/homeland-security-report-calls-
rejecting-terms-jihad-sharia/]
    \5\ Interim Report and Recommendations of the Homeland Security 
Advisory Council Countering Violent Extremism (CVE) Subcommittee of the 
US Department of Homeland Security. June 2016.
---------------------------------------------------------------------------
    I will next highlight a few obvious common denominators in recent 
attacks to illustrate how a shift in our agency and public discourse 
center of gravity from ``countering violent extremism'' (CVE) to 
``countering violent Islamism'' (CVI) would go a long ways towards 
making us safer and giving meaning to ``see something, say something''. 
In every one of these cases, it is abundantly obvious that had security 
agencies been honed in on the continuum of radical Islam or ``violent 
Islamism'', had they as a matter of policy been held accountable for 
monitoring the non-violent precursor of Islamism (political Islam) 
which precedes ``violent Islamism'' then these massacres may have been 
far more likely prevented.
Fort Hood Massacre of November 5, 2009 \6\
---------------------------------------------------------------------------
    \6\ Jasser, M. Zuhdi and Leibsohn, Seth. The West's Denial at Fort 
Hood. National Review. August 28, 2013 [http://www.nationalreview.com/
article/356918/wests-denial-fort-hood-m-zuhdi-jasser-seth-leibsohn] 
(Accessed June 26, 2016).
---------------------------------------------------------------------------
    Nidal Hasan's case contains within it a microcosm of the entire 
domestic and global threat we face from jihadism and Islamism. If 
Americans cannot be kept safe from a Muslim terrorist inside an Army 
base in Texas, they cannot be kept safe anywhere. During his time at 
Walter Reed National Military Medical Center and the Uniformed Services 
University of the Health Sciences, before he was transferred to Ft. 
Hood, Major Hasan was exceedingly vocal in his opposition to the wars 
in Iraq and Afghanistan. He openly opposed those wars based on his 
religious (obvious theo-political Islamist) views. But nothing was 
done. Two years before the Ft. Hood attack, Major Hasan gave a 
PowerPoint presentation at Walter Reed titled ``Why the War on Terror 
Is a War on Islam.'' But nothing was done. Some of his fellow officers 
complained about him to their superiors. But nothing was done. The 
PowerPoint contained statements from Hasan such as, ``It's getting 
harder and harder for Muslims in the service to morally justify being 
in a military that seems constantly engaged against fellow Muslims.'' 
It contained violent interpretations from the Qur'an. And Hasan's 
PowerPoint concluded with a quote from Osama bin Laden: ``We love death 
more than you love life.'' The following year, a group of fellow Army 
physicians met to ask themselves if they thought Hasan might be 
``psychotic.'' ``Everybody felt that if you were deployed to Iraq or 
Afghanistan, you would not want Nidal Hasan in your foxhole,'' said 
one. But nothing was done . . . except to transfer Hasan to Ft. Hood.
    And just as Hasan didn't keep quiet at Walter Reed, neither did he 
hold his tongue at Ft. Hood. Hasan's record at Ft. Hood includes 
telling his medical supervisor there that ``she was an infidel who 
would be `ripped to shreds' and `burn in hell' because she was not 
Muslim.'' But nothing was done. Nidal Hasan made personal business 
cards; they mentioned no affiliation with the United States military 
but underneath his name on the cards, listed his profession as ``SOA,'' 
or ``Soldier of Allah.'' But nothing was done. And, finally, Hasan was 
in frequent e-mail contact with Anwar al-Awlaki, the radical Muslim 
cleric who, even then, had been implicated in at least two other 
terrorist plots in America and had since fled to Yemen. But nothing was 
done. Indeed, taking all of this into account, it is difficult to 
imagine just what more Nidal Hasan could have done to broadcast his 
lethal views and intentions.
    After the slaughter, the chief of staff of the Army was asked about 
Muslims in the military and said, ``Our diversity, not only in our 
army, but in our country, is a strength. And as horrific as this 
tragedy was, if our diversity becomes a casualty, I think that's 
worse.'' The Army's top officer put a misplaced definition of 
``diversity'' on a higher moral plane than innocent life. The 
politically correct ethic in the Army was one where any perceived 
threat against ``ethnic'' diversity in our military would be treated as 
worse than a threat against our troops, and our Nation, even on our 
homeland. Who would have thought such a postmodern view would take root 
in our Nation's military? But it has.
    Even with the time for analysis and re-analysis and millions of 
dollars later, the Pentagon's after-action report still gave support to 
this politically correct, multicultural triumph of ethics. In the 86 
pages of the ``Lessons from Fort Hood,'' not once does the name Nidal 
Hasan get mentioned.\7\ Instead, he is referred to indeterminately, as 
``a gunman''--just like any other random perpetrator of homicide. The 
word ``Islam'' appears once, and its appearance comes only in a buried 
endnote, in the title of one of many scholarly papers. The word 
``Muslim'' appears nowhere in the report. Nor does the word ``jihad.'' 
This is blatant surrender resulting from a fratricidal obstinacy of 
naming and engaging our enemy's Islamist ideologies.
---------------------------------------------------------------------------
    \7\ Protecting the Force: Lessons from Fort Hood: Report of the DOD 
Independent Review. Secretary of Defense Dr. Robert M. Gates et. al. 
January 2010. [http://www.defense.gov/Portals/1/Documents/pubs/DOD-
ProtectingTheForce-Web_Security_HR_13Jan10.pdf] (Accessed June 26, 
2016).
---------------------------------------------------------------------------
Chattanooga Recruiting Center Massacre of July 16, 2015
    Mohammod Youssuf Abdulazeez killed five marines and injured several 
others in what was a typical militant Islamist act of war inspired by 
the separatist ideology of Islamism. According to SITE Intelligence 
Group, a July 13, 2015 post state that ``life is short and bitter'' and 
that Muslims should not let ``the opportunity to submit to Allah . . . 
pass you by''. In an entry on ``Understanding Islam'' he referred to 
the Prophet Muhammad's companions nation that ``almost every one of 
them was a political leader or an army general. Every one of them 
fought Jihad for the sake of Allah. We ask Allah to make us follow 
their path. To give us a complete understanding of the message of 
Islam, and the strength the live by this knowledge, and to know what 
role we need to play to establish Islam in the world.'' These posts 
were only a few days prior to his attack upon the recruiting center but 
an agency following ``Islamist'' separatist movements would have picked 
up on his ``jihad'' and ``need to establish Islam''. His father was on 
the FBI terrorist watch list for an unspecified period of time on 
suspicion of donating money to an organization suspected of being a 
terrorist front.\8\ The milieu of ideas and affiliations was clearly 
very Islamist and would have been on the radar of an agency following 
``violent Islamism'' and its Islamist and jihadist precursors. James 
Kitfield described ``Tennessee as the capital of American Jihad'' for 
Politico noting that the first jihadist attack after 9/11 was committed 
by Carlos Bledsoe aka Abdulhakim Mujahid Mohammed.\9\ On June 1, 2009, 
Mohammed opened fire on a Little Rock Arkansas military recruiting 
office killing one service member and wounding another.
---------------------------------------------------------------------------
    \8\ Arutz Sheva Staff. Father of Tennessee Shooter was on Terrorist 
List. Israel National News. July 17, 2015 [http://www.politico.com/
magazine/story/2015/07/chattanooga-shooter-carlos-bledsoe-120530].
    \9\ Kitfield, James. Tennessee is the Capital of American Jihad. 
Politico Magazine. July 23, 2015. [http://www.politico.com/magazine/
story/2015/07/chattanooga-shooter-carlos-bledsoe-120530].
---------------------------------------------------------------------------
The Boston marathon bombing
    The Islamist attack of April 13, 2013 committed by the Tsarnaev 
brothers was also rife with Islamist and jihadist warning signs that 
were ignored and should have been seen.\10\ Attorney General Michael 
Mukasey proclaimed ``Make no mistake it was Jihad.\11\'' Our agencies 
were hamstrung by no radar for Islamism or jihadism.
---------------------------------------------------------------------------
    \10\ Boston: FBI admits missed warning signs over Tamerlan. The 
Scotsman. April 23, 2013. [http://www.scotsman.com/news/world/boston-
fbi-admits-missed-warning-signs-over-tamerlan-1-2905474].
    \11\ Mukasey, Michael B. Make No Mistake, It was Jihad. Wall Street 
Journal. April 21, 2013. [http://www.wsj.com/articles/
SB10001424127887324874204578436592210910044].
---------------------------------------------------------------------------
    The San Bernardino massacre was executed by a Jihadi couple Farook 
and Tafsheen Malik. DHS's inappropriate axis of ``violent extremism'' 
left them off the radar. Asra Nomani, a co-founder of our Muslim Reform 
Movement, points out that their social media footprint is rife with 
Salafi-jihadi connections including most notably that Tafsheen had 
studied under Dr. Farhat of the Al-Huda International Salafi-jihadi 
(Taliban sympathetic) school based in Islamabad Pakistan. Nomani notes 
that ``In the conveyor belt of radicalization, conservative Salafi 
doctrine is too often a gateway drug to violence--or what French 
political scientist Gilles Kepel coined as ``Salafi jihadism''.\12\ The 
Quilliam Foundation, a Muslim counter-radicalization think tank in 
London, UK and co-founders of our Muslim Reform Movement published a 
report in 2013 titled, ``It's Salafi-Jihadist Insurgency, Stupid!'' 
(Appendix 2)\13\
---------------------------------------------------------------------------
    \12\ Nomani, Asra. How the Saudis Churn out `Jihad Inc.' .'' The 
Daily Beast. January 4, 2016. [http://www.thedailybeast.com/articles/
2016/01/05/how-the-saudis-churn-out-jihad-inc.html].
    \13\ It's Salafi-Jiahdist Insurgency, Stupid! A policy briefing. 
Quilliam Foundation. January 28, 2013. [http://
www.quilliamfoundation.org/press/its-a-salafi-jihadist-insurgency-
stupid/].
---------------------------------------------------------------------------
Orlando Pulse Night Club Massacre
    And in the militant Islamist attack of June 12, 2016 upon Orlando 
Pulse Night Club which left 49 dead and 53 injured, Omar Mateen's 
declaration of allegiance to ISIS and its head, al-Baghdadi during his 
9-1-1 call proves its Islamist separatist jihadist nature. He further 
told the FBI negotiator during calls that he was using the same vest as 
that used in France and he wanted ``to tell America to stop bombing 
Syria and Iraq and that is why he was `out here right now'.''\14\ His 
Islamism didn't hatch overnight. The fact that the Obama 
administration's reflex response was to redact the 9-1-1 call of any 
religious references speaks volumes to the obstacles engrained in the 
Executive branch to confronting the real problem. Later it was revealed 
that Mateen's father was sympathetic to the Taliban and had a YouTube 
channel where he seemed to pretend or believe he was the President of 
Afghanistan. The fact that a gay night club was attacked is also 
central to the ideologies of political Islam (Islamism) and its 
persecution of minorities and dissidents. Violent homophobia is 
preceded by non-violent homophobia just like violent Islamism is 
preceded by non-violent Islamism. Again, it is appearing that all of 
the Islamist precursors within him and around him were ignored prior to 
Mateen becoming weaponized as a militant jihadist.
---------------------------------------------------------------------------
    \14\ Publicly released FBI News release from Tamp Field Office of 
phone call transcripts. June 20, 2016.
---------------------------------------------------------------------------
Islam has a problem or just a PR problem?
    This attempt by the Executive branch to ``protect the image of 
Islam'' is actually making Government agencies appear dishonest and 
dismissive to reform-minded Muslims who would be otherwise ready to 
take on the reality of the radical narrative of militant jihadists. 
Reformists like those of us at the Muslim Reform Movement see that the 
Islamist insurgents are at war with us and yet our own Government is 
telling us by denying the role of radical Islam to effectively sit down 
and be quiet with no need to fight back in this war of ideas within the 
House of Islam. In fact the avoidance of a discourse on Islam does not 
leave the Government neutral. It effectively hands the argument to the 
predominant power structure of the domestic and global Muslim faith 
community--the suffocating influence of petro-Islam, the Wahhabi Islam 
of Saudi Arabia and the Islamist movement of the Muslim Brotherhood 
based out of Egypt and Qatar.
    Make no mistake this whole debate of this hearing is not only about 
the plight of American Muslims if we were to name the enemy but it is 
also about appeasement of a host of foreign Islamist regimes who our 
Government is afraid to critically engage on their supremacist shar'ia 
states.
Denial fuels bigotry rather than quelling it
    If the reason for routinely publicly engaging Muslim leaders after 
acts of Islamist terror against Americans is simply to quell the fear 
of Americans, I will contend that the denial and obfuscation of the 
administration and the Muslims they engage does the exact opposite. 
Enabling the deep denial of the need for American Muslims to address 
the root causes of Islamist-inspired terrorism and its separatism 
actually fuels a growing fear of Muslims and Islam due to the 
administration's choice for avoidance over transparency. Pew polling 
demonstrates that American feelings about Muslims is ``cooler'' than 
any other faith group scoring a 40 out of 100.\15\ In fact, there is 
nothing that would do more to melt away anti-Muslim bigotry to the 
extent that it exists than for Americans to see Muslims step away from 
denial and actually engaging and confronting the Jihad with their own 
jihad for liberty and against theocracy. We should be calling for a 
jihad against jihad rather than shielding Muslims and Americans from 
the tough love that they need.
---------------------------------------------------------------------------
    \15\ How Americans Feel About Religious Groups: Jews, Catholics and 
Evangelicals rated warmly, Atheists and Muslims more Coldly. Pew 
Research Center: Religion and Public Life. July 16, 2014. [http://
www.pewforum.org/2014/07/16/how-americans-feel-about-religious-groups/
].
---------------------------------------------------------------------------
Bad advice
    The predominant Muslim advisors to the U.S. Government are 
obviously sympathetic to non-violent Islamism and demand that the 
United States see the problem through the lens of violent extremism 
only. I will address some case examples below. Conversely it is also a 
fact that as long as our Government and public discourse continues to 
deemphasize the role of Islam this policy avoidance behavior will be a 
natural attraction for Islamist sympathizers (radicalizers) and a 
natural repellant for genuine reformers (counter-radicalizers) who seek 
to modernize interpretations of Islam against the theocrats.
Bipartisan blinders and false assumptions
    Both the Bush administration and the Obama administration have thus 
far erroneously felt that giving the radical Islamists air time for 
their Islamic theological verbiage will lend them credibility. From the 
time of Attorney General Gonzales, onward there have been significant 
attempts by the Department of Justice to control the lexicon used to 
describe radical Islamists, with repeated recommendations to avoid any 
religiously-charged terminology. The assumption that radical Islamists 
need our air time in order to brand themselves is false and it is more 
absurd to assume that their identity and branding can be defeated by 
ignoring it. In fact it requires the opposite--honest exposure, 
engagement, and marginalization. In fact the suppression of the truth 
of their Islamist identity is an obstacle to a whole host of policies 
and engagements which would be the beginning of their defeat.
The power of the Organization of Islamic Cooperation (OIC) Lobby
    The OIC is the proverbial elephant in the room. The constant 
refrain from the Obama administration that the United States should not 
``declare war against 1.6 billion Muslims and their governments'' is 
related to global intimidation by the OIC sadly while ignoring the 
plight of Muslim and non-Muslim dissidents in their nations who lead 
the fight against Islamist movements. First, make no mistake. Across 
the Middle East and Muslim majority world, many leaders, scholars, and 
pundits call these individuals and their acts exactly what they call 
themselves--Islamists and jihadists. They know that they cannot 
publicly disengage the attendant Islamic theocratic platform of the 
political movements of Islamists like the Muslim Brotherhood or the 
Khomeinists. These political movements and the Islamist identity of 
states like the Islamic Republic of Iran or the Islamic Republic of 
Pakistan or the Wahhabism of the Kingdom of Saudi Arabia is the 
underbelly inspiring the militant movements like ISIS, Hamas, al-Qaeda, 
and Hizballah. However those Islamist governments exploit the militancy 
of jihadists in order to dictate the ruling form of Islam.
    It is imperative that the United States not be beholden to the 
deceptive narrative of the 56 member nations of the Organization of 
Islamic Cooperation (OIC) regarding the root cause of the Islamist 
threat. These countries, and their OIC which is essentially a ``neo-
caliphate'' are cauldrons of the precursor Islamist ideas which fuel 
these movements and until they experience regime change towards 
democracy will never acknowledge the role of the ``shar'ia state'' in 
radicalizing Muslims. The OIC nations hide behind the facfade of 
``countering violent extremism'' all the while their governments fuel 
``violent Islamism''. It is heartbreaking as an American Muslim to see 
my own American democratic government invoke OIC-like blasphemy law 
behaviors preventing the antiseptic of sunlight upon the Islamist ideas 
which radicalize our co-religionists. With our founders' history in 
defeating theocracy, Americans are uniquely qualified to understand the 
battle against theocracy from within a faith. The best summary of the 
influence of the OIC upon our public discourse regarding Islam is 
Deborah Weiss' monograph, ``The Organization of Islamic Cooperation's 
Jihad on Free Speech.''\16\
---------------------------------------------------------------------------
    \16\ Weiss, Deborah Esq. The Organization of islamic Cooperation's 
Jihad on Free Speech. June 6, 2015 [http://
www.centerforsecuritypolicy.org/wp-content/uploads/2015/07/OIC_Free- 
_Speech_Jihad.pdf].
---------------------------------------------------------------------------
How did we get here? Islamist Sympathizers within the administration
    DHS Secretary Jeh Johnson says that they use only the term 
``violent extremism'' and have ``purged radical Islam from official 
vocabulary at the request of Muslim leaders.''\17\ These unnamed Muslim 
leaders must be Islamists since not one of our coalition of anti-
Islamist Muslim leaders of the Muslim Reform Movement were included in 
any of the conversations that led to this policy and in fact Muslims 
publicly identified with DHS are known Islamist leaders.\18\
---------------------------------------------------------------------------
    \17\ FoxNews.com. Homeland Secretary Johnson suggests term `violent 
extremism' used at behest of Muslim leaders. February 22, 2015. [http:/
/www.foxnews.com/politics/2015/02/22/homeland-secretary-johnson-
suggests-term-violent-extremism-used-at-behest.html].
    \18\ Hoskinson, Charles. Obama kept reform Muslims out of summit on 
extremism. Washington Examiner. February 21, 2015. [http://
www.washingtonexaminer.com/obama-kept-reform-muslims-out-of-summit-on-
extremism/article/2560525].
---------------------------------------------------------------------------
    The initial efforts to push the CVE narrative began with the DHS 
``CVE Working Group'' which published its suggestions in Spring 
2010.\19\ Among some of the members of the working group were Dalia 
Mogahed, Mohamed Magid, and Mohamed Elibiary. A little review of their 
history will reveal how these American Islamists likely influenced the 
CVE narrative to the benefit of their own Islamist lobby. Dalia Mogahed 
at the time was one of two Muslim members of Obama's faith advisory 
council. But just a few months prior to participating in the DHS CVE 
working group, Ms. Mogahed appeared on a British talk show sponsored by 
the extremist pro-Caliphate Islamist group, Hizb ut-Tahrir, where she 
explained that sharia law as practiced in the Islamic world are 
understood by the majority of Muslim women to represent ``gender 
justice with sharia compliance.''\20\ Mogahed later came out and 
apologized for appearing on the program, but still doubled-down on her 
remarks in support of sharia law.\21\ Her public positions have 
routinely denied even the existence of Islamism as an ideology while 
rejecting the voices and the need for reformers. Mohamed Magid at the 
time served as president of the Islamic Society of North America 
(ISNA). Magid's inclusion in the DHS CVE Working Group is remarkable 
for the fact that just a few years prior, as Newsweek reported, the 
Attorney General of the United States was having to cancel outreach 
meetings solely for the reason of the presence of Magid at the 
event.\22\ Several years prior, Magid was speaking at a forum at 
Georgetown University where he dismissed the on-going genocide in 
Darfur in his native Sudan, saying the multiple reports of genocide 
were an ``exaggeration''.\23\ In March 2002, Magid's offices were 
raided as part of the Operation Greenquest investigation.\24\ \25\ \26\ 
Surprisingly, TIME Magazine hailed Magid as ``An American Imam'' who 
helped the FBI fight terrorism by reporting suspected extremists. And 
yet the very day the TIME article appeared touting his cooperation with 
the FBI, Magid sent an open letter to his mosque congregation telling 
them that he, in fact, did not report any suspected extremists to the 
FBI as the reporter had claimed (presumably told by Magid himself.\27\ 
Magid is a regular invitee to the annual Obama White House iftar 
celebrations, which curiously exclude any pro-liberty Muslim leaders, 
and yet his name has been left off the official published attendees 
list due to controversies surrounding the imam.\28\ He has also been at 
the forefront of many anti-liberty initiatives, such as calling for 
using anti-discrimination laws to target critics of Islam and limiting 
free speech \29\ and urging the dubious ``purge'' of FBI counter-
terrorism training materials.\30\
---------------------------------------------------------------------------
    \19\ Countering Violent Extremism (CVE) Working Group. Homeland 
Security Advisory Council. Spring 2010. [https://www.dhs.gov/xlibrary/
assets/hsac_cve_working_group- _recommendations.pdf].
    \20\ Gilligan, Andrew and Spillius Alex. Barack Obama adviser says 
Shar'iah law is misunderstood. The Telegraph. Oct. 8, 2009. [http://
www.telegraph.co.uk/news/worldnews/barackobama/6274387/Obama-adviser-
says-Sharia-Law-is-misunderstood.html].
    \21\ Gilgoff, Dan. White House Faith Advisor Defends Sharia 
Remarks. USNews.com. October 22, 2009. [http://www.usnews.com/news/
blogs/god-and-country/2009/10/22/exclusive-white-house-faith-adviser-
defends-sharia-remarks].
    \22\ Isikoff, Michael. Justice Abruptly cancelled `Muslim Outreach 
Event' '' Newsweek. August 7, 2007. [http://www.newsweek.com/justice-
abruptly-cancelled-muslim-outreach-event-99685].
    \23\ IPT News. The State Department's Poor Choices of Muslim 
Outreach Emissaries. August 27, 2010. [http://
www.investigativeproject.org/2140/the-state-departments-poor-choices-
of-muslim].
    \24\ Ahmad, Ayesha. Muslim community members encourage coalition-
building. IslamOnline.net. March 26, 2002. [https://web.archive.org/
web/20021027152835/http://www.islam-online.net/english/News/2002-04/10/
article08.shtml].
    \25\ Program Circular of the Charitable Gift Fund. Charitable 
Giving the Muslim Way.
    \26\ Affidavit in support of application for search warrant. US 
District Court for the Eastern District of Virginia.
    \27\ Letter from Mohamed Majid to ADAMS All Dulles Area Muslim 
Society. Nov. 15, 2005. [http://web.archive.org/web/20060510074311/
http://www.adamscenter.org/Content.asp?ID- =226].
    \28\ Munro, Neil. Obama's Iftar guest list omits controversial 
attendees. Daily Caller. August 11, 2011. [http://dailycaller.com/2011/
08/11/obamas-iftar-guest-list-omits-controversial-attendees/].
    \29\ Munro, Neil. Progressives, Islamists huddle at Justice 
Department. The Daily Caller. October 21, 2011. [http://
dailycaller.com/2011/10/21/progressives-islamists-huddle-at-justice-
department/].
    \30\ ISNA and Nat. Orgs meet with FBI Dir. To Discuss Biased FBI 
Training Materials. ISNA website. March 8, 2014. [http://
web.archive.org/web/20120216025316/http:/www.isna.net/articles/News/
ISNA--Nat-Orgs-Meet-with-FBI-Dir-to-Discuss-Biased-FBI-Training-
Materials.aspx].
---------------------------------------------------------------------------
    Mohamed Elibiary was another member of the DHS CVE Working group 
and a former member of the DHS Homeland Security Advisory Council until 
he was removed for controversial comments such as saying that America 
was an Islamic country and bragging about the inevitability of a 
resurrected Islamic caliphate.\31\ \32\ \33\ Those comments were 
cheered by ISIS recruiters on Twitter.\34\ But even at the time of his 
appointment to the DHS Homeland Security Advisory Council his extremist 
views were already well-known, such as his speech at a December 2004 
event honoring the rabidly anti-American Iranian Ayatollah Khomeini, an 
event that the Dallas Morning News editorialized as a ``disgrace''. 
Elibiary was also an enthusiastic public supporter of the Holy Land 
Foundation, which was closed by a Presidential Executive Order in 
December 2001 as a global terrorist financing organization that raised 
millions of dollars for Hamas.\35\ \36\ Despite the convictions, 
Elibiary continues to attack the prosecution and the decision of the 
U.S. Supreme Court upholding the statute criminalizing the material 
support for terrorism.\37\ Prior to his appointment by Janet Napolitano 
to his DHS position he publicly feuded with a Dallas Morning News 
editor in defense of hardline jihadist ideologue Sayyid Qutb, who the 
9/11 Commission found was one of the most important influences in 
shaping Osama bin Laden's worldview.\38\ \39\ \40\
---------------------------------------------------------------------------
    \31\ Kredo, Adam. Controversial DHS Adviser Let Go amid allegations 
of Cover Up. Elibiary let go after extremist rhetoric, claims he 
improperly used classified docs. The Washington Free Beacon. September 
15, 2014. [http://freebeacon.com/issues/controversial-dhs-adviser-let-
go-amid-allegations-of-cover-up/].
    \32\ Kredo, Adam. DHS adviser tweets: America ``an Islamic 
country'': controversial adviser sympathetic to Muslim Brotherhood. The 
Washington Free Beacon. November 1, 2013. [http://freebeacon.com/
national-security/dhs-adviser-tweets-america-an-islamic-country/].
    \33\ Kredo, Adam. Senior DHS adviser: ``Inevitable that Caliphate 
returns'' The Washington Free Beacon. June 16, 2014. [http://
freebeacon.com/national-security/senior-dhs-adviser-brags-inevitable-
that-caliphate-returns/].
    \34\ Kredo, Adam. DHS Adviser's Anti-America tweets celebrated by 
ISIS Terrorists. Elibiary's controversial tweets coopted by terrorists. 
The Washington Free Beacon. June 19, 2014. 
[http://dailycaller.com/2013/10/06/homeland-security-advisor-supports-
convicted-terrorist-fundraiser/].
    \35\ Johnson, Charles. Homeland Security Advisor supports convicted 
terrorist fundraiser. The Daily Caller. October 6, 2013.
    \36\ DOJ press release. Federal Judge hands down sentences in Holy 
Land Foundation case. May 27, 2009.
    \37\ Elibiary, Mohamed. Verdict misinterprets `material support' 
Dallas Morning News. June 24, 2010. [dallasnews.com/opinion/commentary/
2010/06/24/Mohamed-Elibiary-Verdict-misinterprets-4772].
    \38\ Dreher, Rod. Sayyid Qutb's purpose driven life. The Dallas 
Morning News. August 28, 2006.
    \39\ Elibiary, Mohamed. It's a mistake to assassinate Anwar al-
Awlaki. FoxNews.com. April 16, 2010. [http://www.foxnews.com/opinion/
2010/04/16/mohamed-elibiary-alawlaki-assassinate-muslims-war-terror-
nsc.html].
    \40\ Shane, Scott. The Lessons of Anwar al-Awlaki. New York Times 
Magazine. August 27, 2015.
---------------------------------------------------------------------------
    The Council on American-Islamic Relations (CAIR) and the Muslim 
Public Affairs Council (MPAC) are two of the many Muslim Brotherhood 
legacy groups in America. They have typically generically renounced the 
use of terror and violence, but they have never taken a public position 
against the ideology of Political Islam (Islamism) and have as a matter 
of policy sought to obstruct any emphasis on the role of ``radical 
Islam'' and Islamism in radicalization. They both have also been some 
of the primary antagonists to efforts by law enforcement to understand 
and mitigate the real stages of radicalization of Muslims in America.
    In 2007, under the umbrella of the Muslim American Civil Liberties 
Coalition (MACLC), CAIR-NY and MPAC-NY authored ``Counterterrorism 
policy, MACLC's critique of the NYPD's report on homegrown 
radicalism.''\41\ The paper is a response to NYPD's report 
``Radicalization in the West: The Homegrown Threat.''\42\ In it, the 
organizations lay out their belief that, ``The study of violent 
extremism, however, should decouple religion from terror to safeguard 
civil liberties on free speech and equal protection grounds as a matter 
of strong public policy.'' These Islamist groups then spearheaded a 
successful effort to purge the NYPD of their seminal counter-terrorism 
documents endorsed by our Muslim Reform Movement. As part of a 
settlement agreement the NYPD was forced to remove the publication from 
its database and got not to rely on it in the future.\43\ I have 
attached the full report of the NYPD Report on ``Radicalization in the 
West: the Homegrown Threat,'' because of the value it serves (Appendix 
3). This effort by American Islamist groups is emblematic of the role 
they have played inside and outside of Government in suppressing 
American understanding of the radical Islam. CAIR was revealed in the 
The Holy Land Foundation trial as part of a network of Islamist 
organizations in the United States which grew out of American 
sympathizers with the Muslim Brotherhood of Egypt. The father of them 
all is the Muslim Students' Association and from it has sprouted a 
whole host of Muslim Brotherhood legacy groups in America. Steven 
Merley describes the Muslim Brotherhood network in the United States in 
his monograph.\44\
---------------------------------------------------------------------------
    \41\ Counterterrorism Policy. MACLC's Critique of the NYPD's Report 
on Homegrown Radicalism. Muslim American Civil Liberties Coalition. 
CAIR-NY. Fauzia N. Ali, Sarah SAYEED, Aliya Latif. 2008.
    \42\ Silber, Mitchell D. And Bhatt, Arvin. Radicalization in the 
West: The Homegrown Threat. NYPD Intelligence Division. Police 
Department, City of New York. 2007. [http://sethgodin.typepad.com/
seths_blog/files/NYPD_Report-Radicalization_in_the_West.pdf] (Accessed 
June 26, 2016).
    \43\ Kredo, Adam. Court Requires NYPD to Purge Docs on Terrorists 
Inside U.S. The Washington Free Beacon. January 18, 2016. [http://
freebeacon.com/national-security/court-requires-nypd-purge-docs-
terrorists-inside-us/].
    \44\ Merley, Steven. The Muslim Brotherhood in the United States. 
Center on Islam, Democracy and the Future of the Muslim World. Hudson 
Institute. 2009.
---------------------------------------------------------------------------
    Salam al-Marayati, president of the Muslim Public Affairs Council 
(MPAC), is one of the closest Muslim advisers to the White House and is 
reportedly playing a crucial role in advising the Department of 
Homeland Security on its ``countering violent extremism'' (CVE) 
policies. Marayati was one of the invited participants in President 
Obama's February 2015 White House Summit on Countering Violent 
Extremism.\45\ \46\ \47\ \48\ In April 24, 2014, the White House and 
MPAC co-hosted a forum on American Muslim women.\49\ MPAC is also 
identified by the FBI as one of its official ``outreach'' partners.\50\ 
This has carried over into the Clinton campaign. On March 2016, 
Marayati participated in a roundtable event with Democratic 
presidential candidate Hillary Clinton \51\ Marayati's close 
association with the Hillary Clinton campaign is noteworthy in that 
during her husband's administration, Marayati had his nomination to a 
U.S. Government terrorism commission withdrawn by House Minority Leader 
Richard Gephardt after criticism from former FBI Counterterrorism 
Section Chief Steven Pomerantz and Jewish groups who noted his open 
support for Hamas and Hezbollah\52\ In a press release by the Journal 
for Counterterrorism and Security International documented MPAC and 
Marayati's long-time support for terrorism and public defense of 
terrorism suspects.\53\ That support for extremism continues up until 
today. In 2010, former Federal prosecutor Andrew McCarthy documented 
Marayati and MPAC's long history of extremism.\54\ \55\ \56\ In October 
2012, the State Department has also selected Marayati to represent the 
United States as part of the official delegation to a 10-day OSCE human 
rights conference.\57\ \58\ After protests by Jewish groups about his 
appointment to the delegation, a State Department spokesman defended 
Marayati, calling him ``valued and highly credible''.\59\ Perhaps most 
perplexing in light of his previous removal from the Clinton 
administration terrorism commission is the role that MPAC has played in 
directing the Obama administration to purge counter-terrorism training 
and trainers who discuss the role of radical Islam. To that end, 
Marayati penned an op-ed in the LA Times threatening that non-
compliance by National security and law enforcement agencies to conduct 
such a ``purge'' endangered their relationship with the 
administration.\60\ Marayati's organization signed their name to a 
letter to then-White House Counterterrorism czar John Brennan demanding 
such a purge.\61\ One of the most telling events was the 2-day DHS 
Muslim engagement meeting held in late January 2010 marking the 
escalation of engagement with United States Islamist groups.\62\ The 
discussion between DHS officials on who to invite uncovered by a 
Judicial Watch FOIA request on the meeting shows that many of the 
attendees came from Muslim Brotherhood-aligned organizations.\63\ The 
results of this meeting established the Obama administration's policy 
of embracing Islamist groups in favor of more reform-minded Islamic 
organizations. This policy was officially established in 2011 when DHS 
civil Rights and Civil Liberties circulated a memorandum, ``Countering 
Violent Extremism Dos and Don'ts,'' that expressly warns local and 
National law enforcement agencies against using moderate Muslim 
``trainers who are self-professed `Muslim reformers' '' because they 
``may further an interest group agenda instead of delivering generally 
accepted, unbiased information.''\64\
---------------------------------------------------------------------------
    \45\ McCarthy, Andrew. C. Find the ``Countering Violent Extremism 
Summit'' at the Intersection of Islamists and Leftists. National 
Review. February 19, 2015. [http://www.nationalreview.com/corner/
414064/find-countering-violent-extremism-summit-intersection-islamists-
and-leftists-andrew-c].
    \46\ Kredo, Adam. Muslim Leader who called Israel a `suspect' after 
9/11 meets with Biden at White House'' The Washington Free Beacon. 
February 18, 2015. [http://freebeacon.com/national-security/muslim-
leader-who-called-israel-a-suspect-after-911-meets-with-biden-at-white-
house/].
    \47\ Twitter. MPAC February 17, 2015 [https://twitter.com/
mpac_national/status/567785207940792320].
    \48\ 2010 White House Iftar. MPAC website. August 14, 2010. [http:/
/www.mpac.org/multimedia-old/photos-old/2010-white-house-iftar.php] 
August 11, 2011. [http://www.mpac.org/programs/government-relations/
white-house-iftar-dinner-attended-by-haris-tarin-mpacs-director-of-the-
dc-office.php] August 16, 2012. [http://www.mpac.org/programs/
government-relations/mpac-board-chair-reflects-on-attending-white-
house-iftar.php] June 23, 2015 [http://www.mpac.org/blog/meeting-the-
president-at-the-white-house-iftar.php].
    \49\ MPAC website. MPAC Partners with the White House Hosting 
Groundbreaking Women's Forum. April 17, 2014. [http://www.mpac.org/
issues/womens-empowerment/mpac-partners-with-the-white-house-hosting-
groundbreaking-womens-forum.php].
    \50\ FBI Community Outreach Partners. (Accessed June 27, 2016).
    \51\ MPAC website. MPAC President Speaks at Roundtable with Hillary 
Clinton. March 25, 2016. [http://www.mpac.org/policy-analysis/mpac-
president-discusses-partnership-with-hillary-clinton.php] Video 
[https://www.youtube.com/watch?v=u__WYnM3wbY].
    \52\ Goodstein, Laurie. Gephardt Bows to Jews' Ange over a Nominee. 
New York Times. July 9, 1999. Also see CNN [http://web.archive.org/web/
20081211110250/http:/www.cnn.com/ALLPOLITICS/stories/1999/07/29/
terrorism.commission/index.html].
    \53\ Does Salam al-Marayati Support Terrorism? You make the call. 
The Journal of Counter-terrorism and Security International. July 9, 
1999 [http://www.prnewswire.com/news-releases/does-salam-al-marayati-
support-terrorism-you-make-the-call-73539887.html].
    \54\ McCarthy, Andrew. MPAC History. National Review. August 7, 
2012 [http://www.nationalreview.com/article/313257/history-mpac-andrew-
c-mccarthy].
    \55\ ADL New Blood Libel: Jews Accused of Harvesting Organs. MPAC 
[http://archive.adl.org/nr/exeres/a3d52d61-a5a0-46a4-96c2-
6abcb54d33ca,8c8c250f-da79-405f-b716-d4409cab5396,- frameless.html].
    \56\ MPAC website. Israel Admits Harvesting Palestinian organs. 
December 21, 2009 [http://www.mpac.org/programs/government-relations/
mpac-represents-us-government-at-human-rights-conference.php].
    \57\ Kredo, Adam. Anti-Israel Advocate Reps U.S. At Rights 
Conference. MPAC represents. The Washington Free Beacon. October 3, 
2012
    \58\ MPAC website. MPAC Represents US Government at human rights 
conference.
    \59\ Kredo, Adam. State Department stands by their man. The 
Washington Free Beacon. October 4, 2012 [http://freebeacon.com/
national-security/state-stands-by-its-man/].
    \60\ Marayati, Salam. The Wrong Way to Fight Terrorism. LA Times. 
October 19, 2011 [http://articles.latimes.com/2011/oct/19/opinion/la-
oe-almarayati-fbi-20111019].
    \61\ Muslim Advocates website. Letter to DHS John Brennan on FBI 
use of biased experts and training materials. [https://
www.muslimadvocates.org/letter-to-dhs-john-brennan-on-fbis-use-of-
biased-experts-and-training-materials/].
    \62\ DHS Readout. Readout of Secretary Napolitano's Meeting with 
Faith-Based and Community Leaders. January 28, 2010. [https://
www.dhs.gov/news/2010/01/28/readout-secretary-napolitanos-meeting-
faith-based-and-community-leaders].
    \63\ Judicial Watch Investigative Bulletin. DHS Secretary 
Napolitano and Controversial Islamic Community Leaders' Meeting 
Documents. December 9, 2011. [http://www.judicialwatch.org/bulletins/
dhs-secretary-napolitano-and-controversial-islamic-].
    \64\ Johnson, Charles. Homeland Security guidelines advise 
deference to pro-Shar'iah Muslim Supremacists. The Daily Caller. May 
17, 2013. [http://dailycaller.com/2013/05/17/homeland-security-
guidelines-advise-deference-to-pro-sharia-muslim-supremacists/].
---------------------------------------------------------------------------
CAIR
    One of the most obvious beneficiaries of this embrace of Islamist 
groups has been the Council on American-Islamic Relations (CAIR). 
During the 2007-2008 Holy Land Foundation terrorism financing trial, 
CAIR was directly implicated by Federal prosecutors in the Muslim 
Brotherhood's U.S. Palestine Committee conspiracy to provide ``media, 
money, and men'' to Hamas.\65\ During the course of the trial it was 
reported that CAIR, among other U.S. Islamic groups including ISNA, had 
been named unindicted co-conspirator in the case.\66\ During the trial 
itself, FBI Special Agent Lara Burns testified under oath that CAIR was 
a front group for Hamas.\67\ Just weeks after the jury in the Holy Land 
Foundation case found the defendants guilty on all counts, the FBI 
quietly announced a policy to not have any official contact with 
CAIR.\68\ \69\ \70\
---------------------------------------------------------------------------
    \65\ ACLU Files USA v. Holy Land Foundation CR No. 3:04-CR-240-P. 
[https://www.aclu.org/sites/default/files/images/
asset_upload_file142_36171.pdf#page=13].
    \66\ Gerstein, Josh. Islamic Groups named in Hamas Funding Case. NY 
Sun. June 4, 2007. [http://www.nysun.com/national/islamic-groups-named-
in-hamas-funding-case/55778/].
    \67\ Crime Blog. FBI: CAIR is a front group, and Holy Land 
Foundation tapped Hamas clerics for fundraisers. Dallas Morning News. 
Oct. 7, 2008 [http://crimeblog.dallasnews.com/2008/10/fbi-cair-is-a-
front-group-and.html/].
    \68\ Abrams, Joseph. FBI Cuts ties to CAIR following terror 
financing trial. FoxNews.com. January 30, 2009. [http://
www.foxnews.com/politics/2009/01/30/fbi-cuts-ties-cair-following-
terror-financing-trial.html].
    \69\ Judge's ruling on Islamic Group made public. Politico.com 
[http://www.politico.com/blogs/under-the-radar/2010/11/judges-ruling-
on-islamic-groups-as-unindicted-co-conspirators-made-public-030922].
    \70\ Peter King questions decision not to prosecute CAIR. Politico 
[http://www.politico.com/blogs/under-the-radar/2011/04/peter-king-
questions-decision-not-to-prosecute-cair-others-035104].
---------------------------------------------------------------------------
    When the Obama administration began deleting the term ``Islamist'' 
from usage in defense and National security policy documents in favor 
of ``violent extremists,'' CAIR publicly cheered the change.\71\ \72\ 
More recently it has tried to eliminate the use of ``Islamist'' in 
public discourse, particularly the media, which ends up conflating the 
hardcore political Islam ideology embraced by CAIR, ISNA, and other 
more extreme Islamic groups from more mainstream interpretations.\73\ 
CAIR took a lead in publicly attacking U.S. Government counter-
terrorism training, signing onto the October 2011 demand letter sent to 
the White House by 57 Islamic groups demanding a training ``purge.'' 
During the investigation into the dozens of young Somali men who had 
left the Minneapolis area to travel to Somalia to fight with the al-
Shabaab terror group, friends and relatives of the missing men publicly 
accused CAIR of interfering in the investigation and protested CAIR's 
attempts to silence family members from asking questions about how 
their loved ones had been recruited.\74\
---------------------------------------------------------------------------
    \71\ Terror Reviews avoid word ``Islamist''. Washington Times. 
February 12, 2010. [http://www.washingtontimes.com/news/2010/feb/12/
violent-extremists-but-not-islamists/].
    \72\ End to Loaded Islamic terms welcomed. [http://www.upi.com/
Top_News/Special/2010/04/08/End-to-loaded-Islamic-terms-welcomed/
23761270739326/].
    \73\ Hanchett, Ian. CAIR Comm Director: Term ``Islamists'' used as 
pejorative. Breitbart.com Jan 19, 2015. [http://www.breitbart.com/
video/2015/01/19/cair-comm-director-term-islamists-used-as-pejorative/
].
    \74\ Somalis take to the street to protest group's actions.. Star 
Tribune.com June 12, 2009 [http://www.hiiraan.com/news4/2009/Jun/11060/
somalis_take_to_the_street_to_protest- _group_s_actions.aspx].
---------------------------------------------------------------------------
    Both CAIR and MPAC attacked me and other Muslim reformers including 
Asra Nomani and Qanta Ahmed in the prelude leading up to our testimony 
on Muslim Radicalization to the Homeland Security Committee of the 
House in March 2011. In a form of subtle takfirism, never dealing with 
the substance of our testimony, they cast the hearings which included 
only Muslim witnesses in the first panel for the Republicans as ``Rep. 
Peter King's Anti-Muslim Congressional Hearings.''\75\
---------------------------------------------------------------------------
    \75\ Rep. Peter King's Anti-Muslim Congressional Hearings. CAIR.com 
June 2012. 
[https://www.cair.com/14-islamophobia/11638-rep-peter-king-s-anti-
muslim-congressional-hearings.html].
---------------------------------------------------------------------------
    The group also came under fire in January 2011 when one of its 
local affiliates circulated a poster ominously warning the Muslim 
community, ``Don't talk to the FBI.'' They predictably claimed that the 
poster had been ``taken out of context.''\76\ Despite the open 
hostility from CAIR and in violation of stated FBI policy, several FBI 
field offices flagrantly violated the ban on official contact with CAIR 
a Justice Department Inspector General investigation found.\77\ Members 
of Congress called for punishment for FBI officials who defied the CAIR 
official contact ban, which never came.\78\ The Obama administration 
and top Democratic Party leaders also failed to follow the direction of 
the FBI to stay away from CAIR, with top CAIR officials directly 
implicated in the Holy Land Foundation case showing up at party 
fundraisers.\79\ A senior White House official admitted that the 
administration had ``hundreds'' of meetings with CAIR despite the FBI 
official contact policy ban.\80\ In November 2014, the United Arab 
Emirates named CAIR and another U.S. Islamic group, the Muslim American 
Society, as terrorist organizations as part of their ban on 
international Muslim Brotherhood groups.\81\ While CAIR may eschew 
violence of many Islamist groups, this designation speaks to their 
known common ideological streaming across the Middle East and OIC with 
Islamist movements like the Muslim Brotherhood.\82\ The unashamed 
empowerment, embrace, and rehabilitation of CAIR by the Obama 
administration in the face of a continued rejection by the FBI and 
CAIR's direct complicity in supporting terrorism as successfully argued 
by Federal prosecutors in Federal court has come at the expense of the 
influence of more mainstream Islamic organizations like our Muslim 
Reform Movement in shaping U.S. Government counterterrorism policies 
and community engagement.
---------------------------------------------------------------------------
    \76\ Starnes, Todd. CAIR Says Poster Warning against helping FBI is 
Misinterpreted. Foxnews.com. Jan. 13, 2011. [http://www.foxnews.com/us/
2011/01/13/cair-says-anti-fbi-poster-misinterpreted.html].
    \77\ Review of FBI interactions with CAIR. US Department of 
Justice. September 2013. [http://www.investigativeproject.org/4165/
wolf-demands-fbi-punish-agents-for-cair-contact].
    \78\ IPT News. Wolf Demands FBI Punish Agents for CAIR Contact. 
Investigative Project on Terrorism. September 19, 2013. [http://
www.investigativeproject.org/4165/wolf-demands-fbi-punish-agents-for-
cair-contact].
    \79\ Munro, Neil. Pelosi holds secret fundraiser with Islamists, 
Hamas-linked groups. The Daily Caller. Nov. 2, 2012. [http://
dailycaller.com/2012/11/02/pelosi-holds-secret-fundraiser-with-
islamists-hamas-linked-groups/].
    \80\ Munro, Neil. Administration admits to ``hundreds'' of meetings 
with jihad-linked group. The Daily Caller. June 8, 2012. [http://
dailycaller.com/2012/06/08/administration-admits-to-hundreds-of-
meetings-with-jihad-linked-group/].
    \81\ UAE publishes list of terrorist organizations. Gulf News. 
November 15, 2014. [http://gulfnews.com/news/uae/government/uae-
publishes-list-of-terrorist-organisations-1.1412895].
    \82\ US Govt pledges to work with CAIR, MAS on UAE Designation. 
CAIR.com Dec. 22, 2014. [http://www.cair.com/press-center/press-
releases/12783-us-government-pledges-to-work-with-cair-mas-on-uae-
designation.html].
---------------------------------------------------------------------------
 conclusion: shift globally from countering violent extremism (cve) to 
                   countering violent islamism (cvi)
    The importance of identifying the theo-political precursors of 
militant Islamists could not be more clear to our security and our 
domestic and global counter-terrorism strategy. Any attempt to purge 
the discourse of an understanding of the Islamist precursors is 
dishonest, empowers the Islamist movements domestically and abroad, and 
marginalizes our greatest allies--reform-minded anti-Islamist Muslims. 
De-emphasizing radical Islam keeps our security agencies in the dark 
while Islamist precursor warnings are ignored in the public. The de-
emphasis makes us far more vulnerable than we should be and it also is 
a primary obstacle to enabling the very reforms and reformers that 
would otherwise bring forth the end of radical Islamism. Every massacre 
from Fort Hood to Boston to Chattanooga to San Bernardino and now 
Orlando is fraught with commonalities and lessons we ignore at our own 
plight. We must treat our Muslim communities with a tough love. I give 
the following recommendations:

    1. Transition immediately from a center of gravity on ``Countering 
        Violent Extremism'' (CVE) to one centered on ``Countering 
        Violent Islamism'' (CVI).

    2. The U.S. Government and public discourse (academia, NGO's, and 
        media) must include a broad spectrum of ideologically diverse 
        voices in the Muslim community. It is time to end the un-
        democratic ban on any theological terms and with that also end 
        the marginalization of reform-minded Muslims most notably the 
        bipartisan group of Muslim leaders of the Muslim Reform 
        Movement.

    3. It is time to stop engaging Muslim Brotherhood legacy groups in 
        Government and media and recognize their misogynist, anti-
        Semitic, homophobic, and anti-American ideological 
        underpinnings. We must recognize that they are not the only 
        voice for American Muslims. We must make women's issue and 
        freedom of conscience a litmus test. These groups, when 
        pressed, will fail.

    4. It is time to stop giving credence to the concerns of OIC 
        dictatorships about our word choices and counter-radicalization 
        strategies. Our real allies abroad are the free thinkers in 
        their prisons not in their palaces.

    5. As uncomfortable as it may be to speak the language of the 
        enemy, they do call themselves Islamists and effectively 
        separate themselves from other Muslims. We must identify them 
        as Islamists drawing a clear line.

    6. I ask that you re-open the investigation into CAIR's radical 
        ties, and into their extensive domestic and foreign network of 
        foundations and poorly-hidden branches.

    7. I ask that you no longer fear offending by using these terms. 
        Those oppressed by Islamism--including many Muslims--depend on 
        your honesty. Homeland security depends upon your honesty in 
        order for the American people to hold them accountable to the 
        natural precursors of violent Islamism.

                                 ______
                                 
          Appendix 1.--Statement of the Muslim Reform Movement
May 27, 2016
Dear Brothers and Sisters:
    Assalamu aleikum wa ramatullahi wa baraktuhu. We write as fellow 
Muslims concerned with the state of our community, and of the broader 
ummah--humankind. Like you, our faith is very important to us. 
Important enough that we wish to seek solutions to the problems facing 
our community so that peace and mercy prevail.
    Tragically, our community is plagued with problems--problems we can 
no longer minimize and certainly cannot ignore. Assuring those who are 
not Muslim that the problems we face have ``nothing to do with Islam'' 
doesn't just fail to solve these problems. This response shirks our 
responsibility to address crises within our communities and actually 
promotes tensions between ourselves and others. Ultimately, denial and 
inaction also promote anti-Muslim bigotry.
    Now is the time to act. As violence continues to be carried out in 
the name of our faith--from Paris to Beirut and Nigeria, from city 
squares to family homes--our moral courage and fortitude are more 
important than ever. As faithful Muslims committed to universal human 
rights, and the principles of mercy and peace, we invite you to sign 
onto our declaration for Muslim reform.
    This declaration, which we attach, is being sent to Muslim leaders 
in America and around the world. It is a public statement in support of 
gender equality, non-violence, secular governance and authentic social 
justice.
    The list of fellow Muslims to whom we are sending this letter will 
be made available to the public, as will responses and the names of 
signatories to the declaration. We look forward to your support and 
public commitment to these values. Please respond at the email and 
snail mail addresses below.
            Sincerely yours,
                    Founders of the Muslim Reform Movement.
                                 ______
                                 
Preamble
    We are Muslims who live in the 21st Century. We stand for a 
respectful, merciful, and inclusive interpretation of Islam. We are in 
a battle for the soul of Islam, and an Islamic renewal must defeat the 
ideology of Islamism, or politicized Islam, which seeks to create 
Islamic states, as well as an Islamic caliphate. We seek to reclaim the 
progressive spirit with which Islam was born in the 7th Century to fast 
forward it into the 21st Century. We support the Universal Declaration 
of Human Rights, which was adopted by United Nations member states in 
1948.
    We reject interpretations of Islam that call for any violence, 
social injustice, and politicized Islam. Facing the threat of 
terrorism, intolerance, and social injustice in the name of Islam, we 
have reflected on how we can transform our communities based on three 
principles: Peace, human rights, and secular governance. We are 
announcing today the formation of an international initiative: The 
Muslim Reform Movement.
    We have courageous reformers from around the world who have written 
our Declaration for Muslim Reform, a living document that we will 
continue to enhance as our journey continues. We invite our fellow 
Muslims and neighbors to join us.
Declaration
            A. Peace: National Security, Counterterrorism, and Foreign 
                    Policy
    1. We stand for universal peace, love, and compassion. We reject 
        violent jihad. We believe we must target the ideology of 
        violent Islamist extremism, in order to liberate individuals 
        from the scourge of oppression and terrorism both in Muslim-
        majority societies and the West.

    2. We stand for the protection of all people of all faiths and non-
        faith who seek freedom from dictatorships, theocracies, and 
        Islamist extremists.

    3. We reject bigotry, oppression, and violence against all people 
        based on any prejudice, including ethnicity, gender, language, 
        belief, religion, sexual orientation, and gender expression.
            B. Human Rights: Women's Rights and Minority Rights
    1. We stand for human rights and justice. We support equal rights 
        and dignity for all people, including minorities. We support 
        the United Nations Declaration of Human Rights.

    2. We reject tribalism, castes, monarchies, and patriarchies and 
        consider all people equal with no birth rights other than human 
        rights. All human beings are born free and equal in dignity and 
        rights. Muslims don't have an exclusive right to ``heaven.''

    3. We support equal rights for women, including equal rights to 
        inheritance, witness, work, mobility, personal law, education, 
        and employment. Men and women have equal rights in mosques, 
        boards, leadership, and all spheres of society. We reject 
        sexism and misogyny.
            B. Secular Governance: Freedom of Speech and Religion
    1. We are for secular governance, democracy, and liberty. We are 
        against political movements in the name of religion. We 
        separate mosque and state. We are loyal to the nations in which 
        we live. We reject the idea of the Islamic state. There is no 
        need for an Islamic caliphate. We oppose institutionalized 
        sharia. Sharia is man-made.

    2. We believe in life, joy, free speech, and the beauty all around 
        us. Every individual has the right to publicly express 
        criticism of Islam. Ideas do not have rights. Human beings have 
        rights. We reject blasphemy laws. They are a cover for the 
        restriction of freedom of speech and religion. We affirm every 
        individual's right to participate equally in ijtihad, or 
        critical thinking, and we seek a revival of ijtihad.

    3. We believe in freedom of religion and the right of all people to 
        express and practice their faith, or non-faith, without threat 
        of intimidation, persecution, discrimination or violence. 
        Apostasy is not a crime. Our ummah--our community--is not just 
        Muslims, but all of humanity.
    We stand for peace, human rights, and secular governance. Please 
stand with us!
    Affirmed this Fourth Day of December, Two-Thousand and Fifteen by 
the founding authors who are signatories below
                          Founding Signatories
                                         Tahir Gora
                      Author, Journalist, Activist, Toronto, Canada
                                       Tawfik Hamid
                      Islamic Thinker and Reformer, Oakton, VA, USA
                                        Usama Hasan
                              Imam, Quilliam Foundation, London, UK
                                       Arif Humayun
Senior Fellow, American Islamic Forum for Democracy, Portland, OR, 
                                                                USA
                                  Farahnaz Ispahani
 Author, Former Member of Parliament, Pakistan, Washington, DC, USA
                              M. Zuhdi Jasser, M.D.
   President, American Islamic Forum for Democracy, Phoenix, AZ USA
                                       Naser Khader
 Member, Danish Parliament, Muslim democracy activist, Copenhagen, 
                                                            Denmark
                                  Courtney Lonergan
Community Outreach Director, American Islamic Forum for Democracy, 
                                           Professional facilitator
                                       Hasan Mahmud
Resident expert in sharia, Muslims Facing Tomorrow, Toronto, Canada
                                        Asra Nomani
                            Journalist, Author, Morgantown, WV, USA
                                        Raheel Raza
                  Founder, Muslims Facing Tomorrow, Toronto, Canada
                                        Sohail Raza
          Vice President, Coalition of Progressive Canadian Muslim 
                                                      Organizations
                                     Salma Siddiqui
President, Coalition of Progressive Canadian Muslim Organizations, 
                                                    Toronto, Canada
  . . affirmed at 8 AM this Fourth Day of December, Two-Thousand and 
Fifteen
                                 ______
                                 
  Appendix 2.--``It's Salafi-Jihadist Insurgency, Stupid!'', A Policy 
                         Briefing by Quilliam*
---------------------------------------------------------------------------
    * The attachment is retained in Committee files and is available at 
http://www.quilliamfoundation.org/press/its-a-salafi-jihadist-
insurgency-stupid/.

    Mr. Perry. Thank you, Dr. Jasser.
    The Chair now recognizes Ms. Aziz for an opening statement.

    STATEMENT OF SAHAR F. AZIZ, PROFESSOR OF LAW, TEXAS A&M 
                    UNIVERSITY SCHOOL OF LAW

    Ms. Aziz. Mr. Chairman and distinguished Members of the 
committee, thank you for inviting me to testify. For over 15 
years I have worked with Muslim communities in America in 
various capacities, including as a civil rights lawyer and as a 
senior policy advisor for the Office of Civil Rights and Civil 
Liberties at the U.S. Department of Homeland Security.
    Currently, I am a professor at Texas A&M University School 
of Law where I teach and research at the intersection of 
National security and civil liberties. The opinions I express 
today are my own. I ask that my testimony be admitted into the 
record.
    Mr. Perry. Without objection, so ordered.
    Ms. Aziz. I want to address four key issues. First, 
countering violent extremism programs are counterproductive as 
they feed the Daesh's narrative that America is at war with 
Islam. Second, CVE programs are unnecessary. Third, they are a 
waste of Government resources. Fourth, funds for community 
development and resilience programs should be administered by 
social service agencies without law enforcement control.
    National security is a priority that crosses partisan 
lines. Americans of all races, ethnicities, and religions are 
equally concerned with ensuring our country is safe from 
violence, whether politically-motivated terrorism, State 
violence, or violent crime.
    Furthermore, we all share an interest in preventing 
violence before it occurs. As citizens and elected officials, 
we have a responsibility to carefully examine whether the 
methods we are using to prevent terrorism are effective.
    Using ``Islamic'' to label terrorism and terrorists is 
counterproductive because we give Daesh exactly what it wants--
legitimacy. Daesh wants to be called Islamic because 99.9 
percent of the 1.5 billion Muslims across the world reject them 
and refuse to bestow them with the authority to represent them. 
Hence, when we call them Islamic terrorists, they win the war 
of ideas.
    Second, using a religious identity to label a criminal is a 
slippery slope to calling criminals Christian terrorists, 
Jewish terrorists, or other religious labels based on a 
suspect's characteristics or ideology. This has serious adverse 
consequences on religious freedom and imposes guilt by 
association on faith communities in the United States. It is 
just a matter of time before a Muslim terrorist eventually is 
used as a basis to call someone a Christian terrorist.
    Now the Obama administration's CVE programs are managed and 
funded by DHS and DOJ. As a result, they securitize Government-
community relations such that Muslims are perceived and engaged 
with primarily through a security lens. Muslim Americans are 
treated as potential terrorists first and citizens second.
    Such securitized treatment of an entire religious community 
is counterproductive. CVE signals to the public that Muslims 
warrant collective suspicion. According to a December 2015 
Gallup poll, 43 percent of Americans harbor prejudice toward 
Muslims. These biases have been contributing toward an alarming 
spike in anti-Muslim discrimination and hate crimes. Among the 
most troubling trends is the bullying of Muslim students.
    In 2016 a survey in California of more than 600 Muslim 
American students in middle and high school found that 55 
percent reported being bullied or discriminated against, twice 
the number of students nationally who reported being bullied. 
Additionally, a report by California State University found 
that anti-Muslim hate crimes increased 78 percent in 2015, at 
196 compared to 110 hate crimes in 2014.
    International terrorists point to discrimination and 
selective government targeting of Muslims in their recruiting 
efforts to gain followers and sympathy for their perverse 
political agenda. Daesh, in particular, relies on 
marginalization and alienation to fuel its narrative that 
America is at war with Islam.
    Moreover, CVE programs are unnecessary to preserve American 
National security. Muslims, like all other Americans, do not 
need a special program for them to be Good Samaritans that 
report suspicious criminal activity about which they have 
knowledge.
    A 2016 Duke University report found that Muslim communities 
across the country have a positive relationship with police and 
that they are willing to engage with police departments based 
on principles of fairness and equal treatment.
    According to the New America Foundation, approximately 60 
percent of terrorism plots have been prevented due to 
traditional investigative methods of which 18 percent of those 
cases were solved by initial tips from Muslim communities 
without the need for costly and counterproductive CVE programs.
    CVE is also a waste of resources because Muslim Americans 
know less about potential plots by individuals acting alone, in 
secret and on-line than law enforcement agencies with a 
sophisticated array of law enforcement tools and investigative 
tools. For example, the Boston Marathon bombing, Orlando and 
San Bernardino mass shootings, and attempted Times Square 
bombing were all perpetrated by individuals whose families and 
friends were as shocked to discover their illicit acts as any 
other American.
    In conclusion, the tens of millions of dollars spent on CVE 
programs are better spent on programs administered by social 
service agencies with the expertise to assist the multitude of 
American communities in need of job training, mental health 
services, refugee resettlement, youth programs, and other 
services that promote safe and healthy communities.
    Muslim Americans have made significant contributions to our 
society and our economy as doctors, teachers, engineers, 
politicians, and entrepreneurs. They deserve to be treated with 
the same dignity, equality, and presumption of innocence as all 
other Americans. Thank you, and I welcome your questions.
    [The prepared statement of Ms. Aziz follows:]
                 Prepared Statement of Sahar F. Aziz\1\
---------------------------------------------------------------------------
    \1\ The viewpoints expressed here are solely those of the author 
and do not represent the viewpoints or positions of Texas A&M 
University School of Law, the Brookings Doha Center, or the Institute 
for Social Policy and Understanding.
---------------------------------------------------------------------------
                           September 22, 2016
    Mr. Chairman and distinguished Members of the committee: Thank you 
for inviting me to testify before the Subcommittee on Oversight and 
Management Efficiency in the U.S. Homeland Security Committee. For over 
15 years, I have worked with Muslim, Arab, and South Asian communities 
in the United States in various capacities including as a community 
advocate, civil rights lawyer, and Senior Policy Advisor for the Office 
of Civil Rights and Civil Liberties at the U.S. Department of Homeland 
Security.
    Currently, I am a professor of law at Texas A&M University School 
of Law,\2\ a non-resident fellow with the Brookings Doha Center, and 
scholar at the Institute for Social Policy and Understanding. My 
research focuses on law and policy the intersection of National 
security and civil liberties with a focus on Muslim, Arab, and South 
Asian communities in the United States.\3\ In addition, I research the 
relationship between, rule of law, authoritarianism, and terrorism in 
the Middle East\4\.
---------------------------------------------------------------------------
    \2\ See Texas A&M School of Law, Faculty Profiles, Sahar F. Aziz, 
http://law.tamu.edu/faculty-staff/find-people/faculty-profiles/sahar-
aziz. See also Sahar F. Aziz's Scholarly Papers, SOCIAL SCIENCES 
RESEARCH NETWORK, http://papers.ssrn.com/sol3/cf_dev/
AbsByAuth.cfm?per_id=1459001.
    \3\ See, e.g., Sahar F. Aziz, Policing Terrorists in the Community, 
5 Harv. Nat'l Sec. L.J. 147 (2014); Sahar Aziz, Caught in a Preventive 
Dragnet: Selective Counterterrorism in a Post-9/11 America, 47 Gonz. L. 
Rev. 429 (2011/2012); Sahar Aziz, Federal Civil Rights Engagement with 
Arab and Muslim American Communities Post 9/11, 18 J. Gender Race & 
Just. 1 (2015); Sahar Aziz, Security and Technology: Rethinking 
National Security, 2 Tex. A&M L. Rev. 7791 (2015); Sahar F. Aziz, From 
the Oppressed to the Terrorist: Muslim American Women Caught in the 
Crosshairs of Intersectionality, 9 HASTINGS R. & POV. L. J. 1 (2012).
    \4\ See, e.g., Sahar Aziz, Independence Without Accountability: The 
Judicial Paradox of Egypt's Failed Transition to Democracy, 120 Penn 
St. L. Rev. 101 (2016); Sahar Aziz, Bringing Down an Uprising: Egypt's 
Stillborn Revolution, 30 Conn. J. Int'l L. 1 (2014); Sahar Aziz, 
Revolution Without Reform? A Critique of Egypt's Election Laws, 45 
George Washington Int'l L. Rev. (2012); Sahar Aziz, Egypt's Protracted 
Revolution, 19 No. 3 Hum. Rts. Brief 1 (2012); Sahar Aziz, Linking 
Intellectual Property Rights with Research and Development, Technology 
Transfer, and Foreign Investment: A Case Study of Egypt's 
Pharmaceutical Industry, 10 ILSA J. of Int'l & Comp. L. 1 (2003).
---------------------------------------------------------------------------
    My testimony today is a based on my extensive experience working 
with Muslim, Arab, and South Asian communities as well as my academic 
research examining the myriad ways our National security laws and 
policies adversely impact these diverse communities' civil rights and 
liberties. The opinions I am expressing in both my written and verbal 
testimony are my own.
    I want to address four key issues: (1) Countering Violent Extremism 
(CVE) programs securitize Muslim communities and validate terrorists' 
narratives that America is at war with Islam; (2) CVE programs are 
unnecessary to prevent domestic terrorism; (3) CVE programs are a waste 
of Government resources; and (4) Government funds for community 
development and resilience should be funded and administered by social 
service agencies without law enforcement control.
    American National security is a priority that crosses partisan 
lines. Americans of all races, ethnicities and religions are equally 
concerned with ensuring our country is safe from violence--whether 
politically-motivated terrorism, State violence, or violent crime.\5\ 
Furthermore, we all share an interest in preventing violence before it 
occurs. Toward that end, as citizens and elected officials we have a 
responsibility to carefully examine whether the methods we are using to 
prevent terrorism are effective.
---------------------------------------------------------------------------
    \5\ Although there is no single definition of terrorism in U.S. or 
international law, I define terrorism here as an attack on civilians 
for larger political objectives, whether couched in religious or 
secular narratives.
---------------------------------------------------------------------------
    The Obama administration has initiated a ``Countering Violent 
Extremism'' program purportedly aimed at tackling the underlying causes 
that may contribute to terrorism domestically and abroad. According to 
the White House, ``CVE efforts address the root causes of extremism 
through community engagement'' and ``the underlying premise of the 
approach to countering violent extremism in the United States is that: 
(1) Communities provide the solution to violent extremism; and (2) CVE 
efforts are best pursued at the local level, tailored to local 
dynamics, where local officials continue to build relationships within 
their communities through established community policing and community 
outreach mechanisms.''\6\
---------------------------------------------------------------------------
    \6\ Press Release, Office of the Press Secretary, The White House, 
FACT SHEET: The White House Summit on Countering Violent Extremism 
(Feb. 18, 2015), https://www.whitehouse.gov/the-press-office/2015/02/
18/fact-sheet-white-house-summit-countering-violent-extremism.
---------------------------------------------------------------------------
    Despite the lofty rhetoric, these CVE programs are fundamentally 
flawed for three reasons: They are counterproductive, unnecessary, and 
a waste of Government resources. Government programs seeking to build 
community resilience are most effective when administered by social 
service agencies with the requisite expertise, not law enforcement 
agencies.
    First, CVE programs managed and funded by the U.S. Department of 
Homeland Security and the U.S. Department of Justice securitize 
Government-community relations such that Muslims are perceived and 
engaged with primarily through a security lens. Muslim Americans are 
potential terrorists first, and citizens second. Such securitized 
treatment of an entire religious community is counterproductive. Not 
only does it risk innocent Americans' civil liberties and signal to the 
public that Muslims warrant collective suspicion, but CVE focused on 
Muslims confirms international terrorists' narratives that America is 
at war with Islam. In turn, terrorists point to such religious 
profiling and selective targeting of Muslims in their international 
recruiting efforts to gain followers and sympathy for their perverse 
political agenda.\7\
---------------------------------------------------------------------------
    \7\ E.g.,Tiffany Ap, Al-Shabaab recruit video with Trump excerpt: 
U.S. is racist, anti-Muslim, CNN (Jan. 3, 2016, 9:20 AM), http://
www.cnn.com/2016/01/02/middleeast/al-shabaab-video-trump/.
---------------------------------------------------------------------------
    Second, CVE programs are unnecessary to preserve American National 
security. Muslims--like other Americans--do not need a special program 
for them to be good Samaritans that report suspicious criminal activity 
of which they have knowledge. Indeed, a Duke University report found 
that Muslim communities across the country have a positive relationship 
with their local police or express a willingness to engage with police 
departments based on principles of fairness and equal treatment.\8\ And 
according to the New America Foundation, approximately 60% of terrorism 
plots have been prevented due to traditional investigative methods, 
including about 18% by initial tips from Muslim communities without the 
need for costly and counterproductive CVE programs.\9\
---------------------------------------------------------------------------
    \8\ David Schanzer, et al., Triangle Center on Terrorism and 
Homeland Security, Sanford School of Public Policy, Duke University, 
The Challenge and Promise of Using Community Policing Strategies to 
Prevent Violent Extremism (2016), https://sites.duke.edu/tcths/files/
2016/05/The-Challenge-and-Promise-of-Using-Community-Policing-
Strategies-to-Prevent-Violent-Extremism.pdf.
    \9\ Peter Bergen, David Sterman, Emily Schneider, & Bailey Cahall, 
New America Foundation, Do NSA's Bulk Surveillance Programs Stop 
Terrorists? 4-5 (2014), https://na-production.s3.amazonaws.com/
documents/do-nsas-bulk-surveillance-programs-stop-terrorists; Michael 
Hirsh, Inside the FBI's Secret Muslim Network: While candidates stoke 
fears of Islam, a little-known counterterror program has been going 
exactly the other way, Politico (Mar. 24, 2016), http://
www.politico.com/magazine/story/2016/03/fbi-muslim-outreach-terrorism-
213765.
---------------------------------------------------------------------------
    Third, the tens of millions of dollars spent on CVE programs are 
better spent on programs administered through social services agencies 
with the expertise to assist the multitude of American communities in 
need of job training, mental health services, domestic violence 
prevention, English language training, refugee resettlement, youth 
after-school programs, tutoring, and other services that promote safe 
and healthy communities.\10\ To the extent the U.S. Government seeks to 
engage in good-faith efforts to support the diverse Muslim American 
communities, resources should be managed by institutions whose missions 
are to develop communities, not prosecute and incarcerate individuals 
based on racial and ethnic stereotypes.
---------------------------------------------------------------------------
    \10\ See Jana Kasperkevic, Welfare programs shown to reduce poverty 
in America, Guardian (Nov. 12, 2014 1:39 PM), https://
www.theguardian.com/money/us-money-blog/2014/nov/12/social-welfare-
programs-food-stamps-reduce-poverty-america.
---------------------------------------------------------------------------
      i cve programs securitize muslim communities and validate terrorists' 
          warped narratives that america is at war with islam
    Terrorists thrive on narratives of oppression and injustice as a 
means of recruiting vulnerable individuals. The particular narrative 
selected is context-specific to the political, social, and economic 
circumstances that give rise to a terrorist group. For al-Qaeda and 
Da'esh (also known as ISIS or ISIL) based in the Middle East, a crucial 
component of their recruitment narrative is that the West, and America 
in particular, is at war with Islam.\11\ Terrorists claim that Muslims 
are victims of Western hegemony in the Middle East through American 
military intervention and financial support of dictators that violently 
repress their Muslim citizens.\12\ Da'esh portrays its violence as part 
of a defensive rather than offensive war where its leaders are the 
heroic defenders of the Muslim world against Western colonization.\13\ 
In turn, Da'esh makes a call to arms for Muslims to kill civilians and 
governments that it unilaterally declares as enemies. Among Da'esh's 
declared enemies are mainstream American Muslim leaders who have openly 
and repeatedly condemned Da'esh and rebuked its misinterpretation of 
Islamic principles.\14\
---------------------------------------------------------------------------
    \11\ Madiha Afzal, How we all reinforce a narrative of Islam versus 
the West, Brookings (Aug. 4, 2016), https://www.brookings.edu/blog/
order-from-chaos/2016/08/04/how-we-all-reinforce-a-narrative-of-islam-
versus-the-west/.
    \12\ Matt Olson, Why ISIS Supports Donald Trump, Time (Sept. 8, 
2016 9:31 AM), http://time.com/4480945/isis-donald-trump/; Tierney 
Sneed & Lauren Fox, Why Some Jihadists Consider Donald Trump To Be The 
Perfect Enemy, Talking Points Memo (June 30, 2016, 6:00 AM), http://
talkingpointsmemo.com/dc/trump-extremist-web-forums.
    \13\ Alex P. Schmid, Challenging the Narrative of the ``Islamic 
State'', in Countering Violent Extremism: Developing an Evidence-base 
for Policy and Practice 67 (Sara Zeiger & Anne Aly eds. 2015), https://
www.nla.gov.au/sites/default/files/webform/draft_cve_developing_an_evi- 
dence-based_for_policy_and_practice.pdf.
    \14\ Patrick Goodenough, ISIS Urges Supporters to Kill Muslim 
`Infidels' in West, Including Congressman and Top Clinton Aide, 
cnsnews.com (Apr. 13, 2016), http://www.cnsnews.com/news/article/
patrick-goodenough/isis-urges-supporters-kill-named-muslim-infidels-
west-rep-ellison; See also Ian Reifowitz, Anti-ISIS Muslims face death 
threats. Is that `enough' for Hannity and Trump lackey Ben Carson?, 
Daily Kos (May 15, 2016), http://www.dailykos.com/story/2016/5/15/
1525349/-Anti-ISIS-Muslims-face-death-threats-Is-that-enough-for-
Hannity-and-Trump-lackey-Ben-Carson.
---------------------------------------------------------------------------
    Notwithstanding Da'esh and other terrorist groups' attempts to use 
religion as a justification for their politically-motivated violence, 
their claims are rejected by nearly all of the 1.5 billion Muslims 
across the world.\15\ Another often overlooked fact that contributes to 
Da'esh's fringe status among the world's Muslims is that the vast 
majority of victims of terrorism are Muslim. According to the National 
Counter-terrorism Center's 2011 Report on Terrorism, in cases where the 
religious affiliation of terrorism casualties could be determined, 
Muslims suffered between 82% and 97% of terrorism-related fatalities 
during the prior 5 years and Muslim countries bore the brunt of the 
attacks involving 10 or more deaths.\16\
---------------------------------------------------------------------------
    \15\ Willa Frej, How 70,000 Muslim Clerics Are Standing Up To 
Terrorism, HUFFINGTON POST (Dec. 11, 2015), http://
www.huffingtonpost.com/entry/muslim-clerics-condemn-
terrorism_us_566adfa1e4b009377b249dea[]
    \16\ The Nat'l Counterterrorism Ctr., Report on Terrorism 14 
(2011), https://fas.org/irp/threat/nctc2011.pdf.
---------------------------------------------------------------------------
    Debunking Da'esh's specious claims on the merits is beyond the 
scope of my testimony, and already has been done by hundreds of 
credible, mainstream Muslim scholars from across the world in the Open 
Letter to Baghdadi.\17\ Moreover, Muslim communities and leaders across 
the United States have rejected Da'esh's warped misappropriation of 
Islamic doctrine for violent political ends.\18\ Thus, the issue before 
us today is not whether Da'esh represents the 1.5 billion Muslims 
across the world or the 3 to 6 million Muslims in America--the evidence 
is clear that it does not.
---------------------------------------------------------------------------
    \17\ Open Letter to Al-Baghdadi (2014), http://
www.lettertobaghdadi.com/.
    \18\ E.g., Stoyan Zaimov, Muslim-Americans Condemn ISIS in Phoenix 
Billboard, Say Islam Is Religion of Peace, Not Terror, Christian Post 
(Aug. 24, 2016, 11:17 AM), http://www.christianpost.com/news/muslim-
americans-condemn-isis-phoenix-billboard-islam-religion-peace-not-
terror-168487/ (Muslim-Americans post billboard reading ``HEY ISIS, YOU 
SUCK!!!''); Omar Jimenez, Baltimore Muslims: Islam condemns ISIS, 
terror attacks, WBAL-TV (Mar. 23, 2016, 6:16 PM), http://
www.wbaltv.com/news/baltimore-muslims-islam-condemns-isis-terror-
attacks/38661300; Alexandra Limon, Muslims rally outside White House 
condemning ISIS, terrorism, (Nov. 20, 2015 11:30 PM), http://
www.fox5dc.com/news/local-news/52446799-story; Tatiana Sanchez, San 
Diego Muslims condemn Paris attacks, San Diego Union Tribune (Nov. 14, 
2015, 8:38 PM), http://www.sandiegouniontribune.com/news/sdut-cair-
anniversary-banquet-islamic-2015nov14-story.html; Shanika Gunaratna, 
Muslim Americans rush to condemn Orlando massacre, CBS News (June 13, 
2016 12:52 PM), http://www.cbsnews.com/news/orlando-shooting-pulse-
nightclub-muslims-condemn-attack/.
---------------------------------------------------------------------------
    Rather, the issue that should be of concern to Members of this 
committee is ensuring that the American government does not adopt 
counterproductive policies or practices that validate terrorists' 
claims of a ``clash of civilization'' between the West and Islam.\19\ 
Religious profiling, racialized counterterrorism enforcement, and 
discrimination against Muslims not only infringes on civil rights and 
liberties of Muslims, but is also exploited by terrorist groups to 
claim that Muslims are under attack and generate sympathy for their 
cause.\20\
---------------------------------------------------------------------------
    \19\ See Schmid, supra note 13; Terrence McCoy, The apocalyptic 
magazine the Islamic State uses to recruit and radicalize foreigners, 
Wash. Post (Sept. 16, 2014), https://www.washingtonpost.com/news/
morning-mix/wp/2014/09/16/the-apocalyptic-magazine-the-islamic-state-
uses-to-recruit-and-radicalize-foreigners/.
    \20\ See Abbas Barzegar, Shawn Powers, & Nagham El Karhili, Civic 
Approaches to Confronting Violent Extremism: Sector Recommendations and 
Best Practices (Sept. 2016), http://www.britishcouncil.us/sites/
default/files/civic_approaches_to_confronting_violent_ex- 
tremism_digital_release.pdf.
---------------------------------------------------------------------------
    This is where current CVE programs are highly problematic. The 
Government portrays CVE as a means to build community resilience and 
development, separate from the dominant prosecution-driven 
counterterrorism model. However, the record clearly shows that CVE is 
an integral part of counterterrorism. Law enforcement agencies, not 
social services agencies, are leading and funding CVE Nation-wide. DHS, 
U.S. Attorneys, and the FBI lead Government meetings with Muslim 
communities across the country.\21\ The institutional agendas of FBI 
agents, Federal prosecutors, and DHS officials--not social service 
agencies--shape CVE programs. For these reasons, the leading agencies 
of the Federal interagency task force on CVE rotate between DHS and 
DOJ--whose missions are to investigate, prosecute, and convict criminal 
suspects.
---------------------------------------------------------------------------
    \21\ Community Outreach, FBI, https://www.fbi.gov/contact-us/field-
offices/losangeles/community-outreach-1 (last visited Sept. 20, 2016); 
Michael Hirsh, Inside the FBI's Secret Muslim Network: While candidates 
stoke fears of Islam, a little-known counterterror program has been 
going exactly the other way, Politico (Mar. 24, 2016), http://
www.politico.com/magazine/story/2016/03/fbi-muslim-outreach-terrorism-
213765.
---------------------------------------------------------------------------
    That U.S. Attorneys are leading Federal outreach at the local level 
raises further questions as to the relationship between 
counterterrorism enforcement and community engagement given that U.S. 
Attorneys are also the lead prosecutors of anti-terrorism laws.\22\ 
Their participation as lead conveners of CVE meetings aggravates the 
inherent divergence between Muslim communities' interests in protecting 
their civil liberties and prosecutors' mandate to prosecute and show 
tangible results in the form of convictions. That is, law enforcement-
led programs signal to Muslim communities that their community 
development and resilience is not the Government's priority. Rather the 
objective appears to be to deputize Muslim leaders to spy on each 
other, thereby breeding distrust and divisiveness within Muslim 
communities.\23\
---------------------------------------------------------------------------
    \22\ Laura Yuen, Muslims fear anti-terror program could spy on 
their communities, MPR News (Jan. 30, 2015), http://www.mprnews.org/
story/2015/01/30/anti-terror-program; Mike German, Is the FBI's 
Community Outreach Program a Trojan Horse?, ACLU (Feb. 15, 2013, 3:33 
PM), https://www.aclu.org/blog/fbis-community-outreach-program-trojan-
horse; Paul McEnroe, Twin Cities Muslim leaders challenge federal 
outreach effort as cloak for spying, Star Tribune (Feb. 17, 2015, 11:32 
PM), http://www.startribune.com/area-muslim-leaders-call-federal-
outreach-cloak-for-spying/292307031/.
    \23\ Sahar F. Aziz, Policing Terrorists in the Community, 5 Harv. 
Nat'l Sec. L.J. 147 (2014).
---------------------------------------------------------------------------
    While prosecution-driven counterterrorism is an integral part of 
criminal enforcement, it should be conducted in accordance with civil 
and Constitutional rights. Specifically, law enforcement should conduct 
investigations based on individualized suspicion arising from predicate 
acts of criminal activity, not a broad (and false) assumption that 
Muslim communities en masse are ``at risk'' or ``vulnerable'' to 
terrorist recruitment and susceptible to engaging in terrorism.
       ii. cve signals to the public that muslims are a suspect community 
             leading to more discrimination and hate crimes
    Like the United Kingdom's (UK) Prevent Program, which is the 
blueprint on which the U.S. CVE program is based, CVE programs target 
Muslim communities based on the false premise that Muslims are a 
suspect community and fifth column in the United States.\24\ The U.K. 
House of Commons found that Prevent's exclusive focus on Muslims was 
stigmatizing, alienating, and counterproductive. The European 
Parliament also found that soft counter-terrorism programs through 
counter-radicalization initiatives (which is effectively what CVE is) 
are detrimental to fostering community cohesion and do not succeed in 
their stated objectives to prevent terrorism.\25\ Professor Arun 
Kundnani, an expert on U.K. counterterrorism policy, warns that the 
U.S. program would ``suffer from the same problems, such as drawing 
non-policing professionals into becoming the eyes and ears of 
counterterrorism surveillance, and thereby undermining professional 
norms and relationships of trust among educators, health workers, and 
others.''\26\ CVE also legitimizes discrimination against Muslims.
---------------------------------------------------------------------------
    \24\ See Arun Kundnani, THE MUSLIMS ARE COMING: ISLAMOPHOBIA, 
EXTREMISM, AND THE DOMESTIC WAR ON TERROR (2015).
    \25\ BRENNAN CENTER FOR JUSTICE, Countering Violent Extremism: 
Myths and Fact, https://www.brennancenter.org/sites/default/files/
analysis/102915%20Final%20CVE%20- Fact%20Sheet.pdf.
    \26\ Murtaza Hussein and Jenna McLaughlin, FBI's ``Shared 
Responsibility Committees'' to Identify ``Radicalized'' Muslims Raise 
Alarms, THE INTERCEPT (April 9, 2016).
---------------------------------------------------------------------------
    In the United States, numerous polls show a rise in anti-Muslim 
bias that is manifesting into tangible hate crimes, mosque 
vandalizations, employment discrimination, and bullying of Muslim kids 
in schools.\27\ A 2015 poll in North Carolina, for example, reported 
72% of respondents said that a Muslim should not be allowed to be 
president of the United States and 40% said that Islam should be 
illegal.\28\ A 2015 study by LifeWay Research found that 27% of 
Americans believe ISIS represents what the Islamic religion really is--
along with 45% of 1,000 ``senior Protestant pastors.''\29\ Another 
survey by the Economist/YouGov poll, found that 52% of Americans think 
Islam is more likely than other religions to encourage violence.\30\
---------------------------------------------------------------------------
    \27\ E.g., Islamophobia: Understanding Anti-Muslim Sentiment in the 
West, Gallup, http://www.gallup.com/poll/157082/islamophobia-
understanding-anti-muslim-sentiment-west.aspx (last visited Sept. 2, 
2016) (``In the U.S., about one-half of nationally representative 
samples of Mormons, Protestants, Catholics, Muslims, and Jews agree 
that in general, most Americans are prejudiced toward Muslim Americans. 
Specifically, 66% of Jewish Americans and 60% of Muslim Americans say 
that Americans in general are prejudiced toward Muslim Americans.''); 
Jonathan Easily, SC exit poll: 75 percent agree with Trump's Muslim 
ban, Hill (February 20, 2016, 6:17 PM), http://thehill.com/blogs/
ballot-box/presidential-races/270156-sc-exit-poll-75-percent-agree-
with-trumps-muslim-ban. Rebecca Shabad, CBS News projects Donald Trump 
win in South Carolina primary, CBS (Feb. 20, 2016, 5:20 PM), http://
www.cbsnews.com/news/results-from-south-carolinas-gop-primary-to-soon-
trickle-in/ (``Three-fourths of Republicans participating in Saturday's 
South Carolina GOP primary say they support presidential hopeful Donald 
Trump's proposal to ban all Muslims from entering the U.S., according 
to an exit poll.''); Tom Benning, Most Texas voters support Donald 
Trump's border wall and Muslim ban, poll says, Dall. Morning News (June 
28, 2016, 11:53 AM), http://www.dallasnews.com/news/politics/headlines/
20160628-most-texas-voters-support-donald-trumps-border-wall-and-
muslim-ban-poll-says.ece (last updated June 28, 2016, 4:18 PM) 
(``Nearly 52 percent of respondents said they strongly or somewhat 
support a wall along the Mexican border, compared with about 40 percent 
who oppose it. The numbers were similar in response to the idea of 
banning noncitizen Muslims from entering the U.S.''); Jesse Hellmann, 
Poll: Americans split on Trump's proposed Muslim ban, Hill (June 16, 
2016, 5:00 PM), http://thehill.com/blogs/ballot-box/presidential-races/
283789-poll-americans-split-on-trumps-muslim-ban-proposal (``The NBC 
News/SurveyMonkey poll shows 50 percent of those surveyed support 
Trump's proposed Muslim immigration ban, while 46 percent are 
opposed.''); Kristina Wong, Poll: Half of American voters back Trump's 
Muslim ban, Hill (Mar. 29, 2016, 5:30 AM), http://thehill.com/policy/
defense/274521-poll-half-of-american-voters-back-trumps-muslim-ban (``A 
`virtual majority' of American voters--49 percent--also agrees with 
Cruz's call for additional law enforcement patrols of Muslim 
neighborhoods in the U.S., the poll showed.'');[sic.]
    \28\ September 24-27, 2015 Survey of 576 Republican primary voters, 
Pub. Policy Polling (Sept. 29, 2015), http://
www.publicpolicypolling.com/pdf/2015/PPP_Release_NC_92915.pdf.
    \29\ One in Three Americans Worry About Sharia Law Being Applied in 
America, LifeWay (Feb. 11, 2015), http://lifewayresearch.com/2015/02/
11/1-in-3-americans-worry-about-sharia-law-being-applied-in-america/.
    \30\ Kathy Frankovic, Muslim Americans widely seen as victims of 
discrimination, YouGov (Feb. 20, 2015), https://today.yougov.com/news/
2015/02/20/muslim-americans-widely-seen-victims-discriminatio/. That 
same poll also found that three-fourths of Americans--73%--think 
American Muslims face a great deal or a fair amount of discrimination. 
Id.
---------------------------------------------------------------------------
    Such pervasive prejudice has produced tangible civil rights 
violations against innocent Muslims across the country.\31\ A recent 
report by the Center for the Study of Hate and Extremism at California 
State University in San Bernadino found that anti-Muslim hate crimes 
increased 78% in 2015 at 196 as compared to 110 hate crimes in 
2014.\32\ Anti-Arab hate crimes rose by 219% from 21 in 2014 to 67 in 
2015. Similarly, the civil rights organizations Muslim Advocates, 
reported that since the November 2015 Paris attacks, at least 100 hate 
crimes against Muslims in American have been reported.\33\
---------------------------------------------------------------------------
    \31\ Eric Lichtblau, Hate Crimes Against American Muslims Most 
Since Post-9/11 Era, N.Y. Times (Sept. 17, 2016), http://
www.nytimes.com/2016/09/18/us/politics/hate-crimes-american-muslims-
rise.html.
    \32\ Ctr. for the Study of Hate & Extremism, Cal. State Univ., 
Special Status Report: Hate Crime in the United States 6 (2016), 
https://www.documentcloud.org/documents/3110202-SPECIAL-STATUS-REPORT-
v5-9-16-16.html.
    \33\ Recent Incidents of Anti-Muslim Hate Crimes, MUSLIM ADVOCATES 
(2016), https://www.muslimadvocates.org/map-anti-muslim-hate-crimes/.
---------------------------------------------------------------------------
    However, these stark numbers likely do not reflect the entirety of 
anti-Muslim discrimination. The U.S. Department of Justice Bureau of 
Statistics reported that only 44% of hate crimes are reported to the 
police, and in 2013, the Bureau found that nearly two-thirds of all 
hate crimes are unreported.\34\
---------------------------------------------------------------------------
    \34\ Nearly Two-Thirds of Hate Crimes Went Unreported to Police in 
Recent Years, U.S. DEP'T OF JUSTICE (Mar. 21, 2013), http://ojp.gov/
newsroom/pressreleases/2013/ojppr032113.pdf.
---------------------------------------------------------------------------
    Examples of hate crimes against Muslims and those perceived to be 
Muslim that occurred in 2015-2016 include:
  <bullet> Sept. 10, 2016: Two Muslim women pushing their children in 
        strollers were attacked in Brooklyn by an assailant who spewed 
        anti-Muslim slurs.\35\
---------------------------------------------------------------------------
    \35\ Lauren del Valle, 2 Muslim women, babies attacked in alleged 
hate crime in New York, CNN (Sept. 10, 2016, 12:49 AM), http://
www.cnn.com/2016/09/10/us/brooklyn-muslim-women-attacked/.
---------------------------------------------------------------------------
  <bullet> Sept. 12, 2016: A man set fire to the Islamic Center of Fort 
        Pierce, Florida.\36\
---------------------------------------------------------------------------
    \36\ Lindsey Bever, Arrest made in arson at Orlando gunman's 
mosque, authorities say, Wash. Post (Sept. 14, 2016), https://
www.washingtonpost.com/news/acts-of-faith/wp/2016/09/12/arson-
suspected-in-fire-at-florida-mosque-attended-by-pulse-shooter-omar-
mateen/.
---------------------------------------------------------------------------
  <bullet> June 1, 2016: A Muslim man was assaulted and beaten after 
        leaving a mosque. He suffered at least 5 broken bones, a 
        concussion, and fractured ribs.\37\
---------------------------------------------------------------------------
    \37\ Laurel Raymond, Assault of Muslim Man in NYC Comes Amid Rising 
Islamophobia Nationwide, THINKPROGRESS (June 6, 2016), http://
thinkprogress.org/justice/2016/06/06/3785049/muslim-man-attackedqueens/

---------------------------------------------------------------------------
  <bullet> May 21, 2016: A delivery driver was brutally beaten by a 
        passenger who called him a ``Muslim a-hole.'' He was punched 
        multiple times before trying to escape the vehicle, and then 
        later pulled to the ground and was punched and stomped on.\38\
---------------------------------------------------------------------------
    \38\ Rocco Parascandola, Bronx Livery Driver Repeatedly Punched In 
the Face By Passenger Who Called Him `Muslim Driver A--hole,' N.Y. 
DAILY NEWS (May 25, 2016), http://www.nydailynews.com/newyork/bronx-
livery-driver-punched-called-muslim-driver-a-hole-article-1.2648669.
---------------------------------------------------------------------------
  <bullet> Mar. 3, 2016: A Sikh temple was vandalized by a man who said 
        he thought it was a mosque and affiliated with terrorists.\39\
---------------------------------------------------------------------------
    \39\ Ajay Ghosh, Hate Crime Charged Against Pittman for Spokane 
Gurdwara Vandalism, UNIVERSAL NEWS NETWORK, (Mar. 15, 2016), http://
theunn.com/2016/03/hate-crime-charged-against-pittman-for-spokane-
gurdwara-vandalism/.
---------------------------------------------------------------------------
  <bullet> April 21, 2016: A Muslim woman wearing a headscarf had hot 
        liquid poured on her by another woman shouting ``Muslim piece 
        of trash.''\41\
---------------------------------------------------------------------------
    \40\ Steve Birr, Police Release Video of Assault on Muslim Woman 
Outside DC Starbucks, THE DAILY CALLER (May 3, 2016), http://
dailycaller.com/2016/05/03/police-release-video-of-assault-on-
muslimwoman-outside-dc-starbucks/.
---------------------------------------------------------------------------
  <bullet> Feb. 21, 2016: While a Muslim family was shopping for a 
        home, a man in the neighborhood pointed a gun at them saying 
        they ``should all die'' because they are Muslim.\41\
---------------------------------------------------------------------------
    \41\ Kevin Killeen, Affton Man Charged With Anti-Muslim Hate Crime, 
CBS ST. LOUIS (Feb. 29, 2016), http://stlouis.cbslocal.com/2016/02/29/
muslims-wait-for-bob-mcculloch-to-file-charges/.
---------------------------------------------------------------------------
  <bullet> Jan. 1, 2016: An elderly Sikh man was stabbed to death while 
        working at a convenience store.\42\
---------------------------------------------------------------------------
    \42\ Charles Lam, Sikh Man Stabbed to Death in Robbery of Central 
California Convenience Store, NBC NEWS (Jan. 5, 2016, http://
www.nbcnews.com/news/asian-america/sikh-man-stabbed-death-robbery-
central-california-convenience-store-n490786.
---------------------------------------------------------------------------
  <bullet> Dec. 11, 2015: In two separate incidents, one American 
        Muslim female was shot as she was leaving an Islamic center. 
        Another woman was nearly run off the road by someone throwing 
        rocks at her car as she left the mosque.\43\
---------------------------------------------------------------------------
    \43\ Travis Gettys, Muslim Woman Shot At and Another Nearly Run Off 
the Road in Tampa After Leaving Mosques, RAW STORY (Dec. 11, 2015), 
https://www.rawstory.com/2015/12/muslim-woman-shot-at-and-another-
nearly-run-off-the-road-in-tampa-after-leaving-mosques/.
---------------------------------------------------------------------------
  <bullet> Nov. 26, 2015: A taxi driver--a 38-year-old Moroccan 
        immigrant--was shot and injured by one of his passengers after 
        being asked about his background.\44\
---------------------------------------------------------------------------
    \44\ Dan Majors, Muslim Taxi Driver Shot on Thanksgiving in 
Hazelwood Calls Attack a Hate Crime, PITT. POST GAZETTE (Nov. 29, 
2015), http://www.post-gazette.com/local/city/2015/11/29/Muslim-taxi-
drivershot-on-Thanksgiving-in-Pittsburgh-calls-attack-a-hate-crime/
stories/201511290154.
---------------------------------------------------------------------------
    Among the most troubling forms of anti-Muslim discrimination is the 
bullying taking place in our schools. In 2010, a study in Northern 
Virginia found that 80% of Muslim youth were subjected to taunts and 
harassment at school. In 2014, a survey of Muslim children in third 
through twelfth grade in Maryland found that nearly one-third ``said 
they had experienced insults or abuse at least once because of their 
faith.''\45\ That same year, a State-wide survey of more than 600 
Muslim American students ages 11-18 in California found that 55% of 
respondents reported being been bullied or discriminated against, twice 
the number of students Nationally who reported being bullied. 
Additionally, 29% of Muslim female students who wear a headscarf 
experienced offensive touching or pulling off their hijab.\46\
---------------------------------------------------------------------------
    \45\ Donna St. George, During a school year of terrorist attacks, 
Muslim students report bullying, Wash. Post (June 14, 2016), https://
www.washingtonpost.com/local/education/during-a-school-year-of-
terrorist-attacks-muslim-students-report-bullying/2016/06/14/1b066a44-
3220-11e6-8758-d58e76e11b12_story.html.
    \46\ Tatiana Sanchez, Muslim students report bullying at twice the 
rate of non-Muslim peers, survey shows, L.A. Times (Oct. 31, 2015, 4:00 
AM), http://www.latimes.com/local/california/la-me-1031-bullying-
20151031-story.html.
---------------------------------------------------------------------------
    These findings are consistent with a 2016 report published by 
Georgetown University finding 180 reported incidents of anti-Muslim 
violence between March 2015 and March 2016. Among the incidents 
reported are 12 murders, 34 physical assaults, 56 acts of vandalism or 
destruction of property, 9 arsons, and 8 shootings and bombings.\47\
---------------------------------------------------------------------------
    \47\ Engy Abdelkader, Bridge Initiative, Special Report, When 
Islamophobia Turns Violent: The 206 U.S. Presidential Elections 1-2 
(2016), http://bridge.georgetown.edu/wp-content/uploads/2016/05/When-
Islamophobia-Turns-Violent.pdf.
---------------------------------------------------------------------------
    Despite the troubling rise in anti-Muslim discrimination and hate 
crimes, Muslims believe their public safety concerns are not adequately 
addressed at law-enforcement-led community outreach meetings. Instead, 
law enforcement agents are primarily interested in knowing if Muslims 
have any knowledge of potential terrorist plots.\48\ A comprehensive 
empirical study published in 2016 by Duke's Center for Terrorism also 
found that interviewees believed law enforcement agencies have broken 
communities' trust in the past by violating civil liberties of Muslims 
who worked with them.
---------------------------------------------------------------------------
    \48\ David Schanzer, Charles Kursman, Jessica Toliver & Elizabeth 
Miller, The Challenge and Promise of Using Community Policing 
Strategies to Prevent Violent Extremism: A Call for Community 
Partnerships with Law Enforcement to Enhance Public Safety, Triangle 
Center on Terrorism and Homeland Security, Sanford School of Public 
Policy, Duke University (2016), https://sanford.duke.edu/sites/
sanford.duke.edu/files/documents/2015-full-report-FINAL1.pdf.
---------------------------------------------------------------------------
    These broken promises have produced a deep distrust that in turn 
has stifled coordination between civil society and law enforcement. For 
example, an American Civil Liberties Union (ACLU) Freedom of 
Information Act (FOIA) request uncovered documents showing that the FBI 
was keeping records of conversations and activities within mosques and 
other Muslim organizations from 2004 through 2008 and information 
provided by Federal employees engaged in the outreach programs.\49\ 
This discovery contradicted multiple statements by law enforcement 
assuring concerned citizens that intelligence was not being collected 
at community outreach meetings.\50\
---------------------------------------------------------------------------
    \49\ Mike German, Is the FBI's Community Outreach Program a Trojan 
Horse?, ACLU (Feb. 15, 2013, 3:33 PM), https://www.aclu.org/blog/fbis-
community-outreach-program-trojan-horse; Michael Price, Brennan Ctr. 
for Justice, Community Outreach or Intelligence Gathering? A Closer 
Look at ``Countering Violent Extremism'' Programs, https://
www.brennancenter.org/sites/default/files/analysis/
Community_Outreach_or_Intelligence_Gathering.pdf (last visited Sept. 
20, 2016).
    \50\ E.g., H.G. Reza, FBI Tries to Reassure Muslims in Irvine, 
(June 7, 2006), http://articles.latimes.com/2006/jun/07/local/me-
muslim7.
---------------------------------------------------------------------------
    In 2009, an FBI initiative exploited community outreach to collect 
information on Muslim communities and build a ``baseline profile of 
Somali individuals that are vulnerable to being radicalized.''\51\ And 
in 2012, another ACLU FOIA request uncovered FBI and NYPD systemic 
surveillance of Middle Eastern and Muslim communities in Michigan, San 
Francisco, and New York City.\52\
---------------------------------------------------------------------------
    \51\ Cora Currier & Murtaza Hussain, Letter Details FBI Plan for 
Secretive Anti-Radicalization Committees, Intercept (Apr. 28, 2016, 
12:02 PM), https://theintercept.com/2016/04/28/letter-details-fbi-plan-
for-secretive-anti-radicalization-committees/.
    \52\ See Eye on the FBI, AM. CIVIL LIBERTIES UNION, https://
www.aclu.org/national-security/eye-fbi-exposing-misconduct-and-abuse-
authority (last visited Sept. 20, 2016); ACLU Eye on the FBI: The FBI 
is Engaged in Unconstitutional Racial Profiling and Racial ``Mapping'', 
Am. Civil Liberties Union, https://www.aclu.org/aclu-eye-fbi-fbi-
engaged-unconstitutional-racial-profiling-and-racial-mapping (last 
visited Sept. 20, 2016); ACLU Eye on the FBI Alert--Mosque Outreach for 
Intelligence Gathering, Am. Civil Liberties Union, https://
www.aclu.org/other/aclu-eye-fbi-alert-mosque-outreach-intelligence-
gathering?redirect=aclu-eye-fbi-alert-mosque-outreach-intelligence-
gathering (last visited Sept. 20, 2016).
---------------------------------------------------------------------------
    Similarly, Muslim community leaders who engaged with law 
enforcement later discovered they were targets of investigations and 
surveillance. For example, the emails of Faisal Gill were subject to 
surveillance from 2006 to 2008 despite his service in the U.S. Navy and 
as a senior policy advisor in the U.S. Department of Homeland Security 
under George W. Bush.\53\ Such cases are further evidence that CVE 
programs are a ruse for counterterrorism practices that impose 
collective suspicion of millions of Muslims in America for the criminal 
acts of individuals with whom they have nothing in common.\54\
---------------------------------------------------------------------------
    \53\ James Gordon Meek, Brian Ross, & Rhonda Schwartz, Feds Spied 
on Prominent Muslim-Americans, Report Claims, ABC News (July 9, 2014), 
http://abcnews.go.com/Blotter/feds-spied-prominent-muslim-americans-
report-claims/story?id=24370482; Faisal Gill, I was targeted because of 
my faith, CNN (July 10, 2014, 4:48 PM), http://www.cnn.com/2014/07/10/
opinion/gill-unwarranted-surveillance-muslim/. Other Muslim leaders 
subject to surveillance are Asim Ghafoor, a well-known lawyer; Hooshang 
Amirahmadi, a professor at Rutgers University; and Agha Saeed, a 
political science professor at California State University. Id.
    \54\ Waleed S. Ahmed, Spying on American Muslim Leaders Betrays 
Advocates of Civic Engagement, Muslim Matters (July 16, 2014), http://
muslimmatters.org/2014/07/16/spying-on-american-muslim-leaders-betrays-
advocates-of-civic-engagement/.
---------------------------------------------------------------------------
    In sum, purported community engagement and CVE programs by law 
enforcement agencies have proven to be a failure in their stated 
objectives. They have alienated and stigmatized Muslim communities and 
legitimized anti-Muslim prejudice infecting our society. Consequently, 
racialized and rights violating government practices are then exploited 
by terrorists to corroborate their apocalyptic recruitment narrative 
that America wants to destroy Islam.
    iii. cve programs are unnecessary to prevent domestic terrorism
    Not only are CVE programs counterproductive, they are unnecessary.
    Like their fellow Americans, Muslim communities report suspicious 
criminal activity about which they have knowledge without the need for 
a multi-million dollar Government program.\55\ According to Peter 
Bergen at the New America Foundation, nearly 20% of terrorism plots 
have been prevented due to initial tips from Muslim communities and 
family members.\56\ Studies by the Duke Triangle Center on Terrorism 
and Homeland Security also found that American Muslim communities 
provided a large source of information about terrorist plots since 9/
11.\57\
---------------------------------------------------------------------------
    \55\ Jessica Stern & J.M. Berger, ISIS: THE STATE OF TERROR 248-49 
(2015) (noting that there is ``a near-total lack of evidence that [CVE 
programs] actually prevent violent extremism in any meaningful way'').
    \56\ Peter Bergen, David Sterman, Emily Schneider, & Bailey Cahall, 
New America Foundation, Do NSA's Bulk Surveillance Programs Stop 
Terrorists? 4-5 (2014), https://na-production.s3.amazonaws.com/
documents/do-nsas-bulk-surveillance-programs-stop-terrorists; see also 
Mohammed A. Malik, I reported Omar Mateen to the FBI. Trump is wrong 
that Muslims don't do our part. Wash. Post (June 20, 2016), https://
www.washingtonpost.com/posteverything/wp/2016/06/20/i-reported-omar-
mateen-to-the-fbi-trump-is-wrong-that-muslims-dont-do-our-part/
?utm_term=.0dfd4ce3b782 (authored by a Muslim American who reported the 
Orlando shooter Omar Mateen to the FBI in 2014 after observing 
suspicious activity).
    \57\ Charles Kurzman, Triangle Center on Terrorism and Homeland 
Security, Sanford School of Public Policy, Duke University, Muslim-
American Terrorism in 2013 4 (2014), https://sites.duke.edu/tcths/
files/2013/06/Kurzman_Muslim-American_Terrorism_in_20131.pdf.
---------------------------------------------------------------------------
    Hence, CVE programs, which overtly aim to recruit Muslims to report 
potential terrorist plots,\58\ are a waste of Government resources. 
Muslim Americans know less about potential plots than law enforcement 
agencies with a sophisticated array of investigative tools at their 
disposal.\59\
---------------------------------------------------------------------------
    \58\ See, e.g., Press Release, Office of the Press Secretary, The 
White House, FACT SHEET: The White House Summit on Countering Violent 
Extremism (Feb. 18, 2015), https://www.whitehouse.gov/the-press-office/
2015/02/18/fact-sheet-white-house-summit-countering-violent-extremism 
(discussing community engagement with religious leaders and 
communities).
    \59\ See Pew Research Center, Mainstream and Moderate Attitudes 
Muslim Americans: No Signs of Growth in Alienation or Support for 
Extremism 1 (2011), http://www.people-press.org/files/legacy-pdf/
Muslim%20American%20Report%2010-02-12%20fix.pdf (noting that only about 
20% of Muslims even perceive much support for extremism among the 
American Muslim community).
---------------------------------------------------------------------------
    Most cases charging Muslims of violating anti-terrorism laws are 
driven by undercover agents and informants outside the knowledge of 
community leaders or the individual's family.
    A 2016 George Washington Report on Extremism reported that over 
half (39) of the individuals they researched were arrested after an 
investigation involving an informant or undercover law enforcement 
officer.\60\ Out of the 500 anti-terrorism cases studies, nearly 250 
involved an informant or undercover agent.\61\ For these reasons, some 
Muslims worry that their engagement with law enforcement may lead to 
their youth being targeted for sting operations.\62\
---------------------------------------------------------------------------
    \60\ Lorenzo Vidino & Seamus Hughes, George Washington Univ., 
Program on Extremism, ISIS in America: From Retweets to Raqqa ix 
(2015), https:// cchs.gwu.edu/sites/cchs.gwu.edu/files/ downloads/
ISIS%20in%20America%20%20Full%20Report.pdf.
    \61\ Id.
    \62\ Glenn Greenwald, Why Does the FBI Have to Manufacture its Own 
Plots if Terrorism and ISIS Are Such Grave Threats?, THE INTERCEPT 
(Feb. 26, 2015), https://theintercept.com/2015/02/26/fbi-manufacture-
plots-terrorism-isis-grave-threats/.
---------------------------------------------------------------------------
    A report by Human Rights Watch and Columbia Law School's Human 
Rights Institute in 2014 found that ``in some cases, the Federal Bureau 
of Investigation may have created terrorists out of law-abiding 
individuals by conducting sting operations that facilitated or invented 
the target's willingness to act.''\63\ According to the Center on 
National Security at Fordham University School of Law, approximately 
60% of cases against Americans in Da'esh-related charges have involved 
informants as compared to 30% of all terrorism indictments since 9/
11.\64\ These results are unsurprising in light of the FBI's widespread 
use of informants, estimated at 15,000 domestically as of 2008, which 
is reportedly 10 times the number of informants active during the era 
of J. Edgar Hoover and COINTELPRO.\65\
---------------------------------------------------------------------------
    \63\ Human Rights Institute, Illusion of Justice Human Rights 
Abuses in US Terrorism Prosecutions 2 (2014), http://
web.law.columbia.edu/sites/default/files/microsites/human-rights-
institute/files/final_report__illusion_of_justice_0.pdf.
    \64\ Nicole Hong, In U.S. ISIS Cases, Informants Play a Big Role, 
Wall St. J. (Apr. 21, 2015, 7:08 PM), http://www.wsj.com/articles/in-u-
s-isis-cases-informants-play-a-big-role-1429636206.
    \65\ Cora Currier & Murtaza Hussain, Letter Details FBI Plan for 
Secretive Anti-Radicalization Committees, The Intercept (Apr. 28, 
2016), https://theintercept.com/2016/04/28/letter-details-fbi-plan-for-
secretive-anti-radicalization-committees/.
---------------------------------------------------------------------------
    In the cases where a Muslim (often a young male) is targeted by 
bona fide Da'esh recruiters, the process occurs on-line, in secret, and 
without the knowledge of the community leaders and family members.\66\ 
A New America Foundation report found that of the 62 cases examined, 
there was no evidence of physical recruitment by a militant operative, 
cleric, returning foreign fighter, or radicalization in prison.\67\ 
Moreover, studies of terrorism suspects show Da'esh recruits' knowledge 
of Islam is negligible. A 2008 study of hundreds of individuals 
involved in terrorism and terrorism financeity by the British 
intelligence agency MI-5 found that most of them were ``religious 
novices,'' and that a ``well-established religious identity actually 
protects against violent radicalization.''\68\ A recent leak of Da'esh 
documents showed that 70 percent of recruits had a remedial 
understanding of Islam, and often were alienated from mainstream Muslim 
communities.\69\
---------------------------------------------------------------------------
    \66\ See David Talbot, Fighting ISIS Online, MIT Tech. Rev. (Sept. 
30, 2015), https://www.technologyreview.com/s/541801/fighting-isis-
online/; Rukmini Callimachiisis, ISIS and the Lonely Young American, 
N.Y. Times (June 27, 2015), http://www.nytimes.com/2015/06/28/world/
americas/isis-online-recruiting-american.html?_r=0.  See also ISIS 
Online: Countering Terrorist Radicalization & Recruitment on the 
Internet & Social Media: Hearing Before the Permanent Subcomm. on 
Investigations, 114th Cong. 10 (2015) (testimony by Peter Bergen), 
http://www.hsgac.senate.gov/download/bergen-testimony_psi-2016-07-05 
(``Around nine out of 10 American militants are active in online 
jihadist circles.'').
    \67\ ISIS Online: Countering Terrorist Radicalization & Recruitment 
on the Internet & Social Media: Hearing Before the Permanent Subcomm. 
on Investigations, 114th Cong. 4 (2016) (testimony by Peter Bergen), 
file:///C:/Users/Staff/Downloads/Bergen%20Testimony_- PSI%202016-07-
06.pdf.
    \68\ Alan Travis, MI5 Report Challenges Views on Terrorism in 
Britain, THE GUARDIAN (Aug. 20, 2008), https://www.theguardian.com/uk/
2008/aug/20/uksecurity.terrorism1.
    \69\ Leaked ISIS Docs Show 70% of Recruits Don't Even Know What 
Islam Is, OffGuardian (Aug. 22, 2016), https://off-guardian.org/2016/
08/22/leaked-isis-docs-show-70-of-recruits-dont-even-know-what-islam-
is/.
---------------------------------------------------------------------------
    Thus, Director of Community Partnerships at DHS George Selim's 
statement in a Reuters article that ``[g]iven the current scope of the 
threat, we believe family members, friends, coaches, teachers are best 
placed to potentially prevent and intervene in the process of 
radicalization'' is unsupported by evidence.\70\ Unless the Government 
wants Muslims to actively spy on each other's on-line activities in 
contravention of fundamental American values, CVE programs will only 
waste Government resources and alienate otherwise well-integrated 
American communities.\71\
---------------------------------------------------------------------------
    \70\ Yasmeen Abutaleb & Kristina Cooke, A teen's turn to radicalism 
and the U.S. safety net that failed to stop it, Reuters (June 6, 2016, 
2:20 PM), http://www.reuters.com/investigates/special-report/usa-
extremists-teen/.
    \71\ Michael Hirsh, Inside the FBI's Secret Muslim Network, 
Politico Magazine (March 24, 2016), http://www.politico.com/magazine/
story/2016/03/fbi-muslim-outreach-terrorism-213765 (noting Harvard 
terrorism expert Jessica Stern conclusion that the relative prosperity 
and assimilation of American Muslims starkly contrasts with Muslims in 
Europe where the latter experience disparities in employment and wages 
as well as overpolicing).
---------------------------------------------------------------------------
    In the end, irrational prejudices animate the false assumption that 
each Muslim has knowledge of and is responsible for all other Muslims' 
actions. Like all other Americans, Muslims deserve to be presumed 
innocent and treated as individuals, not collectively guilty based on 
the criminal acts of a few individuals who misappropriate religious 
doctrine to engage in politically-motivated violence.\72\
---------------------------------------------------------------------------
    \72\ See The Clarion Project, Special Report: The Islamic State 6 
(2015), http://www.clarionproject.org/sites/default/files/islamic-
state-isis-isil-factsheet-1.pdf (explaining that Da'esh is a political 
organization that uses religion to justify its goals).
---------------------------------------------------------------------------
           iv. cve programs are a waste government resources
    Senior Government officials have gone on the record stating that 
the threat of Americans joining Da'esh is diminishing. According to 
Francis Taylor, Under Secretary of the Office of Intelligence and 
Analysis for DHS, in 2015 there was no specific, credible, imminent 
threat to the homeland from Da'esh.\73\ In October 2015, FBI Director 
James Comey testified before Congress that fewer Americans are 
attempting to travel to Syria to join Da'esh.\74\
---------------------------------------------------------------------------
    \73\ See The Impact of ISIS on the Homeland and Refugee 
Resettlement: Hearing Before the U.S. Senate Comm. on Homeland Sec. & 
Governmental Affairs, 114th Cong. 10 (2015) (testimony of Peter 
Bergen), http://www.hsgac.senate.gov/hearings/lessons-from-the-paris-
terrorist-attacks-ramifications-for-the-homeland-and-refugee-
resettlement.
    \74\ Del Quentin Wilber, FBI says fewer Americans now try to join 
Islamic State, L.A. Times (May 11, 2016, 2:49 PM), http://
www.latimes.com/nation/la-na-comey-fbi-20160511-snap-story.html.
---------------------------------------------------------------------------
    Moreover, the data does not corroborate a sufficient security 
threat to warrant a Nation-wide CVE program. The FBI estimates that 
approximately 200 Muslim Americans (out of 3 to 6 million)\75\ have 
attempted to join Da'esh in Syria and Iraq.\76\ In 2015, a George 
Washington University report by the Project on Extremism estimated the 
total number of Americans who have traveled to Syria and Iraq since 
2011 was 250 out of 30,000 foreign fighters worldwide and over 5,000 
from Europe.\77\
---------------------------------------------------------------------------
    \75\ Besheer Mohamed, A new estimate of the U.S. Muslim population, 
Pew Research Ctr. (Jan. 6, 2016), http://www.pewresearch.org/fact-tank/
2016/01/06/a-new-estimate-of-the-u-s-muslim-population/ (stating that 
Pew Research Center estimates that 3.3 million Muslims lived in the 
United States in 2015).
    \76\ Julian Hattem, FBI: More than 200 Americans have tried to 
fight for ISIS, The Hill, (July 8, 2015), http://thehill.com/policy/
national-security/247256-more-than-200-americans-tried-to-fight-for-
isis-fbi-says; How many Americans have joined ISIS, CBS News (August 
22, 2014), http://www.cbsnews.com/news/how-many-americans-have-joined-
isis/ (reporting that as of August 2014, fewer than 12 Americans have 
been confirmed to have joined ISIS in Syria and Iraq).
    \77\ Lorenzo Vidino & Seamus Hughes, George Washington Univ., 
Program on Extremism, ISIS in America: From Retweets to Raqqa ix 
(2015), https://cchs.gwu.edu/sites/cchs.gwu.edu/files/downloads/
ISIS%20in%20America%20-%20Full%20Report.pdf.
---------------------------------------------------------------------------
    In the United States, there has only been one reported case of a 
fighter returning and allegedly plotting an attack.\78\ Speaking to the 
Council on Foreign Relations in March 2015, Director of National 
Intelligence James Clapper stated that approximately 40 individuals 
have returned from Syria, and: ``We have since found they went for 
humanitarian purposes or some other reason that don't relate to 
plotting.''\79\ Similarly, the New America Foundation found that no 
American fighter who fought in the conflict in Somalia returned to plot 
an attack in the United States. Most either died there or were taken 
into custody upon their return to the United States.\80\
---------------------------------------------------------------------------
    \78\ ISIS Online: Countering Terrorist Radicalization & Recruitment 
on the Internet & Social Media: Hearing Before the Permanent Subcomm. 
on Investigations, 114th Cong. 14 (2016) (testimony by Peter Bergen), 
file:///C:/Users/Staff/Downloads/Testimony-Bergen-2015-11-19-
REVISED.pdf.
    \79\ Karl Vick, New Study Says U.S. Threat from Returning Jihadis 
Is Low, Time (Mar. 25, 2016), http://time.com/4272307/isis-foreign-
jihadis-threat/; Julian Hattem, Spy chief: No threat from Americans who 
aided militants in Syria, The Hill (Mar. 2, 2015 1:52 PM), http://
thehill.com/policy/defense/234322-spy-chief-no-threat-from-returning-
americans-who-fought-in-syria.
    \80\ The Impact of ISIS on the Homeland and Refugee Resettlement: 
Hearing Before the U.S. Senate Comm. on Homeland Sec. & Governmental 
Affairs, 114th Cong. 13 (2015) (testimony of Peter Bergen), http://
www.hsgac.senate.gov/hearings/lessons-from-the-paris-terrorist-attacks-
ramifications-for-the-homeland-and-refugee-resettlement.
---------------------------------------------------------------------------
    To be sure, domestic terrorism is a security issue that must be 
taken seriously. And our law enforcement agencies have a myriad of 
legal and investigative tools at their disposal to counter terrorism 
based on individualized suspicious activity indicative of criminal 
wrongdoing. Casting a wide net of suspicion, surveillance, and 
investigation on Muslim communities writ large is a waste of resources 
that distracts agents from real security threats--not to mention a 
violation of Constitutional and civil rights.
    Furthermore, CVE programs are likely to be as wasteful as fusion 
centers. In 2012, a bi-partisan investigation by the U.S. Senate 
Permanent Subcommittee on Investigations found that ``State and local 
intelligence fusion centers had not yielded significant useful 
information to support Federal counterterrorism intelligence 
efforts.''\81\ Specifically, the Permanent Committee found that 
intelligence produced by fusion centers was of ``uneven quality--
oftentimes shoddy, rarely timely, sometimes endangering citizens' civil 
liberties and Privacy Act protections, occasionally taken from already-
published public sources, and more often than not unrelated to 
terrorism.''\82\ Ultimately, there was no evidence that fusion centers 
assisted in disrupting or preventing terrorism. The same Government 
waste and civil liberties violations are likely to occur with CVE 
programs.
---------------------------------------------------------------------------
    \81\ Permanent Subcomm. on Investigations, Federal Support for and 
Involvement in State and Local Fusion Centers, Majority and Minority 
Staff Report, https://www.hsgac.senate.gov/subcommittees/
investigations/media/investigative-report-criticizes-counterterrorism-
reporting-waste-at-state-and-local-intelligence-fusion-centers.
    \82\ Id.
---------------------------------------------------------------------------
    Our resources and policies, therefore, should be guided by the 
degree of the threat based on credible data. Fatalities from terrorism 
were 69 since 9/11,\83\ compared with 220,000 deaths from murders over 
the same period.\84\ In 2015 alone, 475 people were killed in mass 
shootings.\85\ According to the Combating Terrorism Center at West 
Point, the risk of death at the hands of terrorists in the United 
States approaches lottery-winning odds.\86\
---------------------------------------------------------------------------
    \83\ Charles Kurzman & David Schanzer, Triangle Center on Terrorism 
and Homeland Security, Sanford School of Public Policy, Duke 
University, Law Enforcement Assessment of Violent Extremism Threat 7-9 
(2015), https://sites.duke.edu/tcths/files/2013/06/Kurzman_ 
Schanzer_Law_Enforcement_Assessment_of_the_Violent_ Extremist_ Threat_ 
final.pdf.
    \84\ Linda Qiu, Fact-checking a comparison of gun deaths and 
terrorism deaths, Politifact (Oct. 5, 2015, 11:55 AM), http://
www.politifact.com/truth-o-meter/statements/2015/oct/05/viral-image/
fact-checking-comparison-gun-deaths-and-terrorism-/.
    \85\ Mass Shootings--2015, Gun Violence Archive (2015), http://
www.pbsgunviolencear- chive.org/newshour/rundown/2015-the-year-of-
reports/mass-shootings/2015?page=13.
    \86\ Brian Michael Jenkins, Fifteen Years On, Where Are We In the 
``War on Terror''?, CTC SENTINEL, September 2016, at 7. Text from: 
https://www.ctc.usma.edu/v2/wp-content/uploads/2016/09/CTC-
SENTINEL_Vol9Iss92.pdf.
---------------------------------------------------------------------------
    And yet we are not seeing Government CVE programs targeting single 
white males in their thirties and forties who are the most common 
demographic committing mass murder. Nor are we seeing CVE programs for 
Christians due to right-wing groups' misappropriation of Christian 
doctrine in furtherance of their violent political ends.\87\ Government 
hearings are not being held to debate whether violence perpetrated by 
the Klu Klux Klan, the Army of God, or the Lord's Resistance Army 
should be called ``radical Christian terrorism.''\88\
---------------------------------------------------------------------------
    \87\ R. Kleinfield, Russ Buettner, David W. Chen, & Nikita Stewart, 
Mass Murders Fit Profile, as Do Many Others Who Don't Kill, N.Y. Times 
(Oct. 3, 2015), http://www.nytimes.com/2015/10/04/us/mass-murderers-
fit-profile-as-do-many-others-who-dont-kill.html?_r=0 (discussing the 
difficulty with the profile of a mass shooter that fits a majority 
class).
    \88\ Racial Equality, White Camelia Knights of the Ku Klux Klan 
(2011), http://www.wckkkk.org/eql.html; Army of God, http://
www.armyofgod.com/; Harry J. Bentham, ISIS isn't Islamic as the Lord's 
Resistance Army isn't Christian, BELIEF NET, http://www.beliefnet.com/
columnists/lordre/2014/11/isis-islam-lords-resistance-army-
christianity-extremism.html.
---------------------------------------------------------------------------
    The Southern Poverty Law Center found at least 100 plots, 
conspiracies and racist rampages since 1995 aimed at waging violence 
against the United States Government. The National Consortium for the 
Study of Terrorism and Responses to Terrorism found that between 1990 
and 2014, far-right domestic extremists perpetrated four times as many 
ideologically-based homicidal incidents than extremists associated with 
al-Qaeda and associated groups.\89\
---------------------------------------------------------------------------
    \89\ Parkin, William S., Steven M. Chermak, Joshua D. Freilich, & 
Jeff Gruenewald, Office of University Programs, Science and Technology 
Directorate, U.S. Department of Homeland Security, Twenty-Five Years of 
Ideological Homicide Victimization in the United States of America 
(2016), https://www.start.umd.edu/pubs/
START_CSTAB_ECDB_25YearsofIdeological- 
HomicideVictimizationUS_March2016.pdf.
---------------------------------------------------------------------------
    From 2000 to 2015, the number of hate groups has increased by 56%, 
which include a large number of anti-immigrant, anti-LGBT, anti-Muslim, 
and anti-Government ``Patriot'' groups. And from 2014 to 2015 the 
number of radical right-wing groups increased by 14 percent.\90\ For 
example, Klu Klux Klan chapters increased from 72 in 2014 to 190 in 
2015. Self-described ``Patriot'' groups with an anti-Government agenda 
grew from 874 in 2014 to 998 in 2015. Stormfront, a White Nationalist 
on-line hate forum, had more than 300,000 registered members in 2015 
with an average annual increase of 25,000 new users.\91\ White 
supremacist on-line forums also radicalized Dylaan Roof, the alleged 
shooter in the massacre of 9 African Americans at Charleston's Emanuel 
African Methodist Episcopal Church on June 17, 2015.\92\
---------------------------------------------------------------------------
    \90\ Mark Potok, The Year in Hate and Extremism, S. Poverty L. Ctr. 
(Feb. 17, 2016), https://www.splcenter.org/fighting-hate/intelligence-
report/2016/year-hate-and-extremism.
    \91\ Id.
    \92\ Morris Dees & J. Richard Cohen, White Supremacists Without 
Borders, N.Y. Times (June 22, 2015), http://www.nytimes.com/2015/06/22/
opinion/white-supremacists-without-borders.html.
---------------------------------------------------------------------------
    The rise in right-wing violent extremisms has resulted in 337 
attacks per year in the decade after 9/11, causing a total of 254 
fatalities, according to a study by Arie Perliger, a professor at the 
United States Military Academy's Combating Terrorism Center.\93\ One 
chilling case in January 2011 involved a neo-Nazi who hid a bomb packed 
with fishing weights coated with rat poison in a backpack in the route 
of the Martin Luther King Day parade in Spokane, Washington.\94\
---------------------------------------------------------------------------
    \93\ Arie Perliger, Combating Terrorism Center at West Point, 
Challengers From the Sidelines: Understanding America's Violent Far-
Right (2012), https://www.ctc.usma.edu/v2/wp-content/uploads/2013/01/
ChallengersFromtheSidelines.pdf; Charles Kurzman & David Schanzer, The 
Growing Right Wing Terror Threat, N.Y. Times (June 16, 2015), http://
www.nytimes.com/2015/06/16/opinion/the-other-terror-threat.html.
    \94\ Arie Perliger, Combating Terrorism Center at West Point, 
Challengers From the Sidelines: Understanding America's Violent Far-
Right (2012), https://www.ctc.usma.edu/v2/wp-content/uploads/2013/01/
ChallengersFromtheSidelines.pdf.
---------------------------------------------------------------------------
    In June 2014, a violent extremist associated with the right-wing 
Sovereign Citizens movement shot police officers with an assault rifle 
during his attack on a courthouse in Fortyth County, Georgia.\95\ That 
same year in Nevada, anti-Government militants associated with 
Sovereign Citizens shot 2 police officers in a restaurant and placed 
over their bodies a ``Don't Tread on Me'' flag, a swastika-stamped 
manifesto, and note that read ``This is the start of the 
revolution.''\96\ In early 2016, 150-armed white Christian ``militia'' 
members occupied a Federal building and took over several acres of 
Federal land.\97\
---------------------------------------------------------------------------
    \95\ Forsyth deputy shot, suspect dead, courthouse evacuated, 
ajc.com (June 6, 2014), http://www.ajc.com/news/news/police-activity-
around-forsyth-courthouse/ngFsZ/.
    \96\ JJ MacNab, What Las Vegas Police Killings Show About Evolving 
Sovereign Movement, Forbes (June 13, 2014), http://www.forbes.com/
sites/jjmacnab/2014/06/13/what-las-vegas-police-killings-show-about-
evolving-sovereign-movement/#2e27c38d57be.
    \97\ Carissa Wolf, Peter Holley, & Wesley Lowery, Armed men, led by 
Bundy brothers, take over federal building in rural Oregon, Wash. Post 
(Jan. 3, 2016), https://www.washingtonpost.com/news/post-nation/wp/
2016/01/03/armed-militia-bundy-brothers-take-over-federal-building-in-
rural-oregon/?utm_term=.72d2b63a4e19.
---------------------------------------------------------------------------
    In comparison, an average of 9 Muslims per year--out of 3 to 6 
million--have been involved in an annual average of 6 terrorism-related 
plots against targets in the United States. While most were disrupted, 
the 20 plots that were carried out accounted for 50 fatalities between 
2001 and 2014, excluding the 9/11 terrorist attacks.\98\
---------------------------------------------------------------------------
    \98\ Charles Kurzman & David Schanzer, The Growing Right-Wing 
Terror Threat, N.Y. Times (June 16, 2015), http://www.nytimes.com/2015/
06/16/opinion/the-other-terror-threat.html?_- r=0.
---------------------------------------------------------------------------
    A 2015 Duke University research study found that over 74% of 382 
local and State agencies rated anti-Government extremism as one of the 
top 3 terrorist threats in their jurisdiction.\99\ This is compared to 
39% rating al-Qaeda or like-minded terrorists as a top threat.\100\ 
When asked to rank 1 to 5 the terrorist threat in their jurisdiction, 
149 departments out of 170 ranked ``other'' forms of terrorism as a 
higher threat than al-Qaeda and associated terrorism. Similarly, only 3 
percent identified the threat of Muslim violent extremists as severe, 
as compared to 7 percent for anti-Government and other forms of violent 
extremists.\101\
---------------------------------------------------------------------------
    \99\ Charles Kurzman & David Schanzer, Triangle Center on Terrorism 
and Homeland Security, Sanford School of Public Policy, Duke 
University, Law Enforcement Assessment of Violent Extremism Threat 4 
(2015), https://sites.duke.edu/tcths/files/2013/06/Kurzman_ Schanzer_ 
Law_ Enforcement_Assessment_ of_ the_ Violent_ Extremist_ Threat_ 
final.pdf.
    \100\ Id.
    \101\ Charles Kurzman & David Schanzer, The Growing Right-Wing 
Terror Threat, N.Y. Times (June 16, 2015), http://www.nytimes.com/2015/
06/16/opinion/the-other-terror-threat.html?_- r=0.
---------------------------------------------------------------------------
    When Duke University researchers asked law enforcement agencies why 
they did not have a CVE program tailored for right-wing extremist 
groups, agents noted it would be a waste of time because the right-wing 
extremists live in the shadows and do not communicate their criminal 
activity to white communities.\102\ The same reality applies to 
terrorism plotters who claim to be Muslims. They do not tell Muslim 
community leaders or family members about their criminal plans. Nor do 
they become recruited by international terrorists in open forums where 
interventions by civilians are a possibility.
---------------------------------------------------------------------------
    \102\ David Schanzer, et al., Triangle Center on Terrorism and 
Homeland Security, Sanford School of Public Policy, Duke University, 
The Challenge and Promise of Using Community Policing Strategies to 
Prevent Violent Extremism 21-22 (2016), https://sites.duke.edu/tcths/
files/2013/06/2015-full-report-FINAL1.pdf.
---------------------------------------------------------------------------
    Indeed, Muslims interviewed in the Duke University study were asked 
about the efficacy of CVE programs, respondents expressed frustration 
that the Government and fellow Americans expected them to have 
knowledge of every fringe element that claims to share their faith 
whereas other faith traditions are not imposed with the same 
burden.\103\ Not only are such expectations impractical, they are un-
American. We are a country founded on rule of law where each individual 
is responsible for her individual acts, not for the acts of others who 
happen to share the same race, ethnicity, gender, religion, or other 
characteristics. CVE programs contravene this fundamental American 
principle.
---------------------------------------------------------------------------
    \103\ Id. at 19.
---------------------------------------------------------------------------
    To be sure, we should not be creating CVE programs based on 
religious identities--whether Christian, Muslim, Jewish, or otherwise. 
But the unabashed focus on Muslims in Government efforts to counter 
politically-motivated violence in America demonstrates the Government's 
disparate treatment of faith communities.
v. funds for community development and resilience should be managed by 
        social service agencies without law enforcement control
    Muslims communities are among the most diverse in America. 
Comprised of races and ethnic backgrounds, the diversity of Muslim 
American communities is a testament to America's rich cultural 
heritage. Nearly 70% of Muslims are foreign-born and 20% are African 
American.\104\ For decades, Muslim engineers, doctors, lawyers, 
professors, and other professionals have contributed their skills and 
strong work ethic toward America's economic prosperity. Similarly, 
Muslims are entrepreneurs who operate businesses that create jobs and 
grow our economy.
---------------------------------------------------------------------------
    \104\ According the Pew Forum on Religious and Public Life, 65% of 
Muslims are foreign born, 35% are U.S. born, and approximately 20% all 
Muslims are African Americans. Section 1: A Demographic Portrait of 
Muslim Americans, Pew Research Ctr. (Aug. 30, 2011), http://www.people-
press.org/2011/08/30/section-1-a-demographic-portrait-of-muslim-
americans/.
---------------------------------------------------------------------------
    As a result, 14% of Muslims earn a household income over $100,000 
compared to 16% of the general population and 13% of Muslim households 
earn $50,000 to $74,999 compared to 15% of the general population. 
Accordingly, a Pew Research Center study in 2011 found that Muslims are 
mostly mainstream and well-integrated into American society.\105\
---------------------------------------------------------------------------
    \105\ Id.
---------------------------------------------------------------------------
    However, like many other American communities, Muslim American 
communities include a significant number of low-income families. The 
Pew Research Forum found that in 2011 45% of Muslim households earned 
less than $30,000 compared to 36% of the general public and only 33% of 
Muslims were homeowners compared to 58% of the general public.\106\ 
With the poverty line at approximately $28,000 for a family of 5 and 
$32,000 for a family of 6,\107\ a third of Muslims in America are on 
the verge of poverty. Moreover, 17% of Muslims were unemployed compared 
to 12 percent of the general public and 29 percent were under-employed 
compared to 20 percent of the general public.\108\
---------------------------------------------------------------------------
    \106\ Muslim Americans: No Signs of Growth in Alienation or Support 
for Extremism, Pew Research Ctr. (Aug. 30, 2011), http://www.people-
press.org/2011/08/30/muslim-americans-no-signs-of-growth-in-alienation-
or-support-for-extremism/.
    \107\ Poverty Guidelines, U.S. Department of Health & Human 
Services (Jan. 25, 2016), https://aspe.hhs.gov/poverty-guidelines.
    \108\ Muslim Americans: No Signs of Growth in Alienation or Support 
for Extremism, Pew Research Ctr. (Aug. 30, 2011), http://www.people-
press.org/2011/08/30/muslim-americans-no-signs-of-growth-in-alienation-
or-support-for-extremism/.
---------------------------------------------------------------------------
    Professor Khaled Beydoun's research on the experiences of low-
income Muslims in America at a time when Islamophobia has reached 
unprecedented levels demonstrates the need for social services in many 
Muslim American communities.\109\ Indeed, as a stand-alone faith-
group--Muslims are comparatively poorer than the broader American 
polity.\110\ In some Muslim communities, the poverty rate is alarmingly 
high. For example, 82% of the estimated 80,000 Somali Americans living 
in Minnesota are near or below the poverty line. In Brooklyn, nearly 
54% of Bangladeshi Americans are low-income or below the poverty line 
and many Yemeni American families who live in high cost cities such as 
New York, Detroit, and the Bay Area are low-income.\111\
---------------------------------------------------------------------------
    \109\ See Khaled A. Beydoun, Between Indigence, Islamophobia, and 
Erasure: Poor and Muslim in ``War on Terror'' America, CALIFORNIA LAW 
REVIEW (forthcoming 2016), available at http://papers.ssrn.com/sol3/
papers.cfm?abstract_id=2685840.
    \110\ Id.
    \111\ Id.
---------------------------------------------------------------------------
    The consequent social and economic challenges faced by some Muslims 
in America--not inflated terrorism threats based on fear and 
prejudice--should determine how we spend Government resources. For 
example, some Muslim leaders such as Los Angeles-based cleric Jihad 
Saafir, believe local gangs pose the most immediate threat to community 
safety, not home-grown violent extremists.\112\ As such, Government 
resources are more wisely spent on investing in education, employment, 
health, and other social services that empower diverse Muslim 
communities to thrive and prosper.
---------------------------------------------------------------------------
    \112\ Alejandro Beutel, Using Local Public-Private Partnerships to 
Reduce Risk of Violent Extremism, BRINK NEWS (Aug. 6, 2015), http://
www.brinknews.com/using-local-public-private-partnerships-to-reduce-
risk-of-violent-extremism/.
---------------------------------------------------------------------------
    In doing so, funds currently allocated to CVE should be redirected 
to social service agencies with the expertise and institutional mission 
to assist new immigrant and low-income communities. Law enforcement 
should only get involved if there is individualized suspicion of 
predicate criminal acts in accordance with the U.S Constitution and 
civil rights.
    Indeed, the proposal to decouple law enforcement from community 
development is consistent with Pentagon officials' determination that 
civilian programs abroad led by the U.S Agency for International 
Development were more effective in mitigating the circumstances that 
may lead some vulnerable youth to being recruited by terrorist 
groups.\113\
---------------------------------------------------------------------------
    \113\ James Stavridis & John R. Allen, Expanding the U.S. 
Military's Smart-Power Toolbox, Wall St. J. (June 9, 2016, 12:03 PM), 
http://www.wsj.com/articles/expanding-the-u-s-militarys-smart-power-
toolbox-1465425489.
---------------------------------------------------------------------------
    Government programs funded and controlled by State and Federal 
social service agencies, such as the departments of education and 
health and human services, will also facilitate community involvement 
in setting the agenda based on the diverse communities' needs. This 
will bolster community-Government partnerships. Communities can focus 
on working with qualified social services experts in addressing 
community development challenges rather than worry that their 
involvement will be exploited by law enforcement to surveil their 
communities, violate their civil liberties, and legitimize 
discrimination by private actors.
                             vi. conclusion
    We live in a world where opportunities and conflicts cross borders 
with ease. New technologies and advances in international travel have 
created unprecedented possibilites for citizens across the world to 
interact and exchange ideas for the common good.
    However, violent non-state actors with political agendas are 
exploiting new technologies and seamless borders to manipulate 
vulnerable individuals. They use myriad ideological doctrines to lend 
credence to their perverse political motivations.
    In confronting these violent actors, we cannot afford to adopt an 
``us versus them'' approach. We must unite as Americans to ensure we 
are all safe and secure from both state and nonstate violence. Doing so 
entails staying true to our fundamental American values. The most 
pertinent of which is our commitment to individual responsibility for 
individual wrongdoing, regardless of one's religion, race, or creed.
    Unfortunately, CVE programs undermine rather than promote these 
values as well as American security. The securitization of Muslim 
communities as potential terrorists legitimizes the pervasive anti-
Muslim prejudice and bigotry infecting our society today. Consequently, 
private actors are emboldened to harass, assault, and even kill fellow 
citizens who are or perceived to be Muslim. Meanwhile, CVE programs 
ignore the rise of right-wing extremists--who often target Muslims in 
hate crimes.\114\ All of which is exploited by Da'esh to validate its 
twisted narrative that America is at war with Islam.
---------------------------------------------------------------------------
    \114\ Peter Romaniuk, Global Center on Cooperative Security, Does 
CVE Work? Lessons Learned from the Global Effort to Counter Violent 
Extremism, Global Center on Cooperative Security (September 2015), 
http://www.globalcenter.org/wp-content/uploads/2015/09/Does-CVE-
Work_2015.pdf.
---------------------------------------------------------------------------
    In addition, the data does not support the need for a law 
enforcement-led CVE program targeting Muslim communities. Long before 
the White House CVE initiative in 2010, Muslims in America have 
informed law enforcement when they have knowledge of criminal activity. 
Indeed, Muslims have also actively stopped attempted terrorism by other 
Muslims. For example, a Muslim vendor in New York City was the first to 
spot smoke coming out of an SUV in the Times Square attempted bombing. 
His immediate communication with law enforcement was instrumental in 
preventing the loss of life.\115\ Thus, spending tens of millions of 
dollars on CVE programs especially for Muslim communities is not only 
stigmatizing, it is unnecessary and wasteful.
---------------------------------------------------------------------------
    \115\ Muslim Vendor Gets No Credit in Helping to Foil Times Square 
Bomb Plot, Democracy Now! (May 6, 2010), http://www.democracynow.org/
2010/5/6/muslim_vendor_gets_no_cre- dit_in.
---------------------------------------------------------------------------
    Independent of flawed CVE programs and specious radicalization 
theories, our Government resources are well-spent investing in new 
immigrant and low-income communities who face unique social and 
economic challenges. As a country that prides itself in offering the 
opportunity for social mobility to citizens willing and able to work 
hard, investing in community development is a worthy endeavor.
    Funds that would otherwise be wasted on ill-fated CVE programs 
instead should be given to social services agencies with the expertise 
to support the diverse Muslim American communities in need of job 
training, physical and mental health services, youth programs, 
educational opportunities, and other services that build community 
resilience. And rather than make such programs available only to a 
particular religion or race, they should be available to communities 
based on need.
    Fifteen years after the tragic 9/11 attacks, most Muslims in 
America want nothing more than to be actively and constructively 
engaged in American society. They welcome working with their Government 
and fellow citizens to ensure all Americans have equal opportunity to 
thrive and be safe. But they are thwarted from doing so by racialized 
Government programs that treat them as outsiders and fifth columns 
rather than partners and equal citizens.
    It is long overdue to rethinking our counterterrorism policies and 
practices to make them less discriminatory and more compliant with our 
Constitution to continue America's relative success in integrating 
communities of all faiths, races, and immigrant status.

    Mr. Perry. Thank you, Ms. Aziz.
    The Chair now recognized Ms. Qudosi for her testimony.

       STATEMENT OF SHIREEN QUDOSI, SENIOR CONTRIBUTOR, 
                        COUNTERJIHAD.COM

    Ms. Qudosi. Thank you for the invitation to speak. I am 
grateful for a critical opportunity to speak on this issue that 
is very close to my heart at this critical point in our 
Nation's history. I ask that my written testimony be submitted 
into record.
    Mr. Perry. Without objection, so ordered.
    Ms. Qudosi. I appreciate that all of you have taken time 
today to come here and discuss radical Islam. But just as we 
evolve from the war on terror to radical Islam, we must really 
take the next evolutionary leap and realize that we are dealing 
with a political ideology.
    We are dealing with a political parasite that is feeding 
off of a religion, and that religion is already complex by 
being both peaceful and warmongering. Islamism is a political 
philosophy with its own rich intellectual and religious 
history. Muslim reformers today are a beacon of hope in a 
challenging time. But we are not an anomaly.
    Muslim reformers are a resurgence of free-thinkers that 
have historically been silenced for political gain by other 
Muslim groups. The first group were called the Hiwadij, a 
fierce group of free-thinkers who opposed the caliphate system 
in the early years after the prophet's death. Today you will 
hear Muslim grievance professionals call the Hiwadij a band of 
outlaws and link them with ISIS, the very thing that the 
Hiwadij were against.
    Next, we have the Mutazilites who failed to birth a 
national and liberal peaceful Islam because they lacked 
political support. Today we have the reformers.
    Political support has and always will be necessary to 
challenge the system of Islamism and the monolith it has become 
in the last century. Today that system is protected by Muslims 
who refuse to recognize the challenges we face and the hand 
that Islamism plays.
    Whether we are looking at jihadis or radicals, Islamists or 
full progressives, which are leftists who refuse to recognize 
the reality of the situation, these groups enjoy Western 
liberty but have no interest in honoring or extending that 
liberty once their goals are secured.
    Here is an example. We already see how these groups use 
shame tactics and exclusionary practices to silence minority 
voices in Islam, voices like mine, all the while crying that 
they themselves are a minority in America in need of special 
protection. How does this espouse liberal values? The fact is, 
millions of Muslim Americans will not suffer if they are 
offended. The truth is, Islam is not a race. It is not in our 
blood. It is an idea. It is just an idea.
    Because of this, it is impossible to be Islamophobic, 
racist, or a bigot if you question an idea. It is not hate 
speech to speak the truth or to ask necessary questions. In the 
fight against Islamism, one of the first steps we need to take 
is to cut the reins on language and allow this country to have 
a real shot at winning this by having free and open 
conversations, just like we expect free and open elections.
    In that vein, the first point of any litmus test today is 
seeing which one of us is asking a question and which one of us 
is saying a question doesn't need to be asked. If we want to 
see more critical thinkers in Islam, if we want to make more 
voices heard for human dignity, then we need political support 
and we need a landscape that remembers the best of America, 
bold and unapologetic truthfulness.
    The political ideology of Islam is a means to break. At the 
same time, we have to discuss Islamic theology as well if we 
want to get to the heart of the problem as it impacts 
radicalization and CVE efforts. I want to stress that both 
Islamism and radical Islam need to be tackled. The former 
creates a ripe breeding ground for the latter.
    Ultimately what is going to be most effective in defeating 
radical Islam is not just programs, but to deploy change 
agents, like reformers, and help spark movements that break the 
ideology from within. We need to be culturally and 
philosophically combative and find, source, identify, and 
create those allies.
    The CVE program is like a math problem that asks you to 
answer what 2 plus 2 equals and then asks you to use the 
alphabet to form an answer. It is impossible. It doesn't work 
that way. The fact is, no CVE program currently in play is as 
powerful as Muslim change agents with a National, if not 
global, platform. That is how you win this. Thank you for your 
time.
    [The prepared statement of Ms. Qudosi follows:]
                  Prepared Statement of Shireen Qudosi
                           September 22, 2016
    Mr. Chairman, Members of the Committee, Ladies and Gentlemen: My 
name is Shireen Qudosi. I am a Muslim Reformer. I am a conservative and 
a feminist. I am an immigrant of Pakistani and Afghan heritage. I have 
traveled through Iran and Turkey, and was a refugee in Germany before I 
was lucky enough to become an American citizen. The experiences which 
shape my identity puts me in a unique position from which to view the 
larger war against radical Islam. My testimony will largely elaborate 
on the following points:
  <bullet> Muslim Reform acknowledges that Islam must change in order 
        to be compatible with life in our free society.
  <bullet> Islamism is neither a harmless alternative lifestyle nor a 
        collection of harmless beliefs; it is a political system with 
        definable ideas, an intellectual history and, alarmingly, a 
        relatively robust base of support within the United States.
  <bullet> A government and civil society emphasis on combatting 
        ``Islamophobia'' actually prevents any hope at Muslim Reform, 
        because it protects Islam from criticism from non-Muslims and 
        Muslims alike. It must be stopped.
    As a Muslim Reformer, I am committed to reform within Islam. As a 
mainstream doctrinal system of law and belief, Islam is in desperate 
need of change in order to make peace with the values we expect from 
life in a 21st Century liberal democracy or free society.
    Fifteen years ago, the need for change within Islam would have been 
an unremarkable and obvious observation recognized by Republicans and 
Democrats. One could hear the truth of this message both on Fox News 
and on MSNBC, from Muslim and non-Muslim voices alike.
    Today, however, even uttering this truth is uncomfortable and 
politically incorrect, in elite media, think tanks, NGOs--and 
especially within the capitals of Western nations. I believe this 
unwillingness to speak the truth on the part of those who are 
responsible for leading and keeping us secure is intimately tied to the 
current strategic incoherence of what was once called the War on 
Terror.
    That strategic incoherence takes the form of what has, I believe, 
been aptly described by former Federal prosecutor Andrew McCarthy as 
``Willful Blindness'' to the definable characteristics of the jihad 
around us.\1\ The core of military strategy, Sun Tzu tells us, is know 
your enemy and to know yourself. It is impossible to defeat what you do 
not, first, understand.
---------------------------------------------------------------------------
    \1\ Andrew C. McCarthy, Willful Blindness: A Memoir of the Jihad. 
Encounter Books (2008) https://www.amazon.com/Willful-Blindness-Andrew-
C-Mccarthy/dp/1594032130.
---------------------------------------------------------------------------
    For instance, on December 2, 2015, the San Bernardino shootings 
occurred.\2\ One of the shooters, an immigrant from Pakistan named 
Tashfeen Malik, passed at least three security screenings to be 
admitted, then helped murder 14 Americans.\3\ How could this happen? 
Because the public servants trying to screen out ``violent extremists'' 
are barred by law to look for Islamists or evidence of political 
commitment masquerading as religious belief.
---------------------------------------------------------------------------
    \2\ ``San Bernardino shooting updates,'' LA Times. December 9, 
2015. http://www.latimes.com/local/lanow/la-me-ln-san-bernardino-
shooting-live-updates-htmlstory.html
    \3\ ``US Visa U.S. Visa Process Missed San Bernardino Wife's Online 
Zealotry,'' New York Times, December 12, 2015. http://www.nytimes.com/
2015/12/13/us/san-bernardino-attacks-us-visa-process-tashfeen-maliks-
remarks-on-social-media-about-jihad-were-missed.html?_r=0.
---------------------------------------------------------------------------
    In addition to leaving us vulnerable to physical attack, ``Willful 
Blindness'' has taken an important cognitive toll, as well. For 
example, President Bush and members of his administration famously 
tried to extend a hand of friendship to Muslims after 9/11, by saying, 
``Islam is peace.''\4\ I am certain they believed it and said it in 
good faith--as do many Muslims who also say the same today.
---------------------------------------------------------------------------
    \4\ `` `Islam is Peace,' Says President: Remarks by the President 
at Islamic Center of Washington, D.C.'' https://georgewbush-
whitehouse.archives.gov/news/releases/2001/09/20010917-11.html Video at 
https://www.youtube.com/watch?v=9_ZoroJdVnA.
---------------------------------------------------------------------------
    Specifically, with regards to Islam, however, the truth is more 
complicated. The first 12 years of Mohammed's prophethood in Arabia 
was, indeed, suffused with a message of peace. What followed the 
Prophet's transition to political and military leader, though, was 
predominantly the establishment and maintenance of a Muslim nation 
through force and domination. Islamic scholars refer to these distinct 
phases--delineated by verses in the Qur'an--as either belonging to the 
Mecca or Medina periods, respectively. That legacy of violence and 
domination continued in the years after the prophet's death through the 
establishment of a Caliphate.
    Reformers and others can contextualize this ugly history, recasting 
and rechanneling its lessons for the Muslims of today. But by 
proclaiming that, simply, ``Islam is peace,'' we are distorting the 
story. Worse, we are ignoring great bulk of Islamic law dealing with 
relations between the Muslim community and its non-Muslim neighbors 
which emerged during the Medina period. You will find these verses in 
the Qur'an, which many Muslims consider the uncreated word of God:
  <bullet> ``Soon shall We cast terror into the hearts of the 
        Unbelievers, for that they joined companions with Allah, for 
        which He had sent no authority.'' (Q 3:151)
  <bullet> ``I will cast terror into the hearts of those who 
        disbelieve. Therefore strike off their heads and strike off 
        every fingertip of them'' (Q 8:12)
    These are among the verses that, underscored through scholarship 
codified into Islamic law or Sharia, form the doctrine justifying and 
encouraging every jihadi attack today.
    A more correct way to put it would be, ``Islam is peace and war.'' 
Censoring the word ``war'' does nothing to alter what Islam is or 
isn't. Those who do this try to press the truth into a narrative they, 
understandably, are more comfortable facing. Refusing to acknowledge 
the obvious, though, only undercuts people like me who are working at 
real, doctrinal reform.
    President Obama and members of his administration have taken the 
mistaken mantra that ``Islam is peace'' several steps forward in the 
same, misguided direction. Not only do they refuse to utter the words, 
``Islamic terrorism,'' they argue that even speaking those words is 
counterproductive and damaging to our efforts to combat it.\5\
---------------------------------------------------------------------------
    \5\ ``Why Won't Obama Say Radical Islam?'' NBC News, June 13, 2016. 
http://www.nbcnews.com/storyline/orlando-nightclub-massacre/why-won-t-
obama-say-radical-islam-n591196.
---------------------------------------------------------------------------
    They have so thoroughly disassociated cause and effect that they 
view acts of violent terrorism (now called the meaningless euphemism, 
``extremism'') as completely separate both from the world's Muslim 
population and the doctrines of Islamic religious law.
    Instead, the lens through which the President and others see this 
conflict playing out, especially within the United States and its 
Muslim population, is as a conflict between races and identities or 
between majority and minority individuals and communities rather than 
one between competing political systems. Perhaps this is to be expected 
in the context of America's history on recent civil rights 
battlegrounds; it is, in this case, incorrect.
    The obsession with stamping out the public's ``Islamophobia'' in 
the mold of previous anti-racism campaigns moves Islam from a religion 
into a racial or biological context. Islam is a religion--that is, it 
is merely set of concepts and beliefs. As such, ideas, concepts, and 
beliefs do not have human rights; individuals do.
    The most targeted and slandered voices today under ``Islamophobia'' 
are those who take aim at those ideas, not people. By calling criticism 
of the tenants of Islam or its doctrines ``Islamophobic'' or 
``hateful'' speech, we are placing a political system beyond the reach 
of criticism--and ultimately, any analysis at all, in fear of causing 
offense.
    This isn't theoretical; the censorship of threat-focused training 
materials for law enforcement and the intelligence community is 
something that happened under the Obama administration. At the urging 
of Islamists groups beginning in 2009, the Departments of Justice, 
Defense, Homeland Security, and the Central Intelligence Agency came 
under attack for so-called ``Islamophobic'' analysis that dealt with 
the enemy threat doctrine in general--and Islamic law and the Muslim 
Brotherhood in particular.\6\ Eventually, these efforts proved 
successful, as the agencies purged training materials, cancelled 
lectures, fired personnel, and essentially stopped teaching who the 
enemy is.\7\
---------------------------------------------------------------------------
    \6\ ``Lawmaker Questions FBI Materials Purge,'' Investigative 
Project on Terrorism, May 4, 2012. http://www.investigativeproject.org/
3566/lawmaker-questions-fbi-materials-purge.
    \7\ ``Cruz chews out Johnson over DHS `purge' of `Islam' references 
in terror reports,'' Washington Times, June 30, 2016. http://
www.washingtontimes.com/news/2016/jun/30/ted-cruz-chews-out-jeh-
johnson-over-dhs-purge-of-j/
---------------------------------------------------------------------------
    The doctrines of Islam are not a race or a protected class; they 
are not human beings with rights and feelings. Political systems, like 
opinions, must be questioned. They must be lampooned and mocked and 
derided--not because they are all deserving of such treatment, but 
because ideas that we are not permitted to attack are the ideas that 
control us.
    It's neither racist nor bigoted to say that Islamism exists, and 
that it is both horrific and a threat to our way of life. It is no more 
deserving of respect than Communism or Nazism, or any other idea or 
belief system in history--all of which have gone through rigorous 
scrutiny. Islam as it has evolved to a 21st Century is a political 
ideology that must be studied, understood, and defeated. While previous 
generations defeated these totalitarianisms, our leaders are now 
standing in their own way, seemingly paralyzed, avoiding the task ahead 
of them.
    Many who accuse others of ``Islamophobia'' believe they're doing 
good, protecting a vulnerable minority from a majority culture they are 
suspicious of. What they actually do is two very dangerous things: (a) 
Promote the idea that the only legitimate expression of Islam is 
Islamism, and (b) ratify the Islamists' hold on the Muslim community 
through the organizations it legitimizes through outreach.
    First, when criticism or analysis of Islam's doctrines are not 
permitted lest the critic be accused of ``Islamophobia'' or ``hate 
speech,'' it becomes impossible for Muslim Reform to succeed. The 
version of Islam embraced by today's Islamic authorities is 
undemocratic and totalitarian. It remains protected only because it 
masquerades as religion, when it is, rather, a tyrannical, political 
parasite feeding off a religion.
    Islamism is a political philosophy with its own intellectual and 
religious history. In addition, of course, to Islamic law and doctrine, 
in both theory and practice Islamism owes a debt to various modern 
conceptions of Western statism. Because of the totalitarian nature of 
Islamic law, it has occasionally intertwined and cross-pollinated with 
fascism, socialism, and communism.\8\ It is important to note that 
Islamism has not mixed--and, in fact, does not mix--with a tradition of 
liberty or freedom.
---------------------------------------------------------------------------
    \8\ ``How Islam got political: Founding fathers,'' BBC News, 
November 10, 2005. http://news.bbc.co.uk/2/hi/uk_news/4424208.stm.
---------------------------------------------------------------------------
    In the modern era, Islamism is a political movement that works to 
compete explicitly with our conception of Enlightenment liberal 
democracy in order to advance the role of Islam as an explicit 
governing system. It has its own political philosophy which is 
necessarily at odds with the Rights and Freedoms guaranteed by the U.S. 
Constitution and its Amendments.
    While I am a Muslim, I reject Islamism because I embrace our 
country's Constitution, and the Rights and Freedoms it explicitly 
protects. A reformed Islam can coexist quite comfortably within this 
Constitutional framework; Islamism, on the other hand, is in direct 
conflict. Because of these views, the Obama administration has never 
included me in a meeting. And yet the thousands of Muslim Reformers 
still waiting to emerge are the only truthful allies America has in 
this fight.
    Defeating the global scourge of Islamism is going to require 
breaking the political ideology, and also taking on the theology. 
Tackling the theology through which Islam is understood is necessary to 
push past second-hand sources--such as the infallibility of the Qur'an 
and its Messenger. This is where Muslim Reformers--rather than those 
who would claim a meaningless descriptor of simply ``moderate 
Muslims''--have our work cut out for us.
    Muslim Reformers are staring up at the immense wave of Islamism 
about to crash to shore. Because the climate is hostile to us, we need 
all the help we can get. We must activate networks of truly open-minded 
Muslims and create a platform to amplify their voices. Presently change 
agents continue to work with minimal resources, near zero funding, and 
face a combative pro-censorship environment.
    Reformers must work to reinitiate a tradition of philosophical 
questioning that has been lost to Islam. Islam did not arrive as a 
static faith; even the Prophet's core message changed substantially, 
leading to the abrogation of key doctrines even during his lifetime. 
Post-Muhammad, there were 200 years of scholarly devotion to 
understanding the faith. However, this spirit of inquiry that advanced 
the faith and the ability to re-contextualize long-established 
doctrines was lost. Muslim Reformers and their allies have successfully 
reinitiated a spirit of inquiry.
    Unfortunately, however, virtually every major Muslim group in 
America is working against the Reform project. They are working against 
me, as a Muslim Reformer, as I try to bring Islam into modernity. And, 
for this reason, they are working against you as well.
    Recently, Facebook shut me down for speaking out on reform. 
Islamists in the United States attack me for exposing them and 
defending truth-tellers.\9\ At the same time, Islamist front groups 
with ties to both terror and sedition enjoy privileged status in the 
media, the White House and before in Congress.
---------------------------------------------------------------------------
    \9\ ``Facebook Banned Me for Criticizing Islamists, But I Got the 
Last Laugh,'' Shireen Qudosi, Counterjihad.com, September 2, 2016. 
http://counterjihad.com/facebook-banned-criticizing-islamists-got-last-
laugh.
---------------------------------------------------------------------------
    What does it say to Muslim Reformers when the Secretary of Homeland 
Security attends the convention of the Islamic Society of North America 
(ISNA), a group whose Fiqh Council members have issued fatwas (rulings 
of Islamic law) that condone ``seeking martyrdom'' by attacking U.S. 
military personnel, support the murder of homosexuals, and oppose and 
condemn Muslims who ``befriend'' non-Muslims?\10\
---------------------------------------------------------------------------
    \10\ ``Fiqh Council of North America,'' Muslim Brotherhood 
Unmasked. http://www.brotherhoodunmasked.net/organizations-connected-
to-the-muslim-brotherhood/fcna.
---------------------------------------------------------------------------
    What message does it send when the President gives a speech from a 
mosque where women are forced into separate and unequal spaces\11\ and 
whose prayer leader was part of an organization designated for funding 
terrorism?\12\
---------------------------------------------------------------------------
    \11\ ``Obama's mosque visit demonstrates tacit acceptance of a form 
of gender apartheid,'' New York Times, February 3, 2016. http://
nytlive.nytimes.com/womenintheworld/2016/02/03/obamas-mosque-visit-
demonstrates-tacit-acceptance-of-a-form-of-gender-apartheid.
    \12\ ``Islamic American Relief Agency, Long Accused of Terror 
Finance, Pleads Guilty on Sanctions Violations,'' Counterjihad.com, 
July 26, 2016 http://counterjihad.com/islamic-american-relief-agency-
long-accused-terror-finance-pleads-guilty-sanctions-violations.
---------------------------------------------------------------------------
    Or when the Department of Justice meets with groups like CAIR, 
which was the Justice department itself has said was founded as a 
conspiracy to support Hamas, they are offering an implicit support for 
a group which has labeled Muslim Reformers as ``Islamophobes,'' opening 
them up to accusations of blasphemy, apostasy, and even death 
threats?\13\
---------------------------------------------------------------------------
    \13\ ``CAIR's `Islamophobia' List Is a `Hit List,' Say Critics,'' 
Breitbart, June 23, 2016. http://www.breitbart.com/big-government/2016/
06/23/cair-islamophobia-hitlist/.
---------------------------------------------------------------------------
    America isn't simply a physical space; it is a set of shared ideals 
that are codified into law and custom. Even in a highly partisan 
political climate, to function fairly and comfortably in the United 
States, there is an unspoken social contract. The presence of citizens 
with Islamist ideas within a polity has consequences for citizens of a 
free society.
    In order to get a clearer picture of the danger posed by Islamism, 
what follows are some examples of values or principles on which we, as 
Americans, should be able to agree, and the Islamist doctrines that 
could come into conflict with each.
    You must believe that the Constitution is the supreme law of the 
land, not that:
  <bullet> It's wrong to obey laws or help law enforcement officers if 
        that might lead to negative consequences for you or someone 
        else belonging to your religion (Reliance of the Traveler/
        'Umdat al-Salik, Book R, Holding One's Tongue, Section r7.0, 
        Giving Directions to Someone Who Wants To Do Wrong, p. 743-44);
  <bullet> Laws passed by an elected Congress or a parliament are, by 
        their very nature, illegal and that only laws revealed by the 
        deity of your religion are allowed (Q 8:39); or that
  <bullet> Any government established by laws and rules other than the 
        ones allowed in your religion should be overthrown by force or 
        subversion and replaced with one that only allows your religion 
        (Q 8:39; Q 9:5; Q 9:29).
    You must believe in freedom of religion, not that:
  <bullet> Beheading [or otherwise harming] those who do not believe as 
        you do is what God wants (Q 47:4);
  <bullet> Jews are an inferior people who should be denigrated and 
        demeaned and not treated equally in court (Q 2:65, Q 5:60, Q 
        7:166);
  <bullet> Anyone outside of your religion is legally forbidden from 
        building or repairing a house of worship (Reliance of the 
        Traveler/'Umdat al-Salik, Book O, Justice, Section o11.0, Non-
        Muslim Subjects of the Islamic State (Ahl al-Dhimma), p. 607-9) 
        (Pact of Umar);
  <bullet> Verbal or written criticism of your religious beliefs should 
        be criminalized, possibly even by the death penalty (Reliance 
        of the Traveler/Umdat al-Salik, Book R, Holding One's Tongue, 
        Section r2.0, Slander, p. 730; Q 49:12; Q 104.1; Q 68:11);
  <bullet> Deciding to leave the religion of your family should be a 
        death penalty crime (Q 16:106); or that
  <bullet> Offensive warfare to force those who don't accept your 
        religion to submit to it is not only permissible but obligatory 
        before God (Reliance of the Traveler/'Umdat al-Salik, Book O, 
        Justice, Section 01.2, p. 584; Book O, Justice, Section o9.0, 
        Jihad, p. 599, Q 8:39).
    You must oppose cruel and unusual punishments, not believe that:
  <bullet> Chopping off hands and/or feet is an acceptable legal 
        punishment for theft (Q 5:38-39);
  <bullet> Lashing people in public for moral offenses, like having sex 
        outside of marriage, should be the law (Q 24:2); or that
  <bullet> Adultery should be punished by stoning to death (Sahih al-
        Bukhari, ``Bab al Janaiz, Vol. 2, p. 90; Vol. 3, ``Bab al 
        Wakalah fi al Hudud'', p. 65; Vol. 7, ``Kitab al Ayman'', p. 
        218; Vol. 8, ``Bab al Rajm,'' pp. 24. 29. 34, 135; Sunan Al 
        Tirmidhi, ``Kitab al Hudud'', Vol. 4, pp. 27, 33, 34.).
    You must value life, liberty and the pursuit of happiness, not 
believe that:
  <bullet> A parent may kill their own child for any reason with no 
        legal consequences (Reliance of the Traveler/'Umdat al-Salik, 
        Book O, Justice, Section o1.2, pp. 583-84);
  <bullet> Government should enforce public dress code rules (Reliance 
        of the Traveler/'Umdat al-Salik, Book M, Marriage, Section 
        m2.3, p 512; Section m2.7, pg. 513);
  <bullet> Slavery should be legal (Q 23:5, Q 70:30, Sahih Bukhari, 
        Vol. 7, p. 137).
    You must believe that all men and women were created equal, not 
that:
  <bullet> A woman should have to have 4 adult male witnesses to prove 
        she's been raped or face charges of adultery (Q 24:4-5);
  <bullet> The word of a man in a court of law can only be countered by 
        that of two women (Q 2:282);
  <bullet> A sister should inherit one-half what her brother inherits 
        (Q 4:11);
  <bullet> A man has the right to multiple wives, but that a woman 
        should only have one husband (Q 4:3);
  <bullet> There is no such thing as marital rape, because a man should 
        be able to use his wife when and how he likes, with or without 
        her consent (Q 2:223); or that
  <bullet> Females should be ``circumcised''--have their genitals 
        mutilated--to ensure their chastity (Reliance of the Traveler/
        'Umdat al-Salik, Book E, Purification, Section e4.3, pg. 59).
    For the most committed liberals and conservatives--the most 
partisan Republicans and Democrats--can you not see that the issues 
that divide you are relatively small and inconsequential in comparison?
    These doctrines are cited from the most authoritative texts within 
Islam, including the Qur'an, the Hadith, and recognized texts of 
Islamic jurisprudence. It is important to note that, while an 
individual Islamist could disagree personally with one or more of 
these, they are part of authoritative, Islamic law according to the 
rules of Islamic jurisprudence and by the consensus of Islamic legal 
scholarship.
    This means that, for Islamists, even if there is a personal 
distaste for some of these tyrannical and barbaric practices, there is 
nonetheless the understanding that, as these doctrines are part of 
Islamic law: (a) they will not do battle against them through a process 
of Reform; (b) they will turn a blind eye as communities indoctrinate 
their children; and (c) they will demonize anyone who raises the 
problem as an ``Islamophobe.''
    No other idea in human history has ever received the level of 
insulation that Islam is receiving today. Western society needs to 
remember that not all things should be tolerated; not all ideas are 
equal.
    Speaking about his refusal to use the words ``Islamic terrorism,'' 
President Obama asked, rhetorically, ``So, someone seriously thinks 
that we don't know who we're fighting?''\14\
---------------------------------------------------------------------------
    \14\ ``President Obama Slams `Yapping' Over `Radical Islam' And 
Terrorism,'' National Public Radio, June 14, 20016. http://www.npr.org/
sections/thetwo-way/2016/06/14/482041137/president-obama-slams-yapping-
over-radical-islam-and-terrorism.
---------------------------------------------------------------------------
    I would raise my hand emphatically. If called upon, I'd respond 
respectfully that, ``Mr. President, you don't know who you're fighting 
because you don't know who or what you're dealing with. You don't see a 
monster for what it is because it tells you it isn't a monster. Or, to 
carry the metaphor further, because it tells you there's no such thing 
as monsters.''
    There is an inner struggle among Muslims today and growing 
conversations and collaborations that are pushing for the change that 
comes through critical dialogue and exposure. Yet this evolutionary 
leap is being held back by a Western society insulating it from 
critical thought by the politically correct impulse to and the Islamist 
campaign to silence criticism through hysteria about ``Islamophobia.''
    Even if Islamists never pick up a physical weapon, they are on the 
other side in this fight. The battle isn't just an issue with ISIS, 
which has become the predominant focus of most leaders and public 
opinion. This war will never end by simply playing whack-a-mole and 
taking the fight over there. There is no ``over there.'' The war is 
taking place multiple fronts and in several forms. It is, ultimately, a 
war of ideas and the battlefield is the mind.
    Today, there is no greater challenge than the challenge of 
Islamism. This enemy does not wear a uniform; it has neither a 
distinguishable accent or a unified language; it does not have the same 
country of origin. In fact, there is nothing that unifies them beyond 
Islamist ideology.
    For this challenge we need leadership of the same character resolve 
that got us through World Wars and Cold Wars in generations past. We're 
going to need leaders who are unafraid of being disliked, because what 
needs to be done to protect both America's National security and the 
Rights and Freedoms guaranteed by our Founding documents. Nothing less 
will suffice.
                            reccomendations
    1. Identify and understand the ideological conveyor belt Islamists 
        use to create jihadists, both outside and inside the United 
        States. 
       This process, as well as the infrastructure that supports it, is 
        not much different in Pakistan than it is in Michigan; the 
        foundational concepts and texts are the same. This means 
        monitoring fundamentalist mosques and communities in addition 
        to Islamic State websites and message boards. Law enforcement 
        must be aware of the physical space rather than just the 
        digital space.
    2. Insist that those coming to our country share our values, which 
        means restricting the ability of known, identified Islamists to 
        immigrate.
       This means identifying the defining characteristics of Islamism, 
        including the major political parties and movements that 
        embrace it. There are hundreds of such groups, and all they 
        have in common is that they ultimately want to impose seventh-
        century Islam on the entire world. Just as you shouldn't import 
        jihadists, you need to also stop importing Muslims who are 
        likely of activating as radicals or Islamist. It is also not 
        good enough to import people who are tacitly compliant in the 
        face of Islamism. This makes the job of the Muslim Reformer 
        more difficult.
    3. Initiate outreach efforts that require new Muslim immigrants to 
        interact with Muslim Reformers and secular Muslims. 
       Recognizing that not everyone who needs to be kept at bay will 
        be kept at bay, it is critical to allow reform-minded 
        communities (rather than Islamist organizations) to help 
        integrate new immigrants or refugees of Islamic background. At 
        present, almost all new Muslim immigrants stay within an 
        enclave that is racially segregated and almost impossible to 
        penetrate. This must change, as it is not in the interest of 
        social cohesion, integration, or National security to encourage 
        ghettoization.

    Mr. Perry. Thank you, Ms. Qudosi.
    The Chair recognizes himself for a period of questioning. I 
will start with Mr. Hoekstra. According to your testimony, 
jihadists have murdered at an alarming rate. These murders have 
skyrocketed since 2009, as you said, with nearly 30,000 killed 
last year. What do you see as the causes of this dramatic 
increase? I was going to save this question until after you 
answered that one, but maybe this question will help inform the 
answer to the next one.
    So you are already familiar with PSD-11 which, as a matter 
of fact, you made me aware of it. With that, does that affect 
domestic policy which then potentially affects the increase in 
these killings? How would you characterize that, if there is 
one, effect on the policy here at home and abroad? What signs, 
if there are any, that we can see that indicate the effect of 
that?
    For instance, what many of us in Congress and around the 
country feel is an unwillingness by the administration to 
identify the enemy, is that enrobed, potentially, in that 
policy?
    Are we too close to it and is the administration wedded to 
that policy so closely that now, for the sake of embarrassment 
or for the considerations of the dramatic failures in North 
Africa and in the Middle East that they just don't want to talk 
about it? So we can't say radical Islam or Islamists or those 
type of things. I would be interested in hearing your thoughts.
    Mr. Hoekstra. All right, let me address this. The second 
part of your question, first, is what has been the impact of 
implementing a policy directive like PSD-11 domestically? The 
impact domestically is that there are numerous examples which 
we have identified at the Investigative Project on Terrorism, 
and actually have a book coming out next month, because the 
evidence is so extensive, so deep and so broad, about the 
different types of people that have now been coming into the 
United States under visas to visit, the meetings that have been 
going on with these individuals and policymakers at State and 
at the White House is frightening.
    There is example after example after example of individuals 
who have embraced Hamas, who have embraced suicide bombers, 
issued Fatwahs against, and the death penalty against members 
of the LGBT community who, in prior administrations, would 
never have been granted access into the United States. They 
would never have gotten a visa.
    The State Department and Homeland Security would have taken 
a look at their background, their public statements and their 
actions and said, no, they are not getting into the United 
States.
    This administration has not only welcomed them into the 
United States, has welcomed them into the policy arms of the 
U.S. Federal Government. So that is how it has expanded 
domestically.
    These individuals then frequently will travel around the 
United States speaking at a number of the organizations that 
Zuhdi has identified, and they will also participate in 
fundraising and espousing the same messages of hate that they 
have given overseas and doing the same thing here in the United 
States.
    Internationally, as I said, yes, you know, it is absolutely 
important to identify the enemy, and we have. All right? What 
has happened with the Obama administration is that they have 
narrowed the definition of who the enemy is by embracing with 
individuals that the Clinton administration, the Bush 
administration always would have identified as being part of 
the problem and identifying them as the enemy.
    The biggest example is the Muslim Brotherhood. Under PSD-
11, and this is why I think it is absolutely critical that you 
get the information of who was vetted, how they were vetted and 
who we actually started to engage with. But engaging with the 
Muslim Brotherhood in Egypt and in Libya, two countries that 
were strong allies in fighting radical jihadists, OK?
    We facilitated or actively participated in their overthrow. 
We almost lost Egypt, all right? But thankfully, the forces 
that be in the country came back and we stopped the Muslim 
Brotherhood regime in Egypt after 1 year. We did lose Libya. So 
why do you see this escalation in the number of people who are 
victims? Because we lost Northern Africa, the weapons caches. 
We lost intelligence.
    I mean, I was Chairman of the Intelligence Committee. We 
met with Gaddafi and his intelligence individuals. They were 
providing us with insights into the threat from radical 
jihadism not only in Libya but throughout Northern Africa and 
parts of the Middle East. Gaddafi was good at gathering 
intelligence of these bad folks because they threatened his 
regime.
    After 2004, he shared that information with us extensively 
and cooperated with us. After 2011 that all went dark. In 
Egypt, cooperation with their intelligence has gone largely 
dark after 2011 because they no longer believe that they can 
trust us. In Iraq we have gone dark.
    So in a lot of these different areas where we used to get 
valuable intelligence, great participation, insights into the 
threat, those countries have now become failed states and they 
are havens for preparing, planning, and executing attacks 
against the United States.
    Mr. Perry. The Chair thanks the gentleman. My time has 
expired. Since there are only two of us left, if you don't 
mind, we will probably go a couple rounds because I have some 
more questions.
    But at this time, I yield to the gentlelady.
    Ms. Watson Coleman. Thank you, Mr. Perry. Thank you for 
your testimony. I want to understand a couple of things. Is the 
term Islam, is that the definition of a religion? Can I equate 
Islam with Christianity, Judaism? Is it the same thing? Is it 
or is it not? Anybody? Anybody on the panel?
    Dr. Jasser. Congresswoman, I would tell you Islam is what a 
Muslim believes it to be. So my Islam is certainly, I feel, 
similar to the morals of Judaism and Christianity in my 
personal practice and what I teach my children. But the Islam 
of Saudi Arabia, of the Khomeinis of Iran is an evil 
supremacist doctrine. So the question is whose Islam? I think 
it is similar in other faiths.
    Ms. Watson Coleman. Well, thank you. So that is an equation 
to a terminology from my religion--I am a Christian--
Christianity, right? Did you have something you want to say to 
this?
    Ms. Aziz. Yes. So Islam is a religion, a monolithic 
religion. Like any other religion, there are multiple 
interpretations. There are sects within the faith. Much of it 
is based on history.
    Ms. Watson Coleman. So is mine.
    Dr. Jasser. Monotheistic.
    Ms. Aziz. Monotheistic, excuse me. But also if you equate a 
religion with criminal activity of individuals, then you are 
essentially criminalizing the----
    Ms. Watson Coleman. You are ahead of me.
    Ms. Aziz [continuing]. The religion.
    Ms. Watson Coleman. You are ahead of me, because that is my 
concern. Because we have experienced in this country very 
heinous crimes, killings done by people of other religions. But 
we have not attached an -ism to it or an I-S-T to it and indict 
a whole religion. So I don't know how that is helpful.
    Ms. Qudosi. If I may speak?
    Ms. Watson Coleman. When I ask you.
    Ms. Qudosi. Sure.
    Ms. Watson Coleman. Thank you. I don't see the helpfulness 
in ascribing that to a religion and taking it into this sort of 
geopolitical or theopolitical environment. I will ask you--I 
want to speak to you a second, Dr. Aziz, because you said CVE 
is an unnecessary waste of money and in some ways it is 
counterproductive.
    So my question is, is there a role for either countering 
violent extremism through education and social services and 
community building? Or is there just no role for that in our 
country at this time?
    Ms. Aziz. Well, first I think we need to be very careful 
that we don't turn into thought police. If we start to 
criminalize and surveil religious beliefs, one is we may be 
infringing or are likely infringing on the First Amendment and 
opening the door to doing so with many other religious groups.
    The second is you have to focus on individualized 
activities, predicate acts for criminal activities that are 
reasonably suspicious. That will eventually lead you to the 
crime. These are very traditional, long-standing practices of 
law enforcement.
    Ms. Watson Coleman. So the issue should be for us to be 
developing these relationships and transform and educate our 
total community and as a means of prevention, preparation, and 
prevention, identification and encourage sharing. But there is 
a problem with that in your testimony, I believe, because the 
only agencies involved in this have a law enforcement 
identification. Did I get that? Is that accurate?
    Ms. Aziz. Yes, law enforcement is leading the effort and 
social services agencies are effectively being co-opted. That 
is going to create distrust with communities because they are 
going to be worried that this is a ruse to spy on them and 
chill their religious freedom and political beliefs.
    Ms. Watson Coleman. That is kind-of where I also wanted to 
go. I wanted to know, since you said, is you worked in the 
Muslim community quite extensively. How does the community or 
the communities feel about the CVE or projectivity sort of 
prioritization?
    Ms. Aziz. It has created a lot of divisions. Many 
organizations want to work with the Government in dealing with 
social problems, economic problems that face Muslim American 
communities, as they face many other communities, particularly 
problems that are associated with being low-income or being a 
new immigrant community where you may need particulars or----
    Ms. Watson Coleman. So what do you the pathway should 
really be?
    Ms. Aziz. I think that the Government should take the money 
from CVE, give it to social services organizations like the 
Department of Education and Health and Homeland Security and 
focus on helping communities across the country that are low-
income, that have specific social challenges, and creating 
healthy, thriving, prosperous communities.
    That, ultimately, is going to prevent all kinds of social 
problems and criminal activity from gangs to vulnerable youth 
who may, in fact, be recruited on-line, in secret, by 
international terrorists outside of the view of their families 
and their communities.
    Ms. Watson Coleman. Thank you.
    Ms. Qudosi, excuse me for cutting you off but you can't 
mess with my train of thought when it is going. So allow me to 
let you----
    Ms. Qudosi. Thank you.
    Mrs. Watson Coleman. Respond.
    Ms. Qudosi. Thank you. To answer your question about what 
is Islam, I agree with Dr. Jasser that Islam is very personal. 
Islam, when it was birthed was meant to be a pathway, a guide 
in the monotheistic tradition of Judaism and Christianity.
    Now, this shift happened initially after the first 12 years 
of Mohammed's prophethood when he went from peaceful to 
warmongering, if we are going to be honest. He waged jihad 
campaigns. Even if he didn't partake in those, he instructed 
those. He agreed to those. He didn't contest them.
    So when we talk about is a religion violent or does it 
excuse terror, well, we call it terror today. We call it 
violence today. Back then, that was just the way of the land, 
and that is the way of the people.
    So we have to understand that we are dealing with something 
really ancient, and it has come to this point and time. We are 
using modern language, and we are using, you know, our very 
limited scope of the last 100 years to understanding something 
that has been going on for 1,400 years.
    So in that sense, how did Islam become political? Well 
after the Prophet's death is really when it became a monolith 
of a political identity and ideology. That started with the 
caliphate.
    From there on it landed into the Umayyad Dynasty. This is a 
very complex thing. So Islam, from the get-go, has been very 
political. That is where we have sort-of wandered off-path.
    So when we as Muslims say today that Islam isn't political, 
it is just peace, it is not peace and war, we as Muslims don't 
understand our own faith. That is the problem. So to say that 
CVE, for example, should only be given to social services also 
fails to understand who we are as Muslims culturally.
    There is a great agency in Southern California called 
Access, started by an Arab lady. It took her a very long time 
to build that up. But one of the challenges she had with that 
is that Muslims don't speak out.
    If we need mental health or behavioral health, we don't 
seek it. We don't identify it. If we need counseling, we don't 
shame ourselves, ``by asking for help.'' So trusting that 
social services somehow is magically going solve this is not 
understanding the mentality of the Muslim mindset.
    Ms. Watson Coleman. OK. Equating their religion, does that 
help them to violence and terrorism, does that encourage them 
to be outspoken on their needs and desire to participate? Thank 
you.
    Ms. Qudosi. Could you clarify by equating your religion? 
Could you clarify the question? By equating religion?
    Ms. Watson Coleman. You say that they are very quiet, they 
are very insular. They don't speak out. My question to you is 
are you encouraging them to be more outspoken, to be more 
engaging, to be more participatory if you indict their religion 
as something that is dangerous and akin to terrorism? That was 
just my statement.
    Ms. Qudosi. Sure, I would love to answer that. Thank you. 
The direction that we are going with, as Muslims, is one of 
confrontation-conversation within ourselves and our own 
community, first and foremost. I have been talking about 
reform, before reform was even a catch phrase--16 years ago is 
when I first started this. The more I talk to Muslims, the more 
the conversation gets pushed even----
    Ms. Watson Coleman. Excuse me.
    Mr. Chairman, I want to yield back. I am way over my time 
here. If you would like to pursue it.
    Mr. Perry. Yes.
    Ms. Qudosi. I can wrap it up real quick.
    Mr. Perry. Sure.
    Ms. Qudosi. We are going to have division in our community. 
There is going to be confrontation. These are divisive times. 
Going to a successful conclusion means having those 
uncomfortable conversations. So we shouldn't be wary of 
division, or afraid of it. We should embrace it, and use that 
as opportunities to really push this dialog forward. Thank you.
    Mr. Perry. Thank you, and the Chair thanks the gentlelady 
from New Jersey as well.
    Dr. Jasser, Secretary Johnson earlier this year in front of 
the Senate Judiciary Committee stated ``If we in our efforts 
here in the homeland start giving the Islamic State the 
credence that they want to be referred to as part of Islam, or 
some form of Islam, we will get nowhere in our efforts to build 
bridges with Muslim communities, which we need to do in this 
current environment right now.''
    Now I am not a Muslim, right? So we are trying to figure 
this out, and we asked you to come and help us. A couple things 
come to mind. I think there is a doctor of Islamic theology 
named al-Baghdadi who named the Islamic State of Iraq and 
Syria. I am thinking, well, he is a doctor of the religion. As 
far as I know, that is his background. That is his education. 
Who am I to question him, if that is what he calls it?
    I wonder if there is a difference between Islamist and 
Islamic because we use--the Islamist term is used in the 9/11 
Commission Report. We are trying to be very clear here, because 
we don't want to indict a whole religion, but we need to get to 
the focus of the problem. So does the use of Islamic terms when 
discussing groups like Isis or al-Qaeda really enhance their 
credibility?
    Dr. Jasser. Chairman, actually not using it enhances their 
credibility, because what it does is it lets the loudest, most 
militant voices, and the governments and the organizations that 
currently have the mantle of Islam to dominate the 
conversation.
    So whenever Americans or Homeland Security or government 
wants to look up Islam, they Google Islam and go to the Islamic 
identified groups, and it is going to be those that have the 
heaviest traffic on the internet, and those that are making 
proclamations like Baghdadi was.
    At the end of the day, it then also lets the silent 
majority stay asleep. There is no reason for Muslims that I am 
told every day that agree with what I am doing. Yet they say, 
gosh, I don't want to get the targets that is on your back by 
doing the reform because when you stick your head up, it is 
going to get, you know, attacked.
    So at the end of the day, by denying the reality of the 
source, you are actually then it is a bigotry of low 
expectations, which is, oh, we know the president, you know, 
the head of the Islamic Republic of Iran doesn't speak for all 
Islam, but we will let you guys pass on the fact that it is a 
homophobic, supremacist country in its government.
    We will pass the fact that the royal family of Saudi Arabia 
is actually brewing and spreading billions of dollars of ideas 
that are actually the forefathers of ISIS in their ideas. We 
will pass that fact, and let them speak for Islam.
    Because if we talk about Islam in the freest country of the 
world, then it will all turn into anti-Islamic stuff, when in 
fact, people are flogged in front of mosques every day in Saudi 
Arabia that say what we are telling you.
    So in effect, we are actually invoking the same blasphemy 
laws in America that they do in Saudi Arabia. Why? Because of 
this fear of somehow that it is gonna become anti-Islam. 
Actually, at the end of the day, the best answer to your 
question is one of denial.
    It is like the smokers who don't want to admit that the 
cancer, lung cancer, is coming from the smoking. The smoking--
we are not abandoning the whole patient, but the smoking, the 
habit that is dealing to this, is Harakat-e-Islami, is what 
they call themselves in Arabic--Islamic movements. Political 
movements.
    So they might take away the tactic, and there is this huge 
letter to Baghdadi that all these organizations that are 
supported by ISNA and other Imams. They wrote a 25-page screed 
about why Baghdadi doesn't have the authority to declare jihad. 
He doesn't have the authority to declare a caliphate.
    What Americans--and the reason I am bringing your attention 
to it, they said the caliphate is mandatory in that letter. 
They said jihad, violent jihad is mandatory, but he doesn't 
have the credence or the authority.
    So that is the bigger problem. That is the intoxicant. It 
is not just the violence in these little terror groups that we 
can defeat militarily. It is the root cause. The root cause is 
this idea that violent jihad, Muslims can do that. Armies 
should be Muslim by name. That the Ummah is a State. It is not 
just a faith practice.
    Until we Muslims address that, and you bring us and force--
push us to do this, not by taking away our rights, but by 
actually having an adult conversation, and not by infantilizing 
our community into saying, oh, we can't address these things. 
So you have to address it and get us out of the denial that is 
preventing the treatment of the disease.
    Mr. Perry. So how do you believe the--I call censoring of 
certain terms when discussing violent Islamist extremists 
affects the Government's ability to interact with the Muslim 
communities in the United States? I mean does this practice in 
in fact make us less secure? I think you would agree it does.
    Dr. Jasser. Absolutely. It makes us less secure because 
then what ends up happening is, again, like I said in my 
opening, the arsonists are actually helping us fight fires. We 
aren't, I mean, Muslim, when I hear them talk about the 
community, are you working with the community or what is the 
effort?
    The effort is not just Muslims that go to mosque or that 
are parts of these Islamic groups. It is Muslims that are 
physicians, attorneys, that work in civic organizations and 
ethnic organizations from Indian organizations, Arabic, et 
cetera--Syrian organizations, not just religious groups.
    We are a diverse community. When Homeland Security and 
others want to reach out, don't just go to the mosque. I mean, 
just like in the reformation in the West, it was led by the 
business community and the others that finally told the 
theocrats that they don't run what defines Christianity. That 
ultimately led to the American Revolution.
    This is where we are in our time in history in Islam. As 
long as we continue to have this bigotry of low expectations 
where we just let the theocrats dominate who defines Islam, 
which is what the avoidance of the term does, then we are going 
to continue to actually do the bidding of our enemies, Iran, 
Saudi Arabia, Qatar, et cetera, and actually not work with our 
Muslims that share our values of freedom, democracy, and the 
universal declaration of human rights.
    Mr. Perry. Do you have something to add, Mr. Hoekstra, to--
--
    Mr. Hoekstra. Yes, thank you, Mr. Chairman. I think it is 
important to have that discussion, as Zuhdi was pointing out, 
because those of us who have traveled to the Middle East and 
those types of things, we recognize, as should all Americans, 
the many sacrifices that so many Muslims have paid to help us.
    You know, after the war in Iraq, and you go to the police 
training academies and you speak with the young men who are 
being trained and you recognize that many of these officers 
ended up being killed because they were targeted by radical 
jihadists. We need to celebrate the contributions and the 
sacrifices that those folks made.
    The folks that worked that worked with the American 
military in Iraq, who were targeted as they were working with 
us and especially targeted when we left Iraq and Afghanistan 
for being, you know, for working with us. They were targeted. 
We also need to recognize that the victims of radical jihadism 
are primarily other Muslims.
    You know, it is awful what radical jihadists do to 
Christians and other religious minorities throughout the Middle 
East, but the primary target and the groups paying the biggest 
price are actually other Muslims.
    So by moving that total discussion off of the table, you 
don't have that dialog and discussion about how much other 
Muslims have sacrificed to try to help us and how much they 
want to get rid of the radical jihadist movement.
    Mr. Perry. Do you want to move on?
    Ms. Watson Coleman. Well, I don't really like to--I notice 
that you wanted an opportunity to sort-of weigh in on a 
discussion that just taken place. I wanted to present that 
opportunity to you with my time.
    Ms. Aziz. Thank you. I just have a few points. The first is 
that the Government is prohibited by the First Amendment in 
entangling itself in religion. The establishment clause 
prohibits the Government from either promoting or infringing on 
religion and that would include engaging in theological 
debates. It is not the place, both as a matter of policy but 
more importantly as a matter of law for the Government to 
intervene in determining what is correct or incorrect in Islam.
    That is just something that has to happen within the 
communities, within the private sphere. My colleagues here are 
welcome to engage in that debate within the free marketplace of 
ideas. In fact, there are many debates that are going on, at 
least within the American Muslim communities--which are very 
diverse--about reform. People define reform very differently.
    So I think that it is a bit disingenuous to say that 
American Islam is stagnant, and that there are no debates, that 
there are no healthy discussions.
    The second point is I don't think we should underestimate 
the open letter to Baghdadi. We are talking about over 700 
mainstream religious authorities, scholars who are qualified, 
who have degrees, not people who just self-proclaim themselves 
to be experts or self-proclaim themselves to be reformists. 
Those individuals across the world have said this organization 
is fringe.
    It is violent. It is terrorist. It doesn't represent Islam 
insofar as their interpretations of the theology. Like in any 
theology, there always has been and there always will be groups 
who are going to misappropriate it for their political means.
    I just want to also add with regard to the Middle East, 
secular military dictators are repressing people as much as 
those who use religion as a ruse to oppress people. So for us 
to think that it is one problem, the Muslim Brotherhood, or 
some particular other organization that claims to use religion 
for political means, that is very simplistic.
    Egypt is a ticking time bomb, and it is going to have 
another revolution in my opinion, and it is going to be because 
of poverty, political repression, that is caused by military 
secular dictatorships.
    Mr. Perry. Yes, ma'am.
    Dr. Jasser.
    Dr. Jasser. Yes, thank you. I welcome the opportunity to 
respond to that because this is actually the key issue is that 
it is a cop-out to say that the Government cannot get involved. 
When you have a movement that is a theopolitical movement, it 
would be like in the Cold War saying that we should work with 
the Italian communists or the Cuban communists when we were 
fighting the Soviets.
    The Islamist movements are political movements that put 
into law legal systems that believe that Western secular law is 
un-Islamic, and they divide the world into Dar al-Islam and Dar 
al-Harb, the land of Islam, and the land of war. So if you are 
wondering how the Omar Mateens and others get radicalized, they 
are simply the tip of the iceberg of movements that view 
Western liberal democracies as the enemy.
    So our Constitution, and our First Amendment, is not a 
suicide pact. We cannot therefore say, well, if it calls itself 
a religion, welcome. Give them security clearances, give them 
whatever they want. It doesn't matter, because it is a 
religion.
    No, we have to have--and actually our response to the 
letter to Baghdadi was our Muslim reform movement declaration 
that we mailed twice to every mosque in the country, every 
Islamic organization.
    It is not 25 pages. It is 2 pages. It is in the record. It 
is an appendix to my testimony. I would ask you to look at it. 
It is simply 2 pages. It is not about religious theological 
debates.
    It says we reject the caliphate, all caliphates. We reject 
the Islamic State, all Islamic States. We reject violent jihad. 
We call for the equality of men and women, for the freedom of 
sexual identity, for free speech, rejecting blasphemy laws, 
apostasy laws.
    So therefore, those are not religious issues. Those are 
American principles that are part of the universal declaration 
of human rights. So it is not, no, I don't want the Government 
getting into theology, but I certainly want them protecting the 
underpinning and foundations of our American democracy that is 
based in religious freedom.
    So when Raif Badawi, Wahlida Buheir and others in Saudi 
Arabia are flogged for their religious beliefs, and I agree 
with Dr. Aziz about secular dictators. Both pathways are evil 
in the Middle East. We need to work toward a third pathway.
    But to say that attacking secular dictators and then 
saying, well, Islamist movements are somehow our friends 
because they believe in elections, those are mobocracies. She 
is right. There will be more revolutions in Egypt. I hope so. 
But we need to be on the right side of history.
    The denial to say, well, it is all about food and jobs, and 
we just get social services. No. It is about a political 
ideology that is rooted in Sharia statism. The only counter to 
that is not countering the tactic, but promoting Muslims that 
believe in national identity like Americanism, Egyptianism, a 
Syrianism that believes in liberty for all, equally and not 
about an Islamic State. That is what CVE should become, which 
is CVI.
    Mr. Perry. I would also say that while I find the military 
dictatorships just as unpalatable as the theocratic ones, the 
military dictatorships, generally speaking, that we might be 
discussing for purposes of this conversation, aren't presenting 
an imminent threat within and to our homeland, based on their 
actions in their country, where the other is.
    That having been said, I want to give Ms. Qudosi a couple 
of opportunities to answer some questions here. In an article 
in the Federalist that you authored earlier this year, you drew 
a comparison between World War II and our current struggle 
against violent Islamic extremism.
    You argued that unlike today, during World War II, the 
United States had no problem clearly defining its enemy. With 
that, why do you believe this administration has been unable or 
reluctant to name violent Islamist extremism as the enemy?
    Ms. Qudosi. First and foremost, the answer pings off what 
Dr. Aziz said. That is a question of our First Amendment 
rights. It is not just about religion. It is also about free 
speech, and that has been completely squashed.
    There is so much purging, scrubbing. There is cultural 
shaming, social shaming. We are just--excuse me--not allowed to 
speak truthfully without being bashed by the majority Muslim 
groups. That is No. 1.
    So as a larger democracy, we are dealing with a climate 
that doesn't understand that here is Islam, and then here is 
how Islam started. Then here is how this political ideology 
that grew out of Islam tacked itself on.
    So we are dealing with a hybrid faith here that is part 
theology, part ideology. That means we have to touch political 
ideology. It is not just Islam. It is the ideology that has 
come out of Islam that has mutated the faith. This is something 
that Muslims simply do not even know about, let alone non-
Muslims. So that is part of the problem.
    Not having understanding of that affects our ability to 
really be able to come up with solutions. So when we say that, 
you know, Islam is peace, or we are not at war with Muslims, 
well, let's look at what a couple of Muslims have said.
    Excuse me. Earlier this year, I interviewed Abu Taubah, 
a.k.a. Marcus Dwayne Robertson, who was affiliated, or said to 
be affiliated, with Omar Mateen, the Orlando shooter. In an 
exclusive 2-hour interview, he stoked race wars. He called for 
militant Muslims. He said women were unfit for office. He 
called for a radical war against the West. That is inevitable 
in his eyes.
    He is a Muslim convert, a highly-educated former 
intelligence official in the United States Marine Corps. So 
this is one example of a domestic Muslim. Internationally we 
have Oriyah Makfuljan a Deobandi-Taliban supporter, a media 
personality, and an Islamist in Pakistan, who was seen in 2009 
outside Badshahi Mosque standing next to Hillary Clinton, then 
Secretary of State.
    While she is speaking about challenging extremism, and 
challenging Taliban, here is a Taliban supporter right next to 
her who has been quoted to publicly say that women like to be 
beaten, the West are heartless killers, Jews are apocalyptic 
destruction. In the coming war, he calls for all Muslims to 
come to arms.
    These are the people that we are dealing with. These are 
the people who are using faith to drive that mission. So we can 
sit here and say we are not going to touch Islam, but what is 
the alternative here? I mean there is no alternative. We have 
to touch it.
    The other reason is that we keep saying what will ISIS say? 
Well, ISIS isn't sitting over there wondering about what 
Americans are going to say. ISIS is going to use whatever 
narrative we throw at them and twist it. If we talk about ISIS 
being Islamic, they have won. If we say ISIS is not Islamic, 
they have still won because we are not addressing what gives 
them validation.
    That validation comes from the darkest underbelly of a 
1,400-year-old faith that justified killing. Not to the 
extremes that they have done it in, but still they use the seed 
of Islamic terror to justify their actions, and launch a 
caliphate, which was, again, still a part of original Islam and 
part of Islam's origin story.
    So the best way to tackle ISIS beyond whack-a-mole CVE 
programs is to tackle their belief system, and to ultimately 
destroy the credibility they hold, which is ultimately that 
this is a divine mission for them on some level. So we have to 
understand the theological aspect of it.
    Mr. Perry. Yes. Could I supplant belief system with 
ideology? Would it be--you say we have to attack their belief 
system. Would it be correct or analogous to use ideology in the 
same vein?
    Ms. Qudosi. You could, but if I am gonna be brutally 
honest, ultimately it comes down to what their identity, or 
what their identity as Muslims is and what their belief system 
is about God, or Allah. So that is really the root of the 
problem.
    So that any radicalized person--Omar Mateen, if you want to 
talk about Abu Taubah, you want to talk about ISIS, al-Adnani, 
these people ultimately look for a higher source, and that is 
how they have interpreted God. So this becomes an ideological 
and a theological debate.
    At the same time, what we have here is we have a country 
that doesn't want to be offensive, who wants to hide itself 
under political correctness, while throwing billions if not 
more dollars at a problem. How much more money are we gonna 
throw at this problem and expect it to solve itself?
    Mr. Perry. The Chair thanks you, gentlelady.
    Ms. Watson Coleman. I have two questions.
    Mr. Perry. The gentlelady is recognized.
    Ms. Watson Coleman. Thank you very much. Ms. Quo----
    Mr. Perry. Qudosi.
    Ms. Watson Coleman. Qudosi, I am sorry. I can't see the D 
here. Can I just ask you what is your profession? What do you--
--
    Ms. Qudosi. I am a writer.
    Ms. Watson Coleman. That is----
    Ms. Qudosi. Yes.
    Ms. Watson Coleman. Are you an author, or do you----
    Ms. Qudosi. I am working on 4 books at the moment, 2 of 
them are almost done. I have been blogging with Qudosi 
Chronicles. I have written for numerous outlets. I have 
traveled overseas, studied communities, Japanese American and--
sorry--Japanese Muslim communities.
    Ms. Watson Coleman. That is how you make a living? Is that 
how you make a living?
    Ms. Qudosi. Yes. I also do marketing, I do marketing 
specifically for behavioral health, mental health, and for 
education.
    Ms. Watson Coleman. Oh, OK, thank you.
    Dr. Jasser, you said something there. You said that the CVE 
needs to change its name to CVI. So then are you suggesting 
that CVE's only job should be to address counter violent 
extremism in the Islam community? So what would we do, what 
would its responsibility be in other space? Or do you feel that 
there is no need for any activity in any other space of 
domestic violence?
    Dr. Jasser. I am glad you want me to clarify that. As far 
as the context of this hearing, which is countering radical 
Islamism and the terror that is invoked from that, I believe 
that we need a CVI program.
    Now that would be part of Department of Homeland Security's 
other programs to keep us safe from all threats. But this 
comparison, I think it is very ethno- and National-centric to 
simply compare radical Islamic groups to other non-Islamic 
terror threats in America.
    Why? Because this is a global war that we are seeing simply 
fought on the streets of America and on the streets of Europe. 
But the bigger problem is the cataclysmic changes happening 
within nations across the Middle East.
    So that is going to reach into the biggest threat to those 
dictatorships, and those Islamist movements, which is America. 
It is gonna come here whether we are isolationist or not. The 
way to counter that is to work with groups that share our 
ideals within the Muslim community.
    Josh Earnest from the administration talked about the 
narrative, but his discussion of the narrative was simply a 
negative, which was oh, we need to be apologetic that America 
isn't bigoted, et cetera. I would tell you we need to promote 
freedom and democracy within the Muslim community, domestically 
and abroad, so----
    Ms. Watson Coleman. Thank you.
    Dr. Jasser [continuing]. I think that is important.
    Ms. Watson Coleman. I would like to just kind-of quote you. 
``The only way to right this deep misdirection is actually very 
simple. All we need to do is to abandon the mantra of 
countering violent extremism, and replace it with countering 
violent Islamism.''
    Dr. Jasser. Absolutely. So if you are looking at, for 
example----
    Ms. Watson Coleman. Thank you.
    Dr. Jasser [continuing]. Extremism that may come from the 
Nazi party, I would tell you it should be countering violence 
of fascism. So extremism is simply a tactic.
    Mr. Perry. The gentlelady has yielded her time. Reclaiming 
my time now, if you want to finish your thought, Dr. Jasser, 
you may.
    Dr. Jasser. Thank you. Again, extremism, the reason we are 
failing, we are holding our Homeland Security agents to a 
standard that is impossible. It is turning into some truly 
thought police, where they are trying to figure out when an act 
is gonna happen. Acts come from ideas.
    Every time, whether Fort Hood, when he is walking around 
Walter Reed with cards that said Soldier of Allah. Whether it 
was Omar Mateen, or any of the radicals. The Chattanooga Bomber 
was posting on-line that he wanted to establish Islam on earth. 
We weren't monitoring that.
    Nobody is saying to take away their rights, but we need to 
monitor that. That is not extremism, that is Sharia supremacist 
ideology that we should be monitoring. And right now our 
Homeland Security agents are unable to do that, because of 
restrictions of verbiage in the lexicon that is blasphemy laws 
that prevents them from doing their work.
    Mr. Perry. I yield time to the gentlelady.
    Ms. Watson Coleman. Thank you. I don't think we disagree 
that we should be vigilant, and we should be operating in every 
space that represents a threat to the safety and security of 
the United States of America. That is not a premise that I 
disagree with.
    I agree that we should be doing it. I just simply think 
that we should not be targeting our language in such a way that 
probably helps to fuel the recruitment and the expansion of 
those that we are talking about today. With that, I thank you 
very much.
    Mr. Perry. Reclaiming my time.
    Dr. Jasser.
    Dr. Jasser. Well, I think it is willful blindness and 
actually it encourages the radicals to see us in the freest 
country on the planet, refuse to identify it as the problem, 
the root cause as the Islamic State ideology, any Islamic State 
ideology. That establishment clause that we are defending here 
is the exact central nuclear idea that the Islamists hate. They 
want to establish religion not only in their countries, but on 
earth.
    Muslims that reject that, are the ones we should bond with. 
Homeland Security cannot bond with Muslims that want an 
establishment clause in Muslim countries, unless we identify 
the disease as Islamism domestically and abroad.
    Thus we end up actually with these false partners. Imagine 
the Cold War working with communist parties to help us against 
the Soviets because they rejected Soviet global theory, but yet 
they believed in communism.
    That is what we are doing right now when we work with the 
Islamic State ideologues of Saudi Arabia, Iran, and others as 
our partners against radical militant Islamists, and call them, 
as Mr. Ellison did earlier, a cult, et cetera.
    These are natural violent byproducts of Islamist nations 
that is spread by billions. Books are in organizations and 
mosques like the Islamic Society of North America mosques and 
others, books like the ``Reliance of the Traveler'' that call 
for the death of apostates and others, still are sold in their 
conventions that Jeh Johnston speaks at. That is a problem of 
willful blindness.
    Mr. Perry. Thank you, Dr. Jasser.
    Ms. Aziz, you have argued that the recent rise in 
radicalism and terrorism can be attributed to factors such as 
political oppression and lack of economic opportunities in 
countries. I don't want to put words in your mouth, but that is 
what I have got here.
    So if that is not true, please forgive me and just let me 
know. But if it is true, do you have any empirical data to 
support that claim?
    Ms. Aziz. Well, there are many studies by international 
development experts that focus on failed states. In fact, there 
are many--the literature is growing about what is happening in 
the Middle East in terms of the causes for all of these deaths 
that we see that are caused by terrorism.
    So there is no shortage. It is certainly a debate within 
the literature. But there is no shortage of opinion that the 
terrorism is bred when you have failed states, when you have 
conflict.
    Mr. Perry. Well, so, and I imagine, I just wonder if there 
is a causal relationship. I am not saying that it doesn't 
happen in failed states where there is increased poverty and 
lack of opportunity, et cetera. But we have it happening in the 
United States. We have it happening in the most affluent 
countries on the planet.
    We have it happening and being led by, or having been led 
by, some of the most affluent people on the planet in Osama bin 
Laden, al-Zawahiri. These are educated people of means, yet 
they ascribe to this ideology.
    So when we hear that some of the roots are political 
oppression and lack of economic opportunity, I got to tell you, 
I find especially the political oppression, well, either one. I 
mean the political oppression. These folks are oppressed 
because they wish to overthrow the governments that they are 
in.
    Now, the governments they are in might be autocratic, but 
they just wish to institute a theocratic government that is at 
least as oppressive as the one that they just replaced. From 
the economic standpoint these, again, are people of means. So 
how do we validate that other than just saying it happens at 
the same place? But I don't see a cause and effect, and that is 
what I am looking for as some empirical data, if you have any.
    Ms. Aziz. So I think you have to look at the leaders versus 
the recruits, versus the opportunity. Leaders of most 
politically motivated groups that use an ideology, whether it 
is religious or secular in nature, are often actually quite 
sophisticated. That is why they are not on the front lines and 
they are very few in number. What the failed state and the 
conflicts and the repression create is fertile ground for 
recruitment.
    So it makes it very easy to manipulate particularly young 
people, often young men who may have mental health problems, 
who may be experiencing a personal crisis, who may in fact be 
poor, alienated, and marginalized, to essentially manipulate 
them and lie to them, and say this ideology--if it is religious 
it is often completely warped--is a justification for you to 
join me.
    Then when you have a failed state there is no state to 
control that, there is no police force, there is no 
intelligence. But I just want to note that in Syria, over 
100,000 Syrians have died from state terrorism from Assad's 
regime.
    So non-state terrorism--if we didn't have the conflict in 
Syria and Iraq right now, we would not nearly be seeing these 
numbers in terms of victims of terrorism, which as my colleague 
said, most of whom, over 90 percent are Muslims.
    Mr. Perry. Which to some extent I would agree with you, and 
I would refer back to PSD-11 and a change in policy where the 
United States essentially partnered with the Muslim 
Brotherhood, and people that are interested in a theocratic 
state. We have created or been a party to creating this issue 
in Northern Africa and the Middle East.
    It has been a fascinating, enlightening discussion, and I 
appreciate your patience and your diligence, both the 
testifiers and the audience and the Members. Today the Chair 
thanks very much the witnesses, especially those who have 
traveled long distances for their valuable testimony, and the 
Members for their questions.
    Members may have some additional questions. If I may depart 
just from the text for a moment? Dr. Jasser, you said there was 
a 25-page--what did you----
    Dr. Jasser. Two-page letter.
    Mr. Perry. No, he had the 2-page letter that has already 
been submitted. The 25-page----
    Dr. Jasser. The letter to Baghdadi that actually my 
colleague endorsed. So----
    Mr. Perry. Has that been entered into the record?
    Dr. Jasser. No, I didn't----
    Mr. Perry. Could you forward that to me please, at your 
earliest convenience?
    Dr. Jasser. Yes, sir.
    Mr. Perry. I appreciate it.
    Ms. Watson Coleman. What is the 25-page supposed to be?
    Mr. Perry. The 25-page, to be correct, right?
    Dr. Jasser. The 2-page is part of the appendix. My 
appendices of my testimony has the Muslim Declaration.
    Ms. Watson Coleman. We didn't get either.
    Mr. Perry. OK, we will make sure you do.
    Ms. Watson Coleman. Yes.
    Mr. Perry. But he is talking about the 25-page letter to 
Baghdadi.
    Dr. Jasser. Yes, that I didn't----
    Mr. Perry. That is the one I want to see as well.
    Ms. Watson Coleman. OK.
    Mr. Perry. He has already submitted the 2-page with his 
testimony. We will make sure you get it.
    Ms. Watson Coleman. Right.
    Mr. Perry. Yes, ma'am. All right.
    So with that, Members may have some additional questions 
for the witnesses, and we will ask you to respond to these in 
writing.
    Pursuant to committee rule 7(e), the hearing record rule, 
will remain open for 10 days. Without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 12:49 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Questions From Honorable Barry Loudermilk for George Selim
    Question 1. Could you provide the committee with the CVE curriculum 
that your office is developing for the partners it is currently 
engaging with? If so, please provide it in an addendum to your 
response. If not, please explain why it cannot be shared with the 
committee.
    Answer. Response was not received at the time of publication.
    Question 2a. Once an organization is in the review process to 
receive a grant, are these organizations vetted for security issues? If 
so, what type of screening criteria is in place to vet applicants?
    Who, specifically, within DHS is doing the vetting?
    Answer. Response was not received at the time of publication.
    Question 2b. Does DHS have standing agreements with other agencies 
to assist in the vetting process? If so, who are they and how are they 
vetting applicants? If not, why?
    Answer. Response was not received at the time of publication.
    Question 2c. Who exactly is vetted? The organization, or 
individuals within the organization? If only the organization as a 
whole is vetted, and not individuals that comprise the organization, 
are we not opening ourselves up to a large security gap?
    Answer. Response was not received at the time of publication.
    Question 2d. Is every single received application vetted? Or does 
the vetting start after an applicant has successfully moved past an 
initial review stage?
    Answer. Response was not received at the time of publication.
    Question 2e. Considering the grants are being awarded to counter 
radical Islam, do you think the current vetting process is robust 
enough? What more could or should be done? Please explain.
    Answer. Response was not received at the time of publication.
    Question 3a. As mentioned in Chairman Perry's opening statement, 
properly defining the threat that we currently face is of the utmost 
importance. However, the administration refuses to use terminology such 
as ``Islamist'' when discussing extremism.
    What terminology does the Office of Community Partnerships use to 
define this terrorism?
    Answer. Response was not received at the time of publication.
    Question 3b. If the Office of Community Partnerships chooses to not 
correctly or adequately define our enemy, how are you able to fully 
advertise the CVE Grant Program? Do you think you would receive a 
different set of applicants based on how you're viewing, or not viewing 
radical extremism?
    Answer. Response was not received at the time of publication.
    Question 3c. What type of guidance or language in the grant 
application forms specifically discusses the ideology of radical Islam?
    Answer. Response was not received at the time of publication.
    Question 3d. By not including proper background information on the 
threat--for example the root causes of radicalization, and specific 
language to frame the Islamist threat, do you think you are ignoring 
the intent that Congress had when authorizing and appropriating these 
funds?
    Answer. Response was not received at the time of publication.

                                 <all>
</pre></body></html>
